<html>
<title> - MISCELLANEOUS PUBLIC LANDS AND NATIONAL FORESTS BILLS</title>
<body><pre>[Senate Hearing 107-846]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-846

                      MISCELLANEOUS PUBLIC LANDS 
                       AND NATIONAL FORESTS BILLS

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON PUBLIC LANDS AND FORESTS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   on
                                     

                         S. 2016                             S. 2612

                         S. 2565                             S. 2652

                         S. 2587                             S. Con. Res. 107


                                     
                               __________

                             JULY 30, 2002


                       Printed for the use of the
               Committee on Energy and Natural Resources

                                 -------

83-959              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman
DANIEL K. AKAKA, Hawaii              FRANK H. MURKOWSKI, Alaska
BYRON L. DORGAN, North Dakota        PETE V. DOMENICI, New Mexico
BOB GRAHAM, Florida                  DON NICKLES, Oklahoma
RON WYDEN, Oregon                    LARRY E. CRAIG, Idaho
TIM JOHNSON, South Dakota            BEN NIGHTHORSE CAMPBELL, Colorado
MARY L. LANDRIEU, Louisiana          CRAIG THOMAS, Wyoming
EVAN BAYH, Indiana                   RICHARD C. SHELBY, Alabama
DIANNE FEINSTEIN, California         CONRAD BURNS, Montana
CHARLES E. SCHUMER, New York         JON KYL, Arizona
MARIA CANTWELL, Washington           CHUCK HAGEL, Nebraska
THOMAS R. CARPER, Delaware           GORDON SMITH, Oregon

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               Brian P. Malnak, Republican Staff Director
               James P. Beirne, Republican Chief Counsel
                                 ------                                

                Subcommittee on Public Lands and Forests

                      RON WYDEN, Oregon, Chairman
DANIEL K. AKAKA, Hawaii              LARRY E. CRAIG, Idaho
BYRON L. DORGAN, North Dakota        CONRAD BURNS, Montana
TIM JOHNSON, South Dakota            PETE V. DOMENICI, New Mexico
MARY L. LANDRIEU, Louisiana          DON NICKLES, Oklahoma
EVAN BAYH, Indiana                   GORDON SMITH, Oregon
DIANNE FEINSTEIN, California         CRAIG THOMAS, Wyoming
CHARLES E. SCHUMER, New York         JON KYL, Arizona
MARIA CANTWELL, Washington           RICHARD C. SHELBY, Alabama

  Jeff Bingaman and Frank H. Murkowski are Ex Officio Members of the 
                              Subcommittee

                    Kira Finkler, Democratic Counsel
                Frank Gladics, Professional Staff Member


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Abbey, Robert, Acting Assistant Director for Renewable Resources, 
  Bureau of Land Management, Department of the Interior..........    16
Bentley, Clint, Founder, Nevada Land Users Coalition, Las Vegas, 
  NV.............................................................    41
Cantwell, Hon. Maria, U.S. Senator from Washington...............     3
Craig, Hon. Larry E., U.S. Senator from Idaho....................     5
Ensign, Hon. John, U.S. Senator from Nevada......................    14
Feinstein, Hon. Dianne, U.S. Senator from California.............     6
Hunter, Kem, Mayor, Town of Index, WA............................    39
Kimbell, Abigail, Associate Deputy Chief, National Forest System, 
  Forest Service, Department of Agriculture......................    24
Murkowski, Hon. Frank H., U.S. Senator from Alaska...............     2
Murray, Hon. Patty, U.S. Senator from Washington.................     7
Pearce, Drue, Senior Advisor to the Secretary of the Interior for 
  Alaska Affairs.................................................    31
Reid, Hon. Harry, U.S. Senator from Nevada.......................    10
Wallin, John, Director, Nevada Wilderness Project................    46
Wyden, Hon. Ron, U.S. Senator from Oregon........................     1

                                APPENDIX

Additional material submitted for the record.....................    57

 
                    MISCELLANEOUS PUBLIC LANDS AND 
                         NATIONAL FORESTS BILLS

                              ----------                              


                         TUESDAY, JULY 30, 2002

                               U.S. Senate,
          Subcommittee on Public Lands and Forests,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Ron Wyden 
presiding.

             OPENING STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. The subcommittee will come to order. Let me 
note that we do have a vote at 2:45, but we are going to see if 
we can begin and at least get through the opening statements, 
and then we will go for the vote and return quickly.
    The purpose of today's hearing in the Senate Subcommittee 
on Forests and Public Lands is to receive testimony on a number 
of public lands and national forests bills. Our goal is to 
focus on constructive and creative responses to issues arising 
on our public lands concerning environmental, economic and 
human concerns.
    During this Congress, the subcommittee has heard testimony 
on a number of contentious issues, including old growth 
Northwest forest plans, and fire issues, but also on a number 
of noncontroversial public land management issues such as 
invasive weed control and individual land exchanges.
    Today, the subcommittee examines the issue of wilderness in 
addition to addressing proposed solutions to several public 
land management issues that have come across the country. To 
that end we will be examining S. 2016 to authorize an exchange 
of lands in Alaska; S. 2565, the Wild Sky Wilderness Area, 
which proposes wilderness in Washington State; S. 2587 to 
establish a Joint Federal and State Navigable Waters 
Commission; S. 2612 to examine wilderness areas in Nevada; S. 
2652, the Florida National Forest Grant Management Act; and S. 
Con. Res. 107 expressing the sense of Congress that Federal 
land agencies should be fully supportive of the Western 
Governors Association collaborative 10-year strategy for 
reducing fire risks.
    We are very pleased to have members, in particular from 
Nevada and from Washington, who have done very good work with 
respect to their wilderness bills, and we commend them for 
working hard to bring all the stakeholders together. We welcome 
all of them, and I first want to recognize our colleagues for 
their opening statements, and let us begin with Senator 
Murkowski.

      STATEMENT OF HON. FRANK H. MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you very much, Senator Wyden. Let 
me generalize a little bit again, and I have done this every 
occasion as we look at the fires that are burning in the West, 
whether it be Colorado or California or now Oregon, and the 
realization that these fires don't necessarily know the origin 
of land, other than it's rather curious that for the most part 
these fires are occurring on U.S. Government land, and they are 
devastating, and if you look at forest management practice and 
recognize that those that control private lands, they are not 
exempt from lightning or activities associated with campfires 
or accidents, but they have a much better record of being able 
to combat them because they have access into the areas.
    As long as we maintain this ingenuous, disingenuous I 
should say, policy of kidding ourselves that somehow we can 
manage these public lands without having access into the areas, 
we are going to continue to have devastating fires and as a 
consequence, those fires are going to leave us with the 
frustration of having to make decisions that are temporary as 
opposed to decisions that are permanent. The permanent 
decisions suggest access is appropriate in these areas and the 
sooner we get on with it, the better.
    I want to thank you for the hearing today on two of the 
bills from Alaska. The Concurrent Resolution 107 calls for the 
Forest Service and Department of the Interior land management 
agencies to implement the Western Governors Association so-
called collaborative 10-year strategy for reducing wildland 
fire risks to communities and the environment.
    We've got over 200 million acres of Federal land that have 
fuel problems posing a serious risk for wildfire. These have 
been mapped in a fire risk condition Class II and Class III. 
Mechanical fuel removal is critical to protecting these lands 
from fire risks. And let there be no mistake about fuel 
removal, it means removing the timber that's in question. We 
have about a million acres of bug kill timber that represents a 
tinder box awaiting a serious catastrophe that will occur on 
the Kenai Peninsula. We've got more than 600,000 acres of dead 
trees standing on Federal land.
    The rationale is that the Federal authorities can't come to 
any kind of a uniform decision-making process as to what to do, 
so in the void they hold a town hall meeting, a public hearing, 
and they don't make a decision based on forest health or best 
forest management practice. This is a situation I think that 
hopefully will come to an end under the current administration.
    Passing Senate Concurrent Resolution 107 and implementing 
the Western Governors collaborative 10-year strategy are timely 
actions, they should be pursued.
    The situation in the Village of Newtok, in western Alaska, 
this little village is only 300 people, it's threatened by 
erosion, the Ninglick River is eating away the banks. The bill 
would provide for a simple land exchange as the first step with 
providing these villagers with an alternative to saving their 
homes.
    We have worked with the Department of the Interior to 
arrive at a solution to the problem. A substitute bill has been 
crafted that addresses the concerns expressed by the Department 
about the original S. 2016. I would ask the committee to help 
get us through this issue during the present session of 
Congress.
    S. 2587 establishes a Joint Federal State Commission to 
expedite the resolution of a longstanding problem in Alaska. 
The commission would facilitate determinations of the navigable 
status of lakes, rivers and streams. That's taken place in all 
the other States, but it hasn't been completed in my State of 
Alaska.
    Under the equal footing doctrine, Submerged Lands Act, 
every State gains title to submerged lands that underline 
navigable rivers within its boundaries upon entering the Union. 
Since Alaska became a State in 1959, we have had only 13 of 
more than 22,000 rivers determined to be navigable, and the 
status of well over one million lakes has been left in 
question.
    Currently, there is no mechanism by which the State and 
Federal Governments can reach prearranged agreement on waters 
that need classification, leaving litigation against the United 
States the only recourse available. Well, that's just full 
employment for the lawyers. S. 2587 will obviate the need for 
litigation on the status of these waterways where agreement can 
be reached by the joint commission.
    The State has done its part to make the commission a 
reality. It passed legislation that authorized the State's side 
of the commission. Congress should act expeditiously to 
establish the needed Federal authority.
    Again, I express my appreciation, and I know your 
frustration, Senator Wyden, with the poor forest management 
practices. I would hope under your leadership that we can 
address some realistic solutions as opposed to just taking the 
heat off for the balance of the summer as we go into the fall 
and then sitting here next year doing the same thing when we 
have these fires.
    Thank you, Mr. Chairman.
    Senator Wyden. The Senator makes a number of very good 
points and it's my hope just as we were able to come together 
against great odds on the county payments legislation in the 
last Congress that we will be able to come together on this 
issue of addressing fire questions and related issues with 
respect to forest management so we can get our forests 
prospering again. I am very hopeful that in the next few days 
we will see some exciting developments with Senators coming 
together around these issues, and I appreciate the Senator's 
comments.
    Let's hear now from the Senator from Washington, who has 
done very good work on Washington wilderness issues.

        STATEMENT OF HON. MARIA CANTWELL, U.S. SENATOR 
                        FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman, for holding this 
hearing, and I would first like to recognize my colleague 
Senator Patty Murray, who is here today, and the mayor of 
Index, Mayor Kem Hunter. They are both here today to testify on 
behalf of the Wild Sky Wilderness Act. I want to thank Senator 
Murray for her outstanding leadership on this legislation. I 
applaud her and her staff for crafting this legislation, which 
has such broad public support in our State.
    This bill is the result of 2 years of hard work by her and 
her staff, with input from the Forest Service and various 
community stakeholders. The bill reflects a consensus approach 
to putting the natural heritage and treasures which have come 
to define Washington's culture and history into place. I am 
proud to be a cosponsor of the Wild Sky Wilderness Act, and Mr. 
Chairman, this is the first Washington State wilderness bill to 
be considered by this committee in 18 years.
    Washington State has had a long and rich history of 
designating wilderness areas, starting with Senator Henry 
``Scoop'' Jackson, who understood the importance of preserving 
these unique natural resources that our State possesses. And he 
believed it was our responsibility as members of this body to 
protect our national forests for future generations.
    This legislation, which I'm sure Senator Murray will go 
into with much more detail, would make wilderness area some 
106,000 acres within the Mount Baker-Snoqualmie National 
Forest. And it would provide high quality open space for more 
than 2.4 million people living in nearby communities. I believe 
that we must act now, not only for our generation but for 
future generations that will benefit from the good stewardship 
that this legislation represents.
    Mr. Chairman, I would also like to mention that I am also a 
cosponsor of Senate Resolution 107, sponsored by Senators Craig 
and Feinstein, which is also the subject of today's hearing. 
This resolution highlights the need for Federal land management 
agencies to fully support and implement the Western Governors' 
10-year strategy for reducing wildfire risks. My colleague just 
mentioned that issue and our need to work together using a 
commonsense approach to get something done.
    I also want to make sure that we don't use this as an 
opportunity for creating division among us on various issues in 
the management of public lands or public forests. I would like 
to submit for the record an editorial that was in The New York 
Times today that basically talked about how we do need to work 
together to implement a strategy and implement it now.*
---------------------------------------------------------------------------
    * The editorial has been retained in subcommittee files.
---------------------------------------------------------------------------
    Senator Wyden. Without objection, so ordered.
    Senator Cantwell. I look forward to hearing from our 
witnesses today, and I look forward to seeing action on both of 
these pieces of legislation.
    Senator Wyden. I thank my colleague, and will congratulate 
Senator Murray a little bit more down the road, and I know it 
seems like eons ago when she came to me on this legislation. 
She's spent all this time bringing the stakeholders together, 
and we congratulate her on her work.
    Let me recognize my colleague from Idaho, and in doing so, 
express my thanks to him. He has been working, and his staff, 
pretty much around the clock with me and my staff on these 
issues, and I'm very appreciative. And it has also been with an 
eye towards finding common ground, which is never easy to do in 
this area, and I want to thank him.

        STATEMENT OF HON. LARRY E. CRAIG, U.S. SENATOR 
                           FROM IDAHO

    Senator Craig. Thank you very much, Mr. Chairman, for those 
kind remarks. We are working. We hope we can come up with 
something to adapt with the public and the stakeholder 
interests across the country as we go out for the August recess 
that deals with a variety of issues on our forests and public 
lands.
    Mr. Chairman, I went home this weekend like many do, except 
that to get into north Idaho, I land in Spokane, Washington, 
one of the cities--and both Senators from Washington State. I 
landed in a city shrouded in smoke. Fires were not burning in 
or around the Spokane area, they were burning above the Dalles 
on the Washington side, and they were wild in Oregon. Homes 
being evacuated, people's lives being threatened, property, 
wildlife habitat.
    Congress fiddles while our public lands burn, and some of 
our radical environmentalists are playing the symphony chorus, 
and how tragic it is at this moment. This weekend we burned the 
four-millionth acre of public lands, not just lands, watershed, 
wildlife habitat, and that land probably will not replenish 
itself in our lifetime because these fires are so hot and so 
threatening, and stand-altering in stand-changing ways.
    And the summer is early. In a normal year we would just be 
entering the fire season, not in the midst of a wildfire, and 
yet today we are. The national headlines this morning, 
thousands of homes in Oregon being evacuated or at risk to a 
fire down there that's now over 90,000 acres in size.
    So Senator Feinstein and I, her vision, the Western 
Governors, we have teamed up on Senate Concurrent Resolution 
107. It's kind of like sticking your finger in a bucket of 
water and stirring it just a little bit, you hope it will come 
out wet enough that you can flick the finger and maybe put out 
a spark. But that's about all we will get done.
    200 million acres of public lands at high risk, Class III 
lands. That means the Forest Service and the scientists and the 
experts have gone out and studied them, and said those lands 
are subject to wildfire, major fire that will destroy 
everything in its path.
    Now, 200 million acres is no small tract of land. It's the 
size of Oklahoma and Texas combined. So in your minds while 
you're sitting out there, think of that section of the country, 
blacken it out, destroy it for the next 30 years to wildfire, 
and you have what is in reality what this Government and this 
country is allowing to happen at this moment on the forested 
public lands of the United States.
    The Western Governors are right and we hope that our 
strategy will work a little bit. But even if we were to go into 
warp speed to correct the problem, we would still lose upwards 
of maybe 50, 60, 70 million acres over the next 10 years, 
folks, just simply put, it's going to burn. Not naturally, not 
in a way that fire once ambled through our forests a century 
ago, but in wild torrents that will destroy everything in its 
path. That's what we're facing today, so we are working at 
doing something about it, and the chairman and I are working to 
do something more.
    Many have criticized Tom Daschle for what he did in the 
Black Hills. I criticized his process, but I don't criticize 
the results. He had to do something. He reached out to try to 
save that property, at the criticism of some, including me, 
because he did not do it in the bright light of day, he did it 
in the shroud of smoky darkness, but he got it done. And I 
would hope that maybe we can use that as a precedent, oh yes, 
environmental interests, a precedent that something is wrong 
out there in America's forests that we have to deal with, and I 
hope me do.
    Let me also say that what the Senators from Washington have 
done in the Wild Sky Wilderness Act of 2002, while I have not 
looked at all of the details of it, is the way it ought to get 
done, an inclusive collaborative process that has brought all 
of the stakeholders together to try to resolve this issue. I 
said to our new President early on, while we ought to put down 
the roadless regs, while we ought to just not allow any 
President or any administration to bypass the process and lock 
us out of 64 million acres of public land, this President and 
all of us ought to get at the business of the rare-to process, 
look at the wilderness areas that have been designated, work 
with all of our stakeholders and try to resolve them. And 
that's good public policy when that's done in a collaborative 
fashion.
    I know that Senator Ensign is here from Nevada. Senator 
Reid and he have worked on some similar efforts in his State to 
bring some balance and I encourage them to continue. A lot of 
work left to be done. Thank you, Mr. Chairman.
    Senator Wyden. I thank my colleague. Senator Feinstein, 
congratulations to you for bringing the work of the Western 
Governors before the subcommittee.

          STATEMENT OF DIANNE FEINSTEIN, U.S. SENATOR 
                        FROM CALIFORNIA

    Senator Feinstein. Thank you very much, Mr. Chairman, and 
I'm delighted to have my colleagues Senator Murray and Senator 
Ensign. I'm not sure you want to sit here and listen to us 
speak, but it's great that they're here on this particular 
bill.
    I'm very happy to join with Senator Craig. Two of the last 
3 years have been the worst years in history for forest fire, 
and this one looks like it's going to be the worst year for all 
time. And so if you really reach back and look for a reason, I 
think the reason one comes up with, and I say this after now 
about 2 or 3 years working on Quincy, and Senator Craig, you 
have been a great help on that, is really failed forest policy. 
That fire suppression, this one size fits all effort simply to 
suppress fire when it encroaches on property or life is a 
mistake in policy.
    Let me use for an example, a fire that's burning in 
California in the giant sequoias. The giant sequoia by nature 
is a fire resistant tree, but if the underbrush builds up, if 
small nonindigenous trees build up and they burn, it creates a 
fire ladder which burns so hot that it reaches the canopies of 
the giant sequoias, and even those trees burn. And that's what 
we find has been happening, that there is so much dead and 
dying, so much underbrush that's not cleared under the policies 
of fire suppression in our forests, that when a fire hits, it 
burns hotter than it used to historically, and therefore, does 
much, much more damage.
    I also believe very strongly that the kind of one size fits 
all approach of the past has not been right. Geography is 
different, weather is different, tree species are different, 
they burn in different ways. And therefore, the one size fit 
all doesn't work. And we have had an interesting experience 
because for the last 3 or 4 years, we in California in the 
north have been trying to change that fire suppression policy 
by a group that came together, they met in the public library 
so that timber people and environmentalists could not scream at 
each other in the public library, and worked for 5 years to 
evolve a plan which was a pilot, to build in defensible fuel 
zones, to do some mechanical, very precise thinning to clear 
out underbrush, to use it as biomass, and to see if you 
couldn't prevent forest fires and at the same time have prudent 
sustainable harvesting that made sense.
    I thought it was worth a try, and the interesting thing is, 
it passed the House by all but one vote. It came here, it began 
to move, it had problems, it finally moved. It's been the law 
now for well over a year and very little progress has been 
made, and part of the problem is in the field, the Forestry 
Service doesn't want to do what the legislation calls for, and 
consequently our forests burn.
    There are 23 million acres in the highest risk of 
catastrophic fire in the United States of America. 7 million of 
those are in my State, the entire Sierra Nevada range, the 
Plumas, the Lassen, the Tahoe forests. I am very worried 
because I think we could have a major wipe out, and I also 
believe that the way we need to go is to take a look at the 
areas in the highest fire risk of catastrophic fire and provide 
a methodology to expedite what needs to be done, to create 
defensible fuel zones, to clear out underbrush, to remove dead 
and dying, to prevent these fires. When they do happen 
naturally and they will, to burn so hot, so mean, so fast that 
they wipe out old growth, they wipe out endangered species 
habitat, and most importantly, they kill people.
    We just lost three firefighters close to your State, 
Senator Wyden, Senator--well, you're not Oregon but Northwest, 
and I feel very, very strongly, and I think this is a first 
step, moving this resolution. I am happy to follow the lead of 
Senator Craig, moving this resolution, but the proof is going 
to be in the pudding and we've got to take that highest fire 
risk fire, we have to move more rapidly to move in and clean 
out and clear out those forests before they go.
    Senator Wyden. I thank my colleague. We've got a vote on 
the floor. I think what we will do is break now for 10 minutes, 
we'll go and vote and then we will come back.
    Senator Reid. We still have a lot of time to vote, Mr. 
Chairman.
    Senator Murray. We can make our statements brief.
    Senator Wyden. Do you want to try to make your statements 
in a couple of minutes?
    Senator Reid. We will make them short.
    Senator Wyden. This is a first. Senator Murray, 
congratulations.

         STATEMENT OF HON. PATTY MURRAY, U.S. SENATOR 
                        FROM WASHINGTON

    Senator Murray. Thank you, Mr. Chairman. I really 
appreciate your accommodating all of us here. I want to thank 
you and Senator Craig for giving us the opportunity today to 
show this committee why we in Washington State, as Senator 
Cantwell said, are so excited about the Wild Sky Wilderness 
proposal.
    This is a new wilderness area that will protect a unique 
landscape and the wildlife that depend on it, and it's going to 
offer great recreational opportunities for thousands of 
families in the growing Puget Sound region for generations to 
come. And importantly, it's going to strengthen the economies 
of the surrounding area. But best of all, Mr. Chairman, as was 
stated by Senator Craig, it was developed with the cooperation 
and input of local residents and organizations throughout our 
State.
    I want to specially welcome to our hearing Mayor Kem 
Hunter, who is the mayor of Index, and his wife Edna. They are 
here, have traveled all the way out here, and he will give you 
a much better local perception. But he has taken time out of a 
very busy personal life and professional life to share why he 
is so excited about the Wild Sky Wilderness proposal, and I am 
delighted he is here today.
    As I said, this has really been a cooperative effort, and I 
want to thank Senator Cantwell, who has just been great with 
her support and commitment, and Senator Bingaman and his staff, 
Kira Finkler and David Brooks. And I want to thank my colleague 
in the House, Congressman Rick Larson, who has spent a great 
deal of time with me on this issue.
    The proposal before you today is really the result of more 
than 2 years of discussion and negotiation with the local 
community, Longview Fiber, Washington State Snowmobile 
Association, Wild Washington Campaign, and the Chelan County 
POD. Throughout the process the staff of Mount Baker-Snoqualmie 
National Forest has just been great in responding to our 
questions as well. This proposal really reflects the values of 
Washington State and respects the economic and recreational 
interests of the people of Snohomish County.
    It's going to provide a very unique landscape and make it 
accessible to families throughout the Puget Sound region, where 
our population is growing very rapidly and hasn't added any new 
Forest Service since 1984, as Senator Cantwell mentioned.
    Mr. Chairman, I know time is short. I'm going to give you 
my statement for the record, but just let me say, there's such 
unique times in our history where we can do something that 
really will be there for generations to come. This is a 
proposal that has many wonderful aspects that I will submit for 
the record, but I want to say, a lot of people worked very, 
very hard, and we appreciate your helping us move this forward 
through the process. Thank you.
    [The prepared statement of Senator Murray follows:]

         Prepared Statement of Hon. Patty Murray, U.S. Senator 
                            From Washington

    Thank you, Mr. Chairman.
    I want to thank you and Senator Craig for giving us the opportunity 
to show this committee why we in Washington State are so excited about 
the Wild Sky Wilderness proposal. This new wilderness area will protect 
a unique landscape and the wildlife that depend on it. It will offer 
recreational opportunities for thousands of families in the growing 
Puget Sound region. And it will strengthen the economies of the 
surrounding communities.
    Best of all, Mr. Chairman, it was developed with the cooperation 
and input of local residents and organizations throughout our state. I 
want to especially welcome to our hearing, Mayor Kem Hunter of the Town 
of Index. He's taken time out of his busy personal and professional 
life to share his support for the Wild Sky Wilderness proposal. He 
really personifies the values we're trying to preserve in Washington 
state, and we're grateful that he's with us today.
    As I mentioned, this has been a cooperative effort throughout. I 
want to recognize just a few of the people who have helped us reach 
this point. I want to thank Senator Cantwell for her strong support and 
commitment. I want to thank Senator Bingaman and his staff, Kira 
Finkler and David Brooks for their help in developing this bill.
    Finally, I want to thank my colleague and my partner in this bill, 
Congressman Rick Larsen. He's spent a great deal of time on this 
proposal. He's reached out to the local communities to understand their 
priorities and include them in our bill.
    The proposal before you today is the result of more than two years 
of discussion and negotiation with the local community, Longview Fibre, 
the Washington State Snowmobile Association, the Wild Washington 
Campaign, and the Chelan County Public Utility District. Throughout the 
process, the staff of the Mt. Baker-Snoqualmie National Forest have 
responded to our questions quickly and with professional insight.
    The Wild Sky Wilderness Proposal reflects the values of Washington 
State, and respects the economic and recreational interests of the 
people of Snohomish County.
    Mr. Chairman, the Wild Sky Wilderness will protect a unique 
landscape and make it accessible to families in the Puget Sound. While 
our population is growing rapidly, Washington State hasn't added any 
new Forest Service wilderness areas since 1984. I want to briefly 
mention four benefits of this proposal.
    First, this wilderness area will protect wildlife and promote clean 
water by preserving the landscapes that host many native plants and 
animals. Native Americans and early 19th century settlers encountered 
wolves, mountain goats, black and grizzly bears, deer, and healthy runs 
of salmon, steelhead, and trout. Unfortunately, their numbers are 
shrinking, and we can protect them for future generations by protecting 
their habitat. The wilderness will also help us protect threatened 
species of salmon, steelhead, and trout.
    As we ask private landowners to recover wild fish runs, I believe 
the federal government must do everything possible on its own land to 
achieve those goals.
    Second, this wilderness designation will enhance and protect 
recreational opportunities for our growing region. It protects the area 
for today's users and seeks to open up new areas for climbers, hikers, 
hunters, and anglers. It directs the Forest Service to work with the 
public to develop new trails in and around the wilderness to expand 
public access to these remarkable landscapes.
    Third, the Wild Sky Wilderness will better reflect the diverse 
landscapes of our region. Low-land elevations, like areas under 3,000 
feet, are not a large part of our existing wilderness areas. Only 6.6 
percent of all Washington State wilderness areas are under 3,000 feet. 
As a result, our current wilderness areas don't reflect the entire 
array of ecological system. Our proposal is made up of about 30% low-
land areas, including low-land forests and salmon-bearing streams. That 
will bring new ecological systems into our State's wilderness lands and 
better reflect the broad palette of nature's landscapes.
    Finally, this wilderness will contribute to the local economy. 
People looking for easy and quick access to nature will see the Wild 
Sky listed in maps and hiking books as a special destination. Every 
climber, hiker, hunter, and angler setting out to the Wild Sky 
Wilderness will be stopping at hotels, campgrounds, restaurants and 
stores in the gateway communities in the greater Skykomish area.
    Rafters and horseback riders will be using guides and outfitters in 
the local communities. The recreational economy appears to have grown 
even in difficult times, and I hope this bill will help improve the 
economies of these gateway communities.
    Mr. Chairman, those are just a few of the benefits this proposal 
will bring. I've included more information on my Senate web site. And 
in a few minutes, we'll get to hear more about it from Mayor Hunter.
    Again, Mr. Chairman, I appreciate the Subcommittee's time and 
consideration of this legislation. I believe the Wild Sky Wilderness 
Act is significant for the state and local communities and hope it will 
be moved by the Committee this fall.
    Thank you.

    Senator Wyden. I thank you. We're going to try to move your 
bill just as quickly as we can. Senator Reid, you came to me a 
long time ago with your wilderness initiative. Congratulations 
for all the good work you and Senator Ensign have done, and go 
ahead with your statement.

          STATEMENT OF HON. HARRY REID, U.S. SENATOR 
                          FROM NEVADA

    Senator Reid. Mr. Chairman, this is an important bill. 
Senator Ensign and I have worked on this from they day he 
stepped into the Senate until we got a bill. It's bipartisan. 
We have worked so hard, our staffs have worked diligently, we 
have had many hearings in the State of Nevada where our staffs 
met with people all over, as this deals with southern Nevada.
    This is a fine bill, it's big, but people should 
understand, the Las Vegas area does not have urban sprawl. It's 
one of the most compact cities in America because 87 percent of 
the land is owned by the Federal Government. This is a modest 
proposal to get some of that public land into private 
ownership. All the municipalities have signed off on this. The 
Las Vegas Metropolitan Police Department has signed off on it. 
This is good legislation, and I appreciate very much you 
holding this hearing.
    This also takes into consideration the new airport that 
we're building about 35 miles from Las Vegas. It develops a 
small corridor of land out to the airport so that there can be 
utilities and stuff put in to go to that big new airport that 
will relieve congestion in the Las Vegas area.
    I ask for consent of this committee that my whole statement 
be made part of the record.
    [The prepared statement of Senator Reid follows:]
    Prepared Statement of Hon. Harry Reid, U.S. Senator From Nevada
    Mr. Chairman. I would first like to thank you for taking time out 
of your busy schedule to hold this hearing on S. 2612, the Clark County 
Conservation of Public Land and Natural Resources Act of 2002. The 
Clark County Conservation PLAN bill is extremely important to southern 
Nevada and to Senator Ensign and me. I think this broad-based 
compromise legislation is also important for America.
    The Clark County Conservation PLAN bill balances the needs for 
infrastructure development, recreational opportunities, and 
conservation of our precious natural resources in southern Nevada.
    As you may remember, Mr. Chairman, 87 percent of the land in Nevada 
is managed by the Federal Government. This includes land managed by the 
U.S. Forest Service, the Bureau of Reclamation, the Bureau of Land 
Management, the Department of Energy, the National Park Service, the 
Fish and Wildlife Service, the U.S. Army, the U.S. Navy, and the U.S. 
Air Force.
    The Secretaries of the Interior, Agriculture, Defense and Energy 
bear tremendous responsibilities for the management, development, and 
conservation of natural resources in Nevada. Unlike most of America, 
where land-use decisions are made by communities, in Nevada, many land 
use decisions require concurrence of Federal officials and, in some 
cases, the passage of Federal laws. This is a circumstance that very 
few Senators understand from experience, but I know that my colleagues 
on this Committee recognize the tremendous challenge inherent in this 
system.
    The challenge of Federal land management is not unique to Nevada: 
in fact, it characterizes much of the West. As I have mentioned, 
however, this situation is compounded in Clark County, where the 
fastest-growing population in America lies in the heart of one of the 
most extreme and fragile regions in North America--the Mojave Desert. 
This legislation has many provisions, but it accurately reflects the 
many challenges faced by southern Nevada.
    Some people believe that guiding growth in Southern Nevada and 
protecting our desert for future generations are mutually exclusive. 
Some believe that protecting our air and water quality and setting 
aside some open space as wilderness are overly costly and unnecessarily 
restrict recreation and development. Some believe that the Federal 
government's management of public land is too strict; others believe it 
is too lenient. Some believe that every acre of Clark County should be 
privatized. Some believe that not a single acre more should be 
auctioned from the public domain. Every Nevadan has a different view on 
the particulars, but every Nevadan feels passionately about these 
issues.
    I have described the context within which we developed this bill to 
illustrate why compromise is not just necessary but warranted. Senator 
Ensign and I have received criticism for what this bill does not do--it 
does not designate all of the 2 million acres in Clark County as the 
Nevada Wilderness Coalition advocates--nor does it release all the 
wilderness study areas in Nevada as others advocate. We do not 
apologize for this compromise, rather we present it to the Committee 
for what it is--a fair-minded, forward-looking framework for the future 
development and protection of public land in Clark County.
    The Clark County Conservation PLAN reflects three complementary 
goals:

          (1) Enhancing our quality of life;
          (2) Protecting our environment for our children and 
        grandchildren; and
          (3) Making public land available for high-quality development 
        consistent with these principles.

    I would like to highlight a few ways in which the Clark County 
Conservation PLAN bill will improve the quality of life and enhance 
economic opportunities for Nevadans while enriching and protecting the 
awe-inspiring natural resources that bless southern Nevada for the 
benefit of future generations of Nevadans and all Americans. I would 
like to submit my full written testimony for the Committee's Record.

      TITLE I--RED ROCK CANYON NATIONAL CONSERVATION AREA EXCHANGE

    When Congress passed the Southern Nevada Public Lands Management 
Act in 1998, we made the decision that it was in the public interest to 
transition away from Federal-private land exchanges and competitively 
auction those parcels of land deemed by the BLM as suitable for 
disposal. This decision has proven quite effective and fair and likely 
represents the future of land privatization in Nevada and the West. At 
the time the law was enacted, however, Congress did contemplate that a 
limited number of ongoing land exchanges should be completed because of 
their benefit to the public. One of these exchanges is familiarly known 
as the Red Rock Canyon-Howard Hughes exchange. This exchange would be 
completed by Title I of the Clark County Conservation PLAN bill.
    In the Red Rock Exchange, the Bureau of Land Management will 
acquire roughly 1,070 acres of land owned by the Howard Hughes 
Corporation. This land forms promontories above the gently-sloping 
bajada (buh-HA-da) in the foothills of the La Madre Mountains on the 
eastern border of the Red Rock Canyon National Conservation Area. This 
land affords spectacular views of the Las Vegas Valley. Development of 
this land would degrade the Red Rock NCA and diminish the beautiful 
view from Las Vegas to the west--a view many Las Vegans treasure.
    Our bill provides that the lands I have described will become part 
of the Red Rock NCA once acquired by the Federal government. In 
exchange for the Red Rock lands, the Howard Hughes Corporation will 
receive acreage of equal value, as determined by a government-certified 
appraiser, within the Las Vegas Valley. Finally, the Howard Hughes 
Corporation will convey some of their acquired acreage to Clark County 
for use as a county park and for inclusion in a regional trail system. 
As I mentioned earlier, this proposal has been around for a number of 
years and enjoys unusually broad support ranging from the County to the 
environmental community. The time when this exchange should have 
reached completion through the administrative process has long since 
passed and a legislative resolution is now in order.

                    TITLE II--WILDERNESS DESIGNATION

    Nevada has nearly 100 Wilderness Study Areas on Federal land across 
the state. These areas, which are primarily administered by the Bureau 
of Land Management, are managed to protect wilderness character of the 
lands under current law. These areas remain as de facto wilderness 
until Congress passes a bill changing wilderness study status by either 
designating the land as wilderness or releasing the land from 
Wilderness Study Area consideration.
    Although there is broad support for addressing Nevada's Wilderness 
Study Areas through Federal legislation, there is no consensus 
regarding how to do so. Those who advocate for wilderness designation 
and those who oppose further additions to the wilderness system hold 
strong and, in many cases, irreconcilable views on this issue.
    Those of us who wrote this bill likewise hold different views 
regarding wilderness. In developing the wilderness component of this 
bill, Senator Ensign, Congressman Gibbons, and I made compromises that 
cause heartburn for all interested parties. We believe, however, that 
this is a critical step toward addressing the outstanding wilderness 
study issues in the state of Nevada. Our bill designates wilderness and 
releases wilderness study areas. It creates 20 wilderness areas: 6 
managed by the BLM; 4 jointly managed by the Park Service and BLM; 7 
managed by the Park Service; and 3 jointly managed by the BLM and the 
Forest Service.
    In addition to these wilderness areas, our bill releases from 
Wilderness Study Area status acreage associated with each of the BLM 
and Forest Service areas we address. In fact, we release three BLM 
study areas in their entirety. Two of these areas will eventually 
accommodate growth at the north end of the Las Vegas Valley and help 
provide jobs for decades into the future.
    We have provided for wilderness management protocols that address 
the particular circumstances of southern Nevada. For example, we 
explicitly require the Secretary of the Interior to allow for the 
construction, maintenance, and replacement of water catchments known as 
guzzlers when and where that action will enhance wilderness wildlife 
resources. In addition, we believe that the use of motor vehicles 
should be allowed to achieve these purposes when and where it is the 
minimum tool necessary to accomplish the task, and it does not require 
the creation of new roads.
    Some wilderness purists argue that these man-made guzzler tanks 
disturb the naturally functioning ecosystems of the Mohave Desert. I 
respect this view, but I believe that these projects help restore more 
natural function to ecosystems that have been forever fragmented by 
development, including roads. These projects, which are privately 
funded by dedicated sportsmen like Clint Bentley, who will testify 
later today on behalf of the Nevada Land Users Coalition, have a 
legitimate place in southern Nevada wilderness, and this bill is clear 
on that point.
    In our effort to create a fair wilderness designation, we have 
benefitted from the advice and suggestions of many Nevadans 
representing a range of views. These advocates include the Nevada Land 
Users Coalition, The Sierra Club, The Virgin Valley Sportsmen's 
Association, The Nevada Wilderness Project, The Fraternity of Desert 
Bighorns, the Nevada Mining Association, Red Rock Audubon, and Partners 
in Conservation, to name just a few. We appreciate their help and 
believe that this compromise honors our commitment to listen carefully 
to all parties. We are also grateful for the help we have received from 
the Federal land managers in Clark County and look forward to working 
with them to improve this bill to help make their jobs easier and the 
public experience on public land better. We have also received comments 
from the staff of this Committee and look forward to working with the 
members of the Committee to further refine the wilderness provisions of 
this bill.

         TITLE III--INTERAGENCY FEDERAL JURISDICTION TRANSFERS

    Early in this bill's development, we decided not to address 
wilderness issues within the Desert National Wildlife Range, which lies 
just north of Las Vegas. This decision disappointed many in the 
environmental community who view the wilderness resources in the Range 
as some of the best in the Mohave Desert. Wilderness in the Range is, 
however, beyond the scope of this bill.
    The Clark County Conservation PLAN does transfer the management 
responsibility of three Wilderness Study Areas, totaling more than 
49,000 acres, from the Bureau of Land Management to the Fish and 
Wildlife Service. These areas lie between State Highway 93 and the 
Range, so this transfer helps rationalize the Federal land ownership 
pattern in northern Clark County.
    In addition, this bill transfers a small parcel of land from the 
Bureau of Land Management to the National Park Service for use as an 
administrative site on the road between Searchlight and Cottonwood 
Cove. This transfer will save taxpayer dollars by allowing the Park 
Service to consolidate two planned administrative sites into one and 
manage the Lake Mead National Recreation Area more effectively.

      TITLE IV--SOUTHERN NV PUBLIC LANDS MANAGEMENT ACT AMENDMENTS

    When Congress passed the Southern Nevada Public Lands Management 
Act of 1998, it established a new paradigm for the sale of public lands 
in Clark County, Nevada. One of the core principles of this new way of 
doing business was that the proceeds from the sale of Federal lands 
should be reinvested in Federal, state, and local environmental 
protection and recreational enhancements in the state in which the 
lands are sold.
    The Clark County Conservation PLAN Act modifies the Southern Nevada 
Public Lands Management Act and expands the so-called Las Vegas Valley 
disposal boundary. This expansion will make an additional 25,000 acres 
of BLM land available for auction and development for many years. The 
proceeds from the sale of this Federal land will continue to accrue to 
the Southern Nevada Public Lands Special Account and be invested in the 
purchase of environmentally sensitive land, the development of Federal 
land infrastructure, the implementation of the Clark County Multi-
Species Habitat Conservation Plan, and local government open space, 
recreation and conservation projects. Our bill further provides that at 
least one-quarter of the Special Account be dedicated to the last of 
these purposes.

                       TITLE V--IVANPAH CORRIDOR

    One of the most important infrastructure issues facing southern 
Nevada is siting a new international airport. The County's preferred 
and likely site is in a dry lake bed between Jean and Primm, Nevada, 
south of the Las Vegas Valley in the Interstate 15 transportation 
corridor near the California border. Congress made Federal land at that 
site available for use as an airport, pending environmental reviews.
    The Clark County Conservation PLAN bill complements that law in two 
important ways. First, our bill conveys Federal land adjacent to the 
proposed airport to the Clark County Airport Authority so that it can 
promote compatible development within the area affected by the noise of 
the airport. Any proceeds derived from the sale of these Airport 
Authority lands would be distributed in the same way as proceeds 
generated from lands sold within the Las Vegas Valley Disposal 
Boundary.
    Second, our bill directs the Bureau of Land Management to reserve a 
right-of-way for non-exclusive utility and transportation corridors 
between the Las Vegas Valley and the proposed airport. This corridor is 
important, because in order for the new airport to remain economical, 
it will require significant utility development to come from the north. 
Our bill does not dictate exactly where, when, how, or by whom this 
infrastructure will be developed; it simply reserves land explicitly to 
serve this purpose.

           TITLE VI--SLOAN CANYON NATIONAL CONSERVATION AREA

    One of the most precious areas in southern Nevada is a relatively 
non-descript canyon near Henderson. It is an area graced with hundreds 
of wonderful and curious petroglyphs. Under ordinary circumstances, I 
would not reveal the location of this site because public knowledge of 
prehistoric rock art sites commonly leads to their destruction. In this 
case, however, this canyon is in desperate need of protection because 
it is within a short walk of the Las Vegas valley. Similar resources 
elsewhere in the desert Southwest have been destroyed by urban growth 
and lack of intensive management.
    The Clark County Conservation PLAN bill designates the Sloan 
petroglyphs site and the area that comprises most of its watershed as 
the North McCullough Mountains Wilderness. This wilderness, combined 
with about 32,000 acres of open space, comprises the proposed Sloan 
Canyon National Conservation Area. The NCA and wilderness will provide 
critical protection for the Sloan petroglyphs, preserve open space near 
Henderson's rapidly growing neighborhoods, and together represent a 
legacy of cultural and natural resource conservation our grandchildren 
will value dearly.

              TITLE VII--PUBLIC INTEREST LAND CONVEYANCES

    The sheer number of public-lands bill requests Senator Ensign and I 
receive is staggering. If we chose to introduce stand-alone legislation 
to address each legitimate issue that constituents bring to our 
attention, we would create an awkward patchwork of new Federal laws. In 
the Clark County Conservation PLAN, we have attempted to provide a 
comprehensive vision and framework for conservation and development in 
southern Nevada by balancing competing interests.
    The bill's final title includes a select few of many important 
public interest land conveyances. For example, we include two land 
grants to further the higher-education mission of Nevada's university 
system. One provides land to the UNLV research foundation for the 
development of a technology park. The other provides land for the 
planned Henderson State College.
    We convey a small active shooting range to the Las Vegas 
Metropolitan Police Department for training purposes. We grant a modest 
parcel of land to the City of Las Vegas for the development of 
affordable housing. We provide for the conveyance of the Sunrise 
Landfill from the Bureau of Land Management to Clark County pending 
completion of the environmental clean-up at the site. We convey park 
and open space land to the City of Henderson and provide for a 
cooperatively managed zone comprised of Federal land around Henderson 
Executive airport. These are relatively small but important actions 
that help our communities, law enforcement, and educational system 
better serve southern Nevada.
    Mr. Chairman, the bill we are discussing here today promises a 
better tomorrow for our public lands in southern Nevada, for the more 
than 1.5 million people who call Clark County home, and for the 
millions of Americans who visit southern Nevada every year. This 
balanced compromise provides land for development, land grants for 
public purposes, wilderness for conservation in perpetuity, and a new 
National Conservation Area to celebrate and protect the wonderful 
natural and cultural resources of the North McCullough Mountains 
including the Sloan petroglyph site.
    Senator Ensign and I have been working on this bill since he came 
to the Senate a year and a half ago. We are proud of the progress we 
have made and believe that this public lands bill should serve as a 
model for bipartisan cooperation and constructive compromise. We look 
forward to working with you and Chairman Bingaman to perfect this 
legislation so that we can enact the Clark County Conservation PLAN 
bill into law this year.
    Thank you again, Mr. Chairman, for your willingness to hold this 
hearing and your hard work on public lands issues facing our country.

    Senator Wyden. Without objection. We thank you, and we're 
going to try to move your bill as quickly as we can. Senator 
Ensign, I know this has been bipartisan and we're glad you're 
here.

          STATEMENT OF HON. JOHN ENSIGN, U.S. SENATOR 
                          FROM NEVADA

    Senator Ensign. Thank you, Mr. Chairman, and thanks for 
holding this hearing and considering our bill. Senator Reid and 
myself have worked very hard, but as you know, our staffs have 
just done a terrific job on this. And Senator Reid talked 
about, it really was a model for how to put legislation 
together, because we have environmental groups working together 
with multi-use people, with the Federal Government, State 
governments, local governments, utilities, everybody working 
together at the table.
    There are people that aren't real happy with the bill but 
aren't real dissatisfied with the bill, and I think neither 
side was real, real happy or real, real dissatisfied, and 
that's usually what happens when you come together with 
legislation.
    Just to mention a couple of things about the bill. We've 
got a new conservation area in there to protect some very 
valuable petroglyphs. We have taken some out of wilderness 
settings and put other lands permanently into wilderness, to 
try to resolve some of the wilderness issues in southern 
Nevada. We've also put in there, I had an interest--as a matter 
of fact, when I was living up in your State, I was very 
impressed in Oregon, that's where my family is from, and I was 
very impressed when I was going to college up there, the Keep 
Oregon Green campaign.
    Well, we put in the desert--a lot of people come to the 
desert and they just think it's a wasteland, and they throw 
things out the door and out of their cars, and they dump things 
in the desert, they dump beds, it's amazing, it looks like a 
dumping ground. And we've got money put aside in this for an 
anti-littering campaign to try to make people aware that the 
desert is very fragile, and not to litter out there, to try to 
have people take pride in where they're living and to get 
tourists to think about it too, because a lot of the litter 
that happens in the desert is from tourists as well. So that's 
a smaller part of the bill, but I think an important part of 
the bill.
    And lastly, when we look at recreational opportunities, we 
took the wilderness areas and we still allowed access almost as 
the fingers, you know, going into the wilderness areas so 
people would be able to get to those and then hike to where 
they needed to be to enjoy those wilderness areas.
    So we think we have come up with a very, very good balance, 
working together and working with all the stakeholders, and you 
will hear from some of those stakeholders today. But we 
appreciate your holding this hearing and for allowing us to 
testify before the vote. Thank you.
    [The prepared statement of Senator Ensign follows:]

    Prepared Statement of Hon. John Ensign, U.S. Senator From Nevada

    Chairman Wyden and Senator Craig, good afternoon. Thank you for 
holding a hearing on the Clark County Conservation of Public Lands and 
Natural Resources Act of 2002, or the Clark County PLAN. I understand 
the Committee has a number of bills pending before it and I am grateful 
for your assistance in promptly scheduling this hearing. I will keep my 
comments brief.
    We have three of our constituents testifying with us here today: 
John Wallin of the Nevada Wilderness Coalition, Clint Bentley of the 
Nevada Land Users Coalition, and Bob Abbey, Nevada's very able BLM 
Director. Thank you very much for traveling to Washington and for your 
very hard work on this effort.
    The Clark County PLAN that Senator Reid and I introduced resolves a 
number of local land use dilemmas we face in southern Nevada. As you 
know well, Mr. Chairman and Senator Craig, representing a state with 
large tracts of federal land means we have to get congressional 
approval for many matters that in other states east of the Mississippi 
are left to local officials. Given the phenomenal growth in Clark 
County over the past decade, it is difficult to respond to the growth 
pressures and needs of our citizens because we do have a cumbersome 
federal land process to navigate.
    Senator Reid and I believe it is in Clark County's best interest to 
formulate a comprehensive lands bill. We receive dozens of land 
disposal requests every year from around the state of Nevada and it is 
impossible--not to mention bad public policy--to address them 
piecemeal. I am proud of the fact that a Republican and a Democrat have 
worked together closely to write a pro-environment bill that is good 
for the people of Clark County. We could not have done so if it were 
not for the friendship and trust we have developed over the past year 
and a half.
    Our bill does a number of positive things for southern Nevada. 
While time constraints do not permit me to touch on every part of the 
Clark County PLAN, I do want to bring a few important features to your 
attention:

  <bullet> Sloan Canyon National Conservation Area Creation/Red Rock 
        National Conservation Area Expansion. Our bill creates southern 
        Nevada's second national conservation area in a way that 
        protects the priceless Sloan Petroglyps. Establishment of the 
        Sloan Canyon National Conservation Area provides permanent open 
        space and recreational opportunities for the residents of 
        nearby Henderson. We also add breathtaking acreage to the 
        existing Red Rock National Conservation Area.

  <bullet> Wilderness Resolution. Our bill formally designates 444,000 
        acres of quality wilderness in Clark County, while releasing 
        231,000 acres for multiple use or development. While the issues 
        of wilderness and wilderness release are controversial, the 
        fact that we are taking action on the majority of Wilderness 
        Study Areas in Clark County is a major accomplishment.

  <bullet> Quality Growth and Expansion. Our bill releases federal land 
        for auction within the Las Vegas Valley for future residential 
        and commercial growth. The proceeds benefit the environment, 
        our infrastructure, and public education. The cities of Las 
        Vegas, North Las Vegas, and Henderson will benefit by having 
        the ability to grow wisely and promote quality of life and 
        economic expansion.

  <bullet> Litter Cleanup and Beautification. I am grateful to Senator 
        Reid for including a provision I have strongly advocated that 
        provides the funding to implement a comprehensive litter 
        cleanup and public education campaign in southern Nevada. 
        Unfortunately, too many people equate the desert with a garbage 
        dump. Changing public attitudes and cleaning up garbage-choked 
        public lands will make Clark County an even better place to 
        live.

  <bullet> Power Corridors Critical to the Intermountain West. The 
        legislation opens up a critical north-south power corridor so 
        that transmission lines can transport power in the 
        Intermountain West, a region that has been particularly hard-
        hit by power shortages.

    I would like to take a moment to comment on the process by which 
Senator Reid and I crafted the Clark County PLAN. I am very proud to 
have tackled some tough issues in a bipartisan way and I believe our 
working together is a model for other Western states to follow. We 
encouraged diametrically opposed groups to come up with solutions. The 
Clark County PLAN is built on the same model as the Southern Nevada 
Public Lands Management Act, legislation that I was very proud to have 
written with former Senator Richard Bryan in 1997.
    We asked our staffs to meet with all interested parties in Clark 
County to make sure their views and concerns were considered. The 
Nevada Wilderness Coalition and the Nevada Land Users Coalition have 
provided Senator Reid and me with very thoughtful and constructive 
comments about our legislation. Many of those comments are incorporated 
in the bill. We have sat down with local jurisdictions, the state of 
Nevada, elected officials, business groups, and environmentalists. The 
Clark County PLAN reflects the work of a very diverse and balanced 
cross section of Nevadans.
    With this said, I acknowledge that some of our friends in the 
environmental community would like to see changes made to the Clark 
County PLAN due to concern that the wilderness designations are 
inadequate. I want to commend them for standing up for their strongly 
held beliefs. It is fair to fight for what you think is right.
    This bill is a compromise. It moves us forward. It does not have 
everything in it that the Nevada Land Users Coalition, the multiple use 
advocates, wished to have. Senator Reid and I have endeavored to make 
this an inclusive process and I believe we have achieved a result that 
the vast majority of Nevadans support. I urge this Committee and my 
colleagues to pass this bill expeditiously.
    Working with Senator Reid, Congressman Jim Gibbons, and numerous 
Nevadans on the Clark County PLAN has been a very rewarding and 
productive experience. I thank them for their willingness to come 
together to form this compromise.
    Thank you, Mr. Chairman, and Senator Craig.

    Senator Reid. Mr. Chairman, if I could say, if there are 
any questions staff has, Senator Ensign and I will be very 
happy to meet with them anytime, this is very important for us, 
to see if we can move it this year.
    Senator Wyden. We thank you both. You have gone about it in 
a very thoughtful way, you're welcome to stay after we come 
back, but I'm going to try and get this bill out of 
subcommittee as fast as we can.
    We will be back in 10 minutes.
    [Recess.]
    Senator Wyden. The subcommittee will come back to order. We 
appreciate the patience of our guests, and this panel will have 
Bob Abbey, Assistant Director for Renewable Resources, the 
Acting Assistant Director; Gail Kimbell, Deputy Chief of the 
National Forest System; and Drue Pearce, Senior Advisor to the 
Secretary for Alaska Affairs, Department of the Interior.
    These three will come forward. Okay. I'm going to make your 
prepared statements a part of the hearing record in their 
entirety. And whenever I say that, it always does little good, 
because people just go forward and read it all. If I could 
somehow entice you into just hitting the main concerns you have 
in 5 minutes or so, it would be great, and I really do pledge 
that every word you have will be made a part of the record.
    Bob Abbey, welcome.

   STATEMENT OF ROBERT ABBEY, ACTING ASSISTANT DIRECTOR FOR 
              RENEWABLE RESOURCES, BUREAU OF LAND 
             MANAGEMENT, DEPARTMENT OF THE INTERIOR

    Mr. Abbey. Thank you, Mr. Chairman, and I will take your 
word for it, and I will eliminate much of what I was going to 
offer. We certainly appreciate the opportunity to testify 
regarding S. 2612, the Clark County Conservation and Public 
Land and Natural Resources Act of 2002. Sponsored by Senators 
Ensign and Reid of Nevada, S. 2612 is an attempt to deal in a 
comprehensive fashion with a wide array of public land issues 
facing Clark County, Nevada.
    The Department of the Interior, the Bureau of Land 
Management, the National Park Service strongly supports their 
efforts to resolve these issues. This bipartisan collaborative 
approach for addressing land use issues should be a model 
throughout the West.
    We have a number of specific concerns to certain provisions 
to the legislation, however. The Department would like to work 
with the sponsors and the committee on improvements to this 
bill.
    As you've heard from the two Senators from Nevada, Clark 
County is home to Las Vegas, the fastest growing metropolitan 
area in the country. Of the 4.2 million acres within Clark 
County, BLM managed public lands constitutes 66 percent of 
those lands. The National Park Service manages over a half 
million acres in Clark County as part of the Lake Mead National 
Recreation Area. The high concentration of public lands 
combined with their proximity to such a fast growing area 
provides unique challenges and opportunities for the Bureau of 
Land Management, the National Park Service, the county, the 
city of Las Vegas, and the many other cities in the region.
    Issues of growth and conservation are difficult in the 
expanding West, as many of you know. In 1998, the Southern 
Nevada Public Lands Management Act, Public Law 105-263, 
addressed many of the issues in the Las Vegas Valley by 
providing a system for disposing of appropriate BLM managed 
lands within that area to both benefit the greater Las Vegas 
area and protecting the interests of the American public. S. 
2612 is the logical next step to Public Law 105-263.
    S. 2612 presents a comprehensive approach to addressing a 
number of public land issues in Clark County. Among the many 
issues covered in this lengthy bill are land exchanges, land 
conveyances, wilderness designations and release, national 
conservation area establishment, and revisions to the Southern 
Nevada Public Lands Management Act of 1998.
    For example, title II moves the wilderness debate forward 
in Clark County, Nevada by designating lands as wilderness and 
releasing other lands from wilderness study area. Senators Reid 
and Ensign have worked diligently with their local 
constituencies to seek consensus on these designations and 
release. We hope that this approach can be a model and provide 
an impetus for other States and regions to take similar 
actions.
    After all, it is up to Congress to resolve the long 
simmering wilderness study area question. Nevada Senators have 
proven that this can be done in a collaborative bipartisan 
fashion that deserves our support.
    In the wilderness title and throughout the bill, we would 
like the opportunity to work with the sponsors and this 
committee to resolve numerous issues. Some of these are minor 
and technical in nature; others are a little more far reaching.
    For example, in title I of the bill, we believe it is 
critical to insure that the land values to be exchanged are in 
fact of equal value. On the many land conveyances in title VII, 
we ask the sponsor and the committee to consider various 
concerns that we have raised. In title II, we want to insure 
that the management language is well understood and consistent.
    A key provision of this legislation is the expansion of the 
disposal boundary established by the Southern Nevada Public 
Lands Management Act by approximately 23,600 acres of Federal 
land. The additions are primarily on the north side of Las 
Vegas. And while capital improvements and acquisitions of the 
environmentally sensitive lands are allowed, use of the funds 
that are generated within this disposal area, the law is silent 
on restoration and rehabilitation. Along with preserving and 
protecting important and environmentally sensitive lands, there 
are significant opportunities for careful restoration and 
conservation work. This may be an appropriate use of some of 
these funds and we would like to discuss those options.
    The establishment of the Sloan Canyon National Conservation 
Area in title VI is significant. As the Red Rock Canyon 
National Conservation Area has proven such a popular site on 
the west side of Clark County, we believe that Sloan Canyon 
will provide equal opportunities to disperse recreation on the 
east side.
    So in conclusion, Mr. Chairman, we thank you for the 
opportunity to testify on S. 2612. This is by far a significant 
bill, but it is also a detailed and a complex one. We look 
forward to the opportunity to work with Senators Reid and 
Ensign and this committee to adequately address the concerns 
that we raise so that this important proposal can be finalized 
and go forward. Thank you again for the opportunity to testify.
    [The prepared statement of Mr. Abbey follows:]

   Prepared Statement of Robert Abbey, Acting Assistant Director for 
   Renewable Resources, Bureau of Land Management, Department of the 
                                Interior

    Thank you for the opportunity to testify regarding S. 2612, the 
Clark County Conservation of Public Land and Natural Resources Act of 
2002. Sponsored by Senators Ensign and Reid of Nevada, S. 2612 is an 
attempt to deal in a comprehensive fashion with a wide array of public 
land issues facing Clark County, Nevada. The Department of the 
Interior, the Bureau of Land Management (BLM) and the National Park 
Service (NPS) strongly support their efforts to resolve these issues. 
This bipartisan collaborative approach to addressing land use issues 
should be a model throughout the West. We have a number of specific 
concerns with certain provisions of the legislation which are outlined 
in the testimony. The Department would like to work with the sponsors 
and the Committee on improvements to the bill, so that once these 
changes are made we would be in a position to support the bill.

                               BACKGROUND

    Clark County is home to Las Vegas the fastest growing metropolitan 
area in the country. Of the 4.2 million acres within Clark County, BLM-
managed public lands constitute 66 percent of those lands. The high 
concentration of public lands combined with their proximity to such a 
fast growing metropolis provide unique challenges and opportunities for 
the BLM, the NPS, the county, the city of Las Vegas and the many other 
cities in the region.
    Issues of growth and conservation are difficult in the expanding 
West. In 1998, the Southern Nevada Public Land Management Act (SNPLMA), 
Public Law 105-263, addressed many of the issues in the Las Vegas 
Valley by providing a system for disposing of BLM-managed lands within 
that area to both benefit the greater Las Vegas area while protecting 
the interests of the American public. S. 2612 is the logical next step 
to P.L. 105-263.

                                S. 2612

    S. 2612 presents a comprehensive approach to addressing a number of 
public land issues in Clark County. Among the many issues covered in 
the bill are: land exchanges, land conveyances, wilderness designation 
and release, National Conservation Area (NCA) establishment, and 
revisions to the Southern Nevada Public Land Management Act of 1998 
(SNPLMA). I'd like to address these many issues title by title of the 
bill.
    However, let me make a few general comments. We should note that 
this bill, if it were to become law, represents a substantial workload 
for BLM Nevada, especially the Las Vegas field office. The time frames 
established by the legislation will likely mean that other high 
priority projects will not be addressed and some of the deadlines may 
simply be impossible to meet. In addition, the costs of completing many 
of the land conveyances in the bill (for example, NEPA compliance, 
survey and title work and other types of clearances) should be borne by 
the benefitting local entity, not by the BLM. While we generally 
support reversionary clauses in land transfers, we believe they should 
be at the discretion of the Secretary to ensure that the Federal 
government is not burdened with potential future liability costs 
related to the uses of some of the lands conveyed. Also, there are 
numerous small technical issues as well as a number of PAYGO costs not 
addressed in this testimony which we would like to discuss with the 
Committee and the bill sponsors.

                                TITLE I

    Title I addresses the same exchange and transfers of land as H.R. 
4141, the ``Red Rock Canyon National Conservation Area Protection and 
Enhancement Act of 2002.'' The BLM testified before the House Resources 
Committee on that bill on June 6 of this year, expressing support for 
the land tenure adjustments outlined in the legislation, but raising a 
number of issues needing resolution before the legislation moved 
forward.
    While some of our concerns have been addressed, many remain 
outstanding. Title I proposes to legislate both a land exchange between 
the BLM and the Hughes Corporation as well as a transfer of additional 
public lands to Clark County for a park. The lands proposed to be 
acquired by the BLM in the land exchange with the Hughes Corporation 
border the eastern edge of the NCA and total approximately 1,068 acres 
in seven separate parcels. The BLM strongly supports the acquisition of 
these parcels and believes they will enhance the NCA. The addition of 
these parcels will improve boundary management and allow for better 
protection of rock art and other resources within the NCA.
    The public lands identified for exchange to the Hughes Corporation 
total approximately 998 acres and were identified for disposal under 
SNPLMA. It is our understanding that these lands would be used for the 
expansion of a master-planned housing community. Under SNPLMA, proceeds 
from the disposal of BLM-managed lands are divided between the State of 
Nevada general education fund (5%), the Southern Nevada Water Authority 
(10%), and a special account in the Treasury for acquisition of 
environmentally-sensitive lands in Nevada and other purposes (85%). 
Section 4 of SNPLMA mandates that in the case of a land exchange, the 
non-Federal party remains liable for the 5% and 10% payments. The 
legislation is silent on this point, and therefore we make the 
assumption that these provisions of SNPLMA would apply to the Hughes 
Corporation land exchange.
    The bill would also require the BLM to transfer approximately 1,344 
acres of additional public lands to Clark County for purposes of a 
park. These lands are adjacent and intermingled with the lands to be 
exchanged to the Hughes Corporation. While we do not oppose the 
transfer of these lands to the County we believe they should be 
transferred at fair market value or through a Recreation and Public 
Purposes (R&PP) lease/conveyance.
    The legislation is silent on responsibility for any potential 
hazardous materials that may preexist on these parcels. We believe that 
this must be addressed in the legislation. In addition, the public 
lands identified for disposal are currently encumbered by rights-of-way 
for roads, water pipelines, gas pipelines, and power lines as well as 
mining claims. We would like to ensure that these current uses are 
appropriately addressed by the legislation. Likewise if there are any 
encumbrances on the private lands to be acquired, this would need to be 
addressed.
    Finally, and very importantly, the issue of land values is critical 
to our support of this Title. The Hughes Corporation contracted with a 
private appraiser to complete an appraisal of these lands. The BLM in 
Nevada received that appraisal in late June and is currently reviewing 
it. Following our review, we would like the opportunity to modify the 
acreage of the lands involved in the exchange to ensure that the 
exchange is of equal value. While the legislation appears to address 
this issue in section 104(c) and section 105(c), we believe that the 
language is confusing. The valuation issue must be addressed adequately 
before markup in order to ensure that all interests are protected.

                                TITLE II

    Title II moves the wilderness debate in Clark County, Nevada, 
forward both by designating lands as wilderness and releasing other 
lands from wilderness study area (WSA) status. Senators Ensign and Reid 
have worked diligently with their local constituencies to seek 
consensus on these designations and releases. We hope that this 
approach can be a model and provide an impetus for other states and 
regions to take similar actions. It is up to Congress to resolve the 
long simmering WSA question. The Senators from Nevada have proven that 
this can be done in a collaborative bipartisan fashion that deserves 
our support.
    The bill would release approximately 233,192 acres of BLM-managed 
lands from WSA status and interim protection of their wilderness values 
under section 603(c) of the Federal Land Policy and Management Act 
(FLPMA). In addition, 223,858 acres of BLM-managed lands, 183,809 acres 
of National Park Service-managed lands, and 36,252 acres of Forest 
Service-managed lands would be designated wilderness. The 1979 
Preliminary Wilderness Proposal for Lake Mead National Recreation Area 
recommended wilderness designation for 273,327 acres in Nevada. S. 2612 
recommends approximately 182,000 acres in Nevada approximately 91,000 
acres less than the recommended proposal.
    All told the bill would designate 20 new wilderness areas and 
expand one preexisting area. This is an important legacy for the people 
of Las Vegas, Nevada, and the entire country. At the same time, this 
legislation also provides important opportunities for urban growth.
    The legislation releases over 230,000 acres from FLPMA's WSA 
interim management protection. Of that, over 180,000 acres will be 
returned to the full range of non-wilderness multiple uses.
    We would like the opportunity to work with the sponsors and the 
Committee on improvements to the wilderness management language before 
the bill is marked up. First and foremost, we strongly urge the 
Committee to clarify expressly that this legislation shall not 
constitute or be construed to constitute either an express or implied 
reservation of any water rights with respect to the designated areas. 
In addition there is unnecessary language (for example the air quality 
language in section 203(d) which is superfluous), confusing language 
(for example, the hunting, fishing, and trapping language in section 
208(b) and the grazing language with respect to the NPS), or 
nontraditional language (for example the motorized vehicles and access 
language). The Department would like the Act to recognize the 
differences in land management policies that arise from FLPMA and the 
NPS Organic Act, and nothing in the Act should supersede management 
authorities and policies arising from each agency's organic 
legislation. Likewise, the addition of language withdrawing these 
wilderness areas from the public land, mining, and mineral leasing laws 
will prevent any future misinterpretation. While we do not oppose what 
we believe are the goals of these provisions, there are preferred ways 
of addressing them that are widely understood and accepted.
    In addition, there are a number of mapping issues we would like to 
address before markup. The BLM in Nevada and the NPS at Lake Mead 
National Recreation Area are in the process of carefully reviewing each 
proposed wilderness boundary to ensure that these boundaries are as 
manageable as possible. We would like the opportunity to propose minor 
changes, when making such changes would increase manageability of the 
wilderness and ensure that we are not inadvertently affecting important 
current uses.
    The Department may require further clarification to ensure that 
this legislation is consistent with the provisions of Public Law 106-
181, which directs the FAA in cooperation with the NPS to develop air 
tour management plans for units with commercial air tours for the 
purpose of mitigating or preventing significant adverse impacts of 
commercial air tour operations upon the natural or cultural resources, 
and visitor experiences.
    Section 207(d) addresses rights-of-way within the Sunrise Mountain 
Instant Study Area (ISA) and the Meadow Valley Range WSA. Sections 703 
and 706 also effect lands within the Sunrise Mountain ISA. It is our 
conclusion that the best way to address these issues is to release the 
entire Sunrise Mountain ISA from WSA status and from wilderness interim 
management protection. With the number of exceptions we have noted, the 
remaining ISA becomes unwieldy and difficult to manage for wilderness 
values. In addition, we recommend that the portion of the Meadow Valley 
Range WSA originally recommended not suitable by the BLM in 1992 be 
likewise released from wilderness protection. The provisions of section 
207(d) would no longer be necessary with such releases.
    Finally, Section 208(d) addresses wildlife water development 
projects. General management policies of the NPS do not permit the 
construction of wildlife water development projects and artificial 
manipulation of habitat except to restore natural features that have 
been disrupted due to human development or activities. Lake Mead NRA 
has coordinated with the Nevada Division of Wildlife for the 
maintenance of wildlife drinkers where there has been a finding that 
original sources of water have been lost to development or irreversible 
disruption of natural processes. We recommend this section be rewritten 
to authorize construction of wildlife drinkers where such construction 
is not in conflict with other applicable state and federal law or 
policy.

                               TITLE III

    Title III provides for the transfer of BLM-managed lands to the 
Fish and Wildlife Service and the National Park Service. Substantial 
acreage in the case of the former and a small site in the case of the 
latter.
    Three BLM-managed WSAs would be released from interim protection 
under section 603(c) of FLPMA and then transferred to the Fish and 
Wildlife Service for inclusion in the Desert National Wildlife Range. 
Because this area is a long narrow piece abutting the east side of the 
Wildlife Range we believe that this is a sensible proposal. In 
addition, 10 acres of public land east of Searchlight, Nevada, would be 
transferred from BLM management to the National Park Service for 
purposes of an administrative site for Lake Mead National Recreation 
Area.
    We support these transfers, but would like the opportunity to work 
on language which would provide for a direct legislative transfer 
rather than a more cumbersome time-consuming administrative withdrawal 
process.

                                TITLE IV

    Title IV modifies the Southern Nevada Public Land Management Act of 
1998 (SNPLMA), Public Law 105-263. The bill would substitute a new map 
for the map used in the original bill which outlines the ``disposal 
area'' within the Las Vegas Valley. Under the new map, the area subject 
to the disposal provisions of SNPLMA are expanded by approximately 
23,600 acres of federal land. The additions are primarily on the north 
side of Las Vegas (three WSAs are released from protection under 
section 603(c) of FLPMA in Title II of the bill and the majority of 
those acres are placed inside the disposal boundary) as well as 
scattered areas to the west and east of Las Vegas. We do not oppose 
these additions to the disposal boundary.
    In addition to providing for the disposal of certain public lands 
in the Las Vegas area, the SNPLMA also provided for the disposition of 
receipts from those disposals. 85 percent of the receipts are deposited 
in a special account. The special account funds are then spent to 
acquire environmentally sensitive lands in Nevada, pay for capital 
improvements in certain Clark County federal sites (such as the 
National Park Service's Lake Mead National Recreation Area and BLM's 
Red Rock Canyon National Conservation Area (NCA)), develop parks, 
trails and natural areas in Clark County in cooperation with local 
governmental units, and for other specified purposes.
    Title IV of this bill would require that a minimum of 25 percent of 
the special account fund be used for cooperative agreements for parks, 
trails, and natural areas. While we share the cooperative sentiment 
behind this proposal, we believe the amendment is limiting. To place 
arbitrary floors on certain uses of the special account, ties the 
agency's hands and may result in less than optimal use of the funds in 
the special account. For example, in the most recent, and third round, 
of recommendations for expenditures of the SNPLMA special account, over 
33 percent of the expenditures would be for these cooperative 
agreements. Cumulatively expenditures for cooperative agreements have 
been over 26 percent of the total. The process of local working groups 
establishing priorities is working and the establishment of a cap is an 
unnecessary and limiting restriction. Section 401(2)(A) should be 
deleted.
    Finally, we would like the opportunity to have discussions with the 
bill's sponsors regarding a slight modification to the expenditure 
provisions of section 4(e)(3) of the SNPLMA. While capital improvements 
and acquisitions of environmentally sensitive lands are allowed under 
the Act, it is silent on restoration and rehabilitation. Along with 
preserving and protecting important environmentally sensitive lands, 
there are significant opportunities for careful restoration and 
conservation work. This may be an appropriate use of these funds and we 
would like to discuss those options.

                                TITLE V

    It appears that the intent of this Title is primarily twofold: 
first, to protect a potential utility corridor to serve the proposed 
Ivanpah Airport; and, second, to transfer approximately 15,500 acres of 
public land to the Clark County Airport Authority.
    We believe that this Title, especially the transfer of lands, is 
premature. In late 2000, the Congress passed the ``Ivanpah Valley 
Airport Public Lands Transfer Act,'' (P.L. 106-362). That Act provides 
for the sale of approximately 5,900 acres to Clark County at fair 
market value. Those lands are for the purpose of airport development. 
The sale of public lands under that Act is to take place once the FAA 
certifies an airspace assessment which has been completed by the 
County. Following the sale by the BLM to the County, the County is then 
required to complete an Environmental Impact Statement (EIS). The 
completion of that EIS is expected to take several years. A final 
decision on whether or not to build an airport will not be made until 
that EIS is complete. We oppose the transfer of additional lands, as 
directed in section 501(b), until this underlying issue is addressed.
    We would also note that some of the lands in the southwest portion 
of the area identified for inclusion in the Ivanpah Airport Noise 
Compatibility Area are important Desert Tortoise habitat and are within 
the Desert Tortoise translocation area under the Clark County Habitat 
Conservation Plan (CCHCP). If acreage is conveyed out of Federal 
ownership within the CCHCP it could jeopardize Clark County's section 
10 permit with the U.S. Fish & Wildlife Service under the Endangered 
Species Act. Finally, these lands are currently managed for a variety 
of multiple uses including utility corridors and OHV recreational use 
which we urge be considered before any transfer of lands.
    We have additional concerns with section 501(a). We note that it 
establishes a 173,000-acre Interstate 15 corridor south of Las Vegas 
and terminates an existing mineral withdrawal for that corridor. Other 
purposes of this corridor are unclear. This subsection also establishes 
a transportation and utility corridor surrounding the proposed Ivanpah 
Airport, which again appears premature.
    Section 501(b) may affect the provisions of Public Law 106-362, 
which directed that funds received from the sale of public lands are to 
be used for the acquisition of private inholdings in the Mojave 
National Preserve and for the protection and management of the 
petroglyph resources in Clark County, Nevada. Park Service would like 
the opportunity to work with the Sponsor and the Committee to clarify 
this issue.
    Finally, section 501(c) segregates and withdraws from the 
operations of the mining laws certain Areas of Critical Environmental 
Concern (ACECs) identified in the BLM's 1998 Las Vegas Resource 
Management Plan (RMP). We support this provision which is consistent 
with the RMP as well as the CCHCP.

                                TITLE VI

    Title VI establishes the Sloan Canyon National Conservation Area 
(NCA). The Sloan Canyon area south and east of Las Vegas is a 
strikingly beautiful area with important cultural and archaeological 
sites. It rightly deserves the recognition and the meaningful 
protections that are inherent in a National Conservation Area 
designation.
    The centerpiece of the nearly 48,000-acre NCA is the Sloan Canyon 
site. The Canyon includes over 3/4 of a mile of more than 300 rock art 
panels with nearly 1,000 designs. The age of these petroglyphs and 
pictographs range from pre-Columbian to historic times, clearly 
illustrating the rich human history of the area. This canyon continues 
to hold spiritual meaning to the native peoples of the area where it 
remains a sacred site for the intertribal community.
    Each of the NCAs designated by Congress and managed by the BLM is 
unique. However, for the most part they have certain critical elements, 
these include: public land, mining, and mineral leasing law withdrawal, 
OHV use limitations, and language which charges the Secretary to only 
allow those uses which further the purposes for which the NCA is 
established. Furthermore, NCA proposals do not diminish the protections 
that currently apply to the lands. The Sloan Canyon NCA proposal 
largely honors this spirit. However, the uses language in section 
605(c) is open to interpretation. We would recommend that this be 
amended to include either the traditional ``only such uses'' language 
or at a minimum to delete the word ``any'' in this subsection.
    In addition, we recommend that the hunting language in section 
605(f) be revised. As currently written it implies that the Secretary 
of the Interior is responsible for the permitting of hunting on public 
lands. In Nevada, as in most other States, state officials exercise 
primary responsibility for the regulation of hunting, fishing, and 
trapping on federal public lands. We would be happy to work with the 
Committee and the sponsors so as to modify this language in an 
appropriate fashion.
    Section 605(h) requires the BLM to issue a right-of-way to the city 
of Henderson for a road connecting the main portion of Henderson to the 
community of Anthem. A portion of this right-of-way would cut through 
the Sloan Canyon NCA. BLM currently has an application for this right-
of-way on file. However, we should note that the Nevada Division of 
Wildlife has raised concerns about the possible effect of this road on 
the bighorn sheep population. We would recommend that before a decision 
is made on this right-of-way full environmental impacts need to be 
determined through the NEPA process. This would take longer than the 90 
days specified in 605(h). In addition, we would seek the flexibility to 
revise the right-of-way as necessary to address any serious issues 
discovered in the NEPA process.
    Section 606 provides for the sale of a 500-acre parcel to the west 
of the NCA to the highest bidder. 87 percent of the funds generated 
from this sale are earmarked for uses related to the Sloan Canyon NCA. 
We would hope the sponsors would consider a wider use of these funds 
for other conservation and science costs related to the implementation 
of this bill. In addition, we believe this sale should comply with 
section 203 of FLPMA to ensure that proper procedures are followed and 
the public interest is protected.
    We would also like to work with the Committee on other minor 
modifications including map references and proposed minor boundary 
modifications.

                               TITLE VII

    Title VII of the legislation provides for a number of land 
conveyances to various entities. While in general we do not oppose 
these transfers, there are a number of complicating factors that need 
to be addressed. I will discuss each conveyance individually.
    The lands involved in section 702 were transferred from the BLM to 
Clark County Department of Aviation in the SNPLMA. Under SNPLMA, 
conveyance of these lands resulted in 85 percent of their value being 
transferred to the SNPLMA special account. This section would transfer 
approximately 115 acres of these lands to the University of Nevada, Las 
Vegas (UNLV) at no cost for a technology research center. While we do 
not oppose the transfer to UNLV we do believe that the same restriction 
on future sale, lease, or other conveyance which applied to the Clark 
County Department of Aviation should now apply to UNLV.
    Section 703 of the bill proposes to convey approximately 176 acres, 
described as ``Tract F,'' to the Las Vegas Metropolitan Police 
Department. The southern half of this parcel is currently leased under 
the R&PP Act to the city of Las Vegas for a Police Department shooting 
range. The north half of the parcel is vacant public land within the 
Sunrise Mountain ISA. Because these lands are within the ISA the BLM 
cannot convey them to the city without Congressional action. As we 
noted in this testimony under Title II we recommend that the entire 
Sunrise Mountain ISA be released by Congress from interim wilderness 
management.
    Section 704 provides for the conveyance of approximately 511 acres, 
described as ``Tract H,'' to the city of Henderson for the Nevada State 
College at Henderson. Nevada State College is admitting its first class 
of students this fall into its four-year baccalaureate program and has 
been authorized by the Nevada Board of Regents as part of the 
University and Community College System of Nevada. 230 of these acres 
are within the SNPLMA disposal boundary and the State of Nevada has 
applied for an R&PP lease for these acres. A number of unresolved 
issues exist on the other 281 acres which lie outside the disposal 
boundary. Among the complicating factors related to this proposed 
conveyance are flood control structures, communications sites (with 
concomitant hazardous materials problems), significant cultural sites 
and neighborhood concerns about the College. These issues need to be 
addressed before such a transfer is approved.
    Section 705 provides for the conveyance of two parcels, the 20-acre 
``Tract C'' and the 10-acre ``Tract D,'' to the city of Las Vegas for 
the purposes of affordable housing. These lands are within the SNPLMA 
disposal boundary. ``Tract C'' is currently under an R&PP lease to the 
city of Las Vegas for a public park and ``Tract D'' is vacant BLM-
managed land.
    Section 7(b) of the SNPLMA made provisions for the transfer of 
lands at less than fair market value and in consultation with the 
Department of Housing and Urban Development (HUD) for affordable 
housing purposes under certain circumstances. We would prefer utilizing 
that authority in the cases of Tracts C and D. However, at a minimum we 
believe that section 705 needs to be both coordinated with and 
consistent with the 7(b) language of SNPLMA.
    Section 706 proposes to transfer 688 acres, identified as ``Tract 
G,'' to the city of Henderson, if requested by the city, for the 
purpose of economic development. These lands are within the SNPLMA 
disposal boundary. While resale, lease, or other conveyance of these 
lands by Henderson would result in a deposit to the SNPLMA special 
account consistent with that Act, we are concerned about unlimited 
administrative costs which Henderson can charge against the funds. A 
reasonable limit on such costs should be established by the 
legislation.
    Section 707 transfers 917 acres of land identified at ``Tract E'' 
to Clark County. These lands comprise the Sunrise Mountain Landfill and 
portions of it are within the Sunrise Mountain ISA. Clark County is 
currently working on landfill closure in conjunction with the EPA. In 
our earlier discussion of Title II we recommended that the entire 
Sunrise Mountain ISA, including these lands, be released from WSA 
status and from interim wilderness protection. While we support the 
transfer of the landfill to Clark County, many of the specific 
provisions of section 707 appear to put the Federal government at a 
distinct disadvantage. We believe the transfer should take place 
immediately, or within a very short time frame. Delaying this transfer 
places the Federal government at risk of liability for an area for 
which it has no responsibility. In addition, the Department should be 
released from any liability arising from the land before or after the 
transfer. Finally, the map for the landfill fails to include a small 
section of the current landfill. The map should be modified to include 
all of the landfill.
    Section 708 proposes to establish an ``Open Space Land Grant'' for 
the city of Henderson. This is a new and innovative concept. Under this 
section the BLM would transfer approximately 2,442 acres of land, 
identified as ``Tract B,'' which abuts the proposed Sloan Canyon NCA on 
the northwest, to Henderson for ``open space.'' This area would be used 
for conservation, recreation, and flood control facilities. We support 
the provision, but would like the opportunity to address some minor map 
modifications which may be necessary in order to avoid apparent 
duplicate uses of some of the lands or creating an unmanageable 
isolated parcel of public land. In addition, we would support language 
providing for cooperation in the planning efforts for the NCA 
established by Title VI and this ``open space'' area.
    It appears that the intent of section 709 is to remove a right-of-
way from lands patented to Aerojet-General Corporation by the Federal 
government in 1988. When these lands were conveyed to Aerojet-General 
as part of a land exchange, the existence of the right-of-way reduced 
the appraised value of the lands. Relocation of the right-of-way would 
result in enhanced value of the lands which have since been sold by 
Aerojet-General to a private party. We believe that the Federal 
government should be compensated at fair market value for the removal 
of this right-of-way.
                               conclusion
    Thank you for the opportunity to testify on S. 2612. This is a 
significant bill; but it is also a detailed and complex bill. We look 
forward to the opportunity to work with Senators Reid and Ensign and 
the Committee to adequately address the concerns we have raised so that 
this important proposal can be finalized.

    Senator Wyden. Thank you. Ms. Kimbell.

STATEMENT OF ABIGAIL KIMBELL, ASSOCIATE DEPUTY CHIEF, NATIONAL 
    FOREST SYSTEM, FOREST SERVICE, DEPARTMENT OF AGRICULTURE

    Ms. Kimbell. Good afternoon. Mr. Chairman, I am here to 
provide the administration's comments on four bills and a 
concurrent resolution. Would you like our testimony on all four 
bills and the resolution at this time?
    Senator Wyden. Sure.
    Ms. Kimbell. The Department supports S. 2652 and the 
Concurrent Resolution 107, and does not object to S. 2565, S. 
2587, or S. 2612. The Department would like to work with the 
committee to recommend improvements to the last three bills.
    The Wild Sky Wilderness Act of 2002, the Department does 
not oppose S. 2565 designating the Wild Sky Wilderness on the 
Mount Baker-Snoqualmie in the State of Washington as a 
component of the National Wilderness Preservation System. 
However, the Department would like to work with the committee 
to improve S. 2565.
    The Department has significant concerns with approximately 
20,000 of the 106,000 acres proposed for wilderness 
designation. These acres would not be considered suitable for 
wilderness designation under the provisions of the 1964 
Wilderness Act or under existing Forest Service regulations and 
planning direction. It may be that some other back country 
designation would be more suitable for these acres. To that 
end, the Department would like to work with the committee to 
make a few adjustments.
    The lands that would help meet the goals of the Wilderness 
Act consist of all of the Eagle Rock Roadless Area and portions 
of Glacier Peak A, B, K and L. These acres retain their 
undeveloped character and are largely without permanent 
improvement or human habitation. Limiting the wilderness 
designation to these lands would address many of the 
Department's concerns.
    The areas we propose for exclusion from wilderness 
designation and an alternative back country designation include 
forests showing visible evidence of logging, railroad logging 
and mining activities. The areas also include 35 miles of 
existing road, some of which are all-weather, driveable and 
graveled. Several of the roads receive high levels of visitor 
use associated with recreation opportunity.
    Another concern lies with roads outside and adjacent to the 
proposed wilderness boundary that have narrow corridors subject 
to landslide. This situation poses significant public safety 
and resource management issues, as the close proximity of the 
proposed boundary could result in constraints related to 
necessary repairs and road construction work.
    We propose the exclusion of the area encompassing patented 
mining claims and private timberlands. We would also suggest 
excluding the Evergreen Mountain Lookout, a widely used 
recreation rental cabin, from the proposed wilderness, in order 
to continue offering this developed recreation opportunity to 
visitors.
    A boundary adjustment would also accommodate a likely 
future expansion of the existing Bonneville Power 
Administration's right-of-way.
    Further, Lake Isabel has substantial floatplane use. We 
would like to work with the committee to clarify intent 
regarding that use.
    Finally, S. 2565 represents the kind of careful forest 
level evaluation of roadless areas that is necessary to resolve 
the roadless issue with appropriate and specific congressional 
designation for additions to the National Wilderness System. 
The Department is supportive of the administrative provisions 
in the bill, particularly provisions for a repeater site in 
order to provide improved communications for safety and health 
purposes. The Department is also supportive of the provisions 
for land exchange in the Glacier Peak wilderness and provisions 
for management of the existing Snotel site in that wilderness.
    On S. 2587, Joint Federal and State Navigable Waters 
Commission for Alaska Act, the purposes of the bill are 
threefold. The issue of navigability is central to the 
ownership of submerged lands; generally title to lands 
underlying a navigable body of water pass to the State upon its 
admission to the Union unless those lands were retained as part 
of a Federal reservation.
    The enactment of S. 2587 could have value in expediting 
determinations of navigability on fresh water rivers, lakes and 
streams in Alaska. However, the courts have generally rejected 
formula approaches to navigability determinations, opting 
instead to inquire into the facts of each case. The Department 
is concerned that the proposed commission during its short 2-
year duration might not be capable of effectively conducting 
the necessary historical research to determine the factual 
underpinnings of navigability for thousands of waterways in the 
remote areas of Alaska.
    We are also concerned about the effect of the 
recommendations submitted by the commission and whether the 
courts would accept those recommendations.
    We have an additional concern regarding the composition of 
the commission. There is no requirement for any member to have 
expertise in any aspect of law or land management that would 
facilitate determinations. We believe the committee should 
consider adding expertise as criteria for some of the 
commission members.
    In addition, OMB advises that the bill has pay as you go 
implications because of the commission compensation provision. 
An estimate has not yet been developed. The Department is not 
opposed to the purpose of the bill but would welcome the 
opportunity to work with the committee to address these issues 
so that determinations of navigability could be expedited for 
Alaskan waterways.
    On S. 2612, Clark County Conservation of Public Land and 
Natural Resources Act, it is made up of several titles, only a 
few of which concern the Forest Service directly, title II and 
title IV.
    Although the Department does not oppose title II and is 
supportive of the proposed additions to the National Wilderness 
Preservation System, we have significant concerns with some of 
the administrative and management provisions as they are 
currently drafted. We look forward to working with the 
committee to resolve those concerns.
    Specifically, they have to do with the provision for low 
level flights and for the boundaries that are indicated. As a 
general matter, the Forest Service is concerned with our 
ability to administer wilderness boundaries that follow 
unsurveyed property lines or township lines. Resulting 
wilderness may be more effectively managed if where possible, 
recognizable landscape features and elevation contour lines 
define the boundaries.
    Additionally, we have a number of substantive and technical 
concerns concerning sections 208, 209 and 210, and would like 
to work with the committee to modify these sections.
    Title IV of the bill contains amendments to the Southern 
Nevada Public Land Management Act. We recommend maintaining 
flexibility in the proportions allocated to land acquisitions, 
capital improvements, and parks, trails and natural areas to 
allow these three----
    Senator Wyden. Miss Kimbell, I think you're over 5 minutes 
at this point. Could you possibly summarize your remaining 
points?
    Ms. Kimbell. Certainly. The Florida National Forest Land 
Management Act of 2002, the Department supports S. 2652. There 
is one parcel that is not National Forest System land. We would 
like to work with the committee on that.
    And we would also like to work with the committee on the 
language that specifies the concurrence of the Secretary of the 
Air Force.
    On the Senate Concurrent Resolution 107, this plan is a 
consensus document. Certainly the Secretary of Agriculture has 
signed in May of this year the implementation plan for the 10-
year strategy, and the newly formed Wildland Leadership Council 
is important to the leadership accountability and coordination 
in carrying out the goals.
    We certainly appreciate the continued bipartisan support 
from Congress and we are committed to meeting the goals of this 
Federal-State partnership. This concludes my statement. We are 
looking forward to working with the committee on making these 
bills stronger.
    [The prepared statement of Ms. Kimbell follows:]

    Prepared Statement of Abigail Kimbell, Associate Deputy Chief, 
   National Forest System, Forest Service, Department of Agriculture

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today. I am Abigail Kimbell, Associate 
Deputy Chief for National Forest System, Forest Service. I am here 
today to provide the Administration's comments on four bills and a 
concurrent resolution:
    S. 2565--to enhance ecosystem protection and the range of outdoor 
opportunities protected by statute in the Skykomish River Valley of the 
State of Washington by designating certain Federal lands as wilderness, 
and for other purposes.
    S. 2587--to establish the Joint Federal and State Navigable Waters 
Commission for Alaska.
    S. 2612--to establish wilderness areas, promote conservation, 
improve public land, and provide for high quality development in Clark 
County, Nevada, and for other purposes.
    S. 2652--to authorize the Secretary of Agriculture to sell or 
exchange certain land in the State of Florida, and for other purposes.
    S. Con. Res. 107--expressing the sense of Congress that Federal 
land management agencies should fully support the Western Governors 
Association ``Collaborative 10-year Strategy for Reducing Wildland Fire 
Risks to Communities and the Environment'', as signed August 2001, to 
reduce the overabundance of forest fuels that place national resources 
at high risk of catastrophic wildfire, and prepare a National 
Prescribed Fire Strategy that minimizes risks of escape.
    The Department supports S. 2652 and S. Con. Res. 107 and does not 
object to S. 2565, S. 2587 or S. 2612. The Department would like to 
work with the Committee to recommend improvements to S. 2565, S. 2587 
and S. 2612.

              S. 2565--THE WILD SKY WILDERNESS ACT OF 2002

    The Department does not oppose S. 2565 designating the Wild Sky 
Wilderness on the Mount Baker-Snoqualmie National Forest in the State 
of Washington as a component of the National Wilderness Preservation 
System. However, the Department would like to work with the Committee 
to improve S. 2565.
    This legislation would create approximately 106,000 acres of 
additional wilderness on the Skykomish Ranger District of the Mt. 
Baker-Snoqualmie National Forest. It directs the Secretary to assure 
adequate access to private in-holdings within the Wild Sky Wilderness 
and establish a hiking trail plan. The bill authorizes the use of 
helicopter access to construct and maintain a Forest Service 
communication repeater site to provide improved communication for 
safety and health purposes.
    S. 2565 also requires the Secretary to exchange specified lands 
with the Chelan County Public Utility District if the District offers 
to the Secretary approximately 371.8 acres within the Snoqualmie 
National Forest, in exchange for a permanent easement, including 
helicopter access, consistent with such levels of use as of the date of 
this Act's enactment, to maintain an existing Snotel site on 1.82 acres 
on the Wenatchee National Forest.
    If Chelan County notifies the Secretary that they no longer need to 
maintain the Snotel site, the easement will be extinguished and all 
rights conveyed by this exchange would revert to the United States.
    The Department has significant concerns with approximately 36,000 
acres of the 106,000 acres proposed for wilderness designation. These 
acres would not be considered suitable for wilderness designation under 
the provisions of the 1964 Wilderness Act or under existing Forest 
Service regulations and planning direction. It may be that some other 
backcountry designation would be more suitable for these acres.
    Within the proposed wilderness in S. 2565, there are lands that 
could meet the 1964 Wilderness Act goals for preservation and 
protection of lands in their natural condition. To that end, the 
Department would like to work with the Committee to make a few 
adjustments. The lands that would help meet the goals of the Wilderness 
Act, approximately 70-75,000 acres, consist of all of the Eagle Rock 
Roadless Area and portions of Glacier Peak A, B, K, and L. These areas 
retain their undeveloped character and are largely without permanent 
improvements or human habitation. Limiting the wilderness designation 
to these lands would address many of the Department's concerns.
    The areas we propose for exclusion from wilderness designation and 
an alternative backcountry designation include low elevation forests 
that have been utilized for timber harvest and mining over the last 80 
years, still showing visible evidence of railroad logging and mining 
activities. The areas also include approximately 35 miles of existing 
roads, some of which are all weather, drivable, and graveled. Several 
of the roads receive high levels of visitor use associated with 
recreation opportunities. The Rapid River Road is such a travel way and 
we recommend its exclusion from wilderness designation. The types of 
recreation experiences enjoyed by users along the Rapid River Road 
corridor include driving for pleasure, nature photography, fishing, 
picnicking and dispersed camping at a number of pull-off sites along 
the road. In the winter snowmobiles utilize this road as a part of the 
snowmobile trail system, traveling to its end point.
    Another concern lies with roads outside and adjacent to the 
proposed wilderness boundary that have narrow corridors subject to 
landslide. This situation poses significant public safety and resource 
management issues, as the close proximity of the proposed boundary 
could result in constraints related to necessary repairs and road 
reconstruction work. We would like to work with the Committee on more 
appropriate boundaries.
    We propose the exclusion of the area encompassing approximately 
2,426 acres of private fee patented mining claims and private 
timberlands. We also would suggest excluding the Evergreen Mountain 
Lookout, a widely used recreation rental cabin, from the proposed 
wilderness in order to continue offering this developed recreation 
opportunity to visitors.
    A boundary adjustment would also accommodate a likely future 
expansion of the existing Bonneville Power Administration's (BPA) right 
of way. S. 2565 includes a 200-foot wilderness boundary setback from 
the edge of the BPA power line right-of-way. While the proposed 
wilderness boundary follows the power line right-of-way for only 1.5 
miles, the boundary is too close to allow for additional power lines 
which would be required in the likely event that increased power 
capacity is needed for the greater Seattle area. This concern could be 
eliminated if the wilderness boundary was offset a minimum of 500 feet 
uphill from the existing right-of-way. Further, Lake Isabel has 
substantial floatplane use and we would like to work with the committee 
to clarify intent regarding this use.
    The Department is supportive of the administrative provisions in 
the bill, particularly provisions for a repeater site in order to 
provide improved communications for safety and health purposes. The 
Department is also supportive of the provisions for land exchange in 
the Glacier Peak Wilderness and provisions for management of the 
existing Snotel site in that wilderness.

S. 2587--JOINT FEDERAL AND STATE NAVIGABLE WATERS COMMISSION FOR ALASKA 
                                  ACT

    The purposes of the bill are threefold: (1) to expedite the process 
of quieting title to the submerged lands in the State of Alaska; (2) to 
facilitate determinations of which bodies of water in Alaska are 
navigable and which are not navigable; and (3) to recommend to both the 
Federal and State governments ways to improve the process for water use 
and navigability decision making.
    The bill would establish a joint Commission composed of senior 
executives representing the highest levels of both Federal and State 
governments. Representatives of the President of the United States and 
the Governor of the State of Alaska would serve as co-chairpersons of 
the commission.
    The Commission would make recommendations to the Secretary of the 
Interior and the State of Alaska regarding navigability determinations. 
The Commission would also focus on developing procedures to include 
private landowners, Native Corporations and the general public in the 
process. The Commission would have two years to complete its task and 
would then be terminated.
    The issue of navigability is central to the ownership of submerged 
lands. Generally, title to lands underlying a navigable body of water 
passed to the state upon its admission to the Union, unless those lands 
were retained as part of a Federal reservation. Navigability is based 
on a factual determination as to whether the waterway was used, in the 
customary modes of trade and travel on water, as a highway for commerce 
as of the date of the States' admission to the Union.
    The enactment of S. 2587 could have value in expediting 
determinations of navigability on fresh water rivers, lakes and streams 
in Alaska by establishing the Commission to help provide factual 
information to be considered in these determinations. However, the 
courts have generally rejected formula approaches to navigability 
determinations, opting instead to inquire into the facts of each case. 
The Department is concerned that the proposed Commission, during its 
short, two-year duration might not be capable of effectively conducting 
the necessary historical research to determine the factual 
underpinnings of navigability for thousands of waterways in remote 
areas of Alaska.
    We are also concerned about the effect of the recommendations 
submitted by the Commission, and whether the courts would accept those 
recommendations. It is not clear that the Commission, however 
constituted, can achieve the bill's purposes of expediting the title 
adjudication processes and facilitating navigability determinations.
    We have an additional concern regarding the composition of the 
Commission. As the bill is currently written, the Commission is 
composed of members who each represent an interested party. There is no 
requirement for any member to have expertise in any aspect of law or 
land management that would facilitate determinations. We believe the 
Committee should consider adding expertise as criteria for some of the 
Commission members.
    In addition, OMB advises that the bill has pay-as-you-go 
implications because of the Commission compensation provision. An 
estimate has not yet been developed.
    The Department is not opposed to the purpose of the bill, but would 
welcome the opportunity to work with the committee to address these 
issues so that determinations of navigability could be expedited for 
Alaskan waterways.

         S. 2612--CLARK COUNTY CONSERVATION OF PUBLIC LAND AND 
                     NATURAL RESOURCES ACT OF 2002

    S. 2642 is made up of several titles, only a few of which concern 
the Forest Service directly. Therefore, I will limit my comments to 
Title II and Title IV. These titles designate specified Federal lands 
in Nevada as wilderness and components of the National Wilderness 
Preservation System. S. 2612 also releases and retains certain Nevada 
lands as wilderness study areas.
    Title II proposes a number of areas in Clark County as additions to 
the National Wilderness Preservation System, and several related 
administrative and management requirements and limitations. Although 
the Department does not oppose Title II and is supportive of the 
proposed additions to the National Wilderness Preservation System, we 
have significant concerns with some of the administrative and 
management provisions as they are currently drafted. We look forward to 
working with the Committee to resolve these concerns.
    The Nevada Wilderness Protection Act of 1989 provided for low-level 
over-flights in designated wilderness for military purposes only. The 
language of the section 205 in the current bill allows for low-level 
flights by anyone. We would like to work with the Committee to resolve 
this difference.
    As a general matter applicable to three of the proposed additions 
to the National Wilderness Preservation System, the Forest Service is 
concerned with our ability to administer wilderness boundaries that 
follow private property lines and un-surveyed cadastral (i.e., 
township) lines. The resulting wilderness would be more effectively 
managed if, where possible, recognizable landscape features and 
elevation contour lines defined the boundaries.
    In most cases, private property boundaries and cadastral lines were 
defined in the last century and have not been surveyed. For example, 
the western boundary of the proposed La Madre Wilderness appears to 
follow the section lines.
    Revising that boundary to follow topographic features would make it 
easier to both establish and administer on the ground. The Forest 
Service also recommends assuring that this portion of the boundary is 
sufficiently offset from FSR 576 and the private inholding to guard 
against any potential conflict with those features. Also, where 
boundaries use offsets from man-made structures, such as roads or power 
lines, these offsets should be adequate to allow for road and fuel 
break maintenance, as well as dispersed parking where appropriate. We 
would like to discuss our specific boundary concerns with the Committee 
and staff before the bill moves forward.
    Additionally, we have a number of substantive and technical 
concerns regarding sections 208210 and would like to work with the 
Committee to modify these sections.
    Title IV of the bill contains amendments to the Southern Nevada 
Public Land Management Act (SNPLMA), specifying that a maximum of 25 
percent of the amounts be used for capital improvements and a minimum 
of 25 percent be used for parks, trails, and natural areas. These 
legislated restrictions are problematic. We recommend maintaining 
flexibility in the proportions allocated to land acquisitions, capital 
improvements, and parks, trails, and natural areas to allow those three 
program areas to adjust to the variations in needs and priorities that 
naturally occur from year to year. The process currently described in 
the SNPLMA Implementation Agreement permits important flexibility. The 
Implementation Agreement process allows public participation throughout 
the nomination process to help set the priorities for distribution of 
funds. The latest round of project submittals exemplified how the 
current flexibility was used to distribute funds to the mutual 
advantage of all participating agencies and, ultimately, to the public. 
Therefore, we recommend that the Implementation Agreement process be 
used to develop the annual recommendations for SNPLMA project funding.

      S. 2652--FLORIDA NATIONAL FOREST LAND MANAGEMENT ACT OF 2002

    S. 2652 would authorize the Secretary of Agriculture to solicit 
offers for the sale or exchange of 18 parcels of land within the 
National Forests in Florida.
    S. 2652 authorizes the Secretary to use a real estate broker and 
pay the real estate broker a commission in an amount that is comparable 
to the amounts of commission generally paid for real estate 
transactions in the area.
    The bill allows the Secretary to accept a cash equalization payment 
in excess of 25 percent of the value of the Federal land exchanged for 
non-Federal land of a lesser value.
    S. 2652 also prohibits the Secretary of Agriculture from selling or 
exchanging the parcel of land described in paragraphs (1) through (7) 
of subsection (b) without the concurrence of the Secretary of the Air 
Force. The Department has concerns with this provision and believes it 
could significantly delay disposing of the specified parcels. We would 
like to work with the Committee to revise the concurrence language.
    Further, we would recommend that parcel 17 (tract C-2212) be 
removed from the bill. The 5 acres does not belong to the Forest 
Service.
    The Department supports S. 2652. The parcels contained in the bill 
are also identified for exchange or sale in the National Forests in 
Florida's Land Management Plan. This legislation will expedite the sale 
of these parcels, which are separated and isolated lands that no longer 
contain national forest characteristics and are no longer manageable as 
National Forest land. Several of these parcels are encumbered with 
urban structures, such as baseball fields and the Okaloosa County 
fairgrounds.
    S. 2652 will allow us to acquire the remainder of a 2,560-acre 
inholding within Florida's Apalachicola National Forest. We recently 
completed a land exchange for 1,180 acres of this property.

  S. CON. RES. 107--SENSE OF CONGRESS ON THE ``COLLABORATIVE 10-YEAR 
   STRATEGY FOR REDUCING WILDLAND FIRE RISKS TO COMMUNITIES AND THE 
                              ENVIRONMENT"

    Senate Concurrent Resolution 107 expresses the sense of Congress 
that Federal land management agencies should fully support the 10-Year 
Comprehensive Strategy for Reducing Wildfire Risks to Communities and 
the Environment. This strategy was developed by the Secretaries of 
Agriculture and the Interior in collaboration with the Western 
Governors Association. The Secretaries and the Governors endorsed this 
document in August 2001.
    Subsequently, in May of this year, the Secretaries and Governors 
signed the implementation plan for the 10-Year strategy. This plan is a 
consensus document agreed to by the Secretaries, the Western and 
Southern Governors Associations, the National Association of Counties, 
the National Association of State Foresters, industry, environmental 
groups, and other parties. The goals of the implementation plan are to 
improve fire suppression, reduce hazardous fuels, restore fire adapted 
ecosystems, and promote community assistance through performance based 
collaboration. The implementation plan establishes the need for active 
forest management, including thinning that produces commercial or pre-
commercial products, biomass removal and utilization of prescribed fire 
and other tools to reduce wildland fire risks to communities and the 
environment.
    The newly-formed Wildland Leadership Council is important to the 
leadership, accountability, and coordination in carrying out these 
goals. The Council has developed action plans for each task described 
in the 10-Year Implementation Plan. We appreciate the continued 
bipartisan support from Congress, and we are committed to meeting the 
goals of this federal-state partnership.

                               CONCLUSION

    This concludes my statement. We look forward to working with the 
Committee on making the suggested modifications as noted above, and I 
would be happy to answer your questions.

    Senator Wyden. Thank you.
    Ms. Pearce.

 STATEMENT OF DRUE PEARCE, SENIOR ADVISOR TO THE SECRETARY OF 
                THE INTERIOR FOR ALASKA AFFAIRS

    Ms. Pearce. Thank you, sir. I have two bills that I will be 
commenting on on behalf of the Department of the Interior.
    I appreciate the opportunity to appear here before you to 
present the views of the Department of the Interior on S. 2587, 
which would establish a Joint Federal and State Navigable 
Waters Commission. We believe the purposes of the bill are 
laudable and we support legislation to create a commission. We 
believe a bill would provide a desirable focus on a seemingly 
endless process of determining title to unreserved beds of 
navigable waters in the State of Alaska.
    We share the view of the State of Alaska that there will be 
many cases where the navigability of particular waterways is 
not likely to be in dispute. The commission process is an 
excellent way to identify such waterways, without protracted 
and costly litigation. While some disagreement between the two 
governments is inevitable, the ability to identify those 
waterways not in dispute properly leaves both governments in a 
position to more efficiently utilize their resources to address 
those waterways for which the resolution is more difficult.
    Under the equal footing document and the Submerged Lands 
Act of 1953, title to and ownership of the lands beneath 
navigable waters vested in the State at the time of statehood. 
Section 6(m) of the Alaska Statehood Act of 1958 applied the 
Submerged Lands Act to Alaska. Thus, title to unreserved beds 
of navigable waters passed to the State on January 3, 1959.
    Thousands of rivers and streams, and millions of lakes are 
located on Federal lands in Alaska. The question of who owns 
the unreserved beds is still unresolved all these years later.
    The State of Alaska has long sought to establish its right, 
title and interest in the beds of navigable waters. Ordinarily, 
this would be accomplished through real property quiet title 
actions in Federal court. In August 1992, the State notified 
the Secretary of the Interior that it intended to initiate 
quiet title proceedings on nearly 200 rivers, streams and 
lakes. Nearly a year later, in November 1993 the State took its 
first step in this efforts, filing a suit in Federal court in 
Anchorage to quiet title to the beds of the Nation, Kandik and 
Black Rivers.
    In January 2000, the Ninth Circuit issued an opinion in 
this case which frustrates the State's efforts. The United 
States has adopted a very narrow view of the term ``interest'' 
due to the Ninth Circuit's opinion that the Federal court had 
no jurisdiction to hear quite title actions against it, unless 
the Federal Government actively and expressly asserts an 
interest in the land. Because the Federal Government rarely 
expresses such interest, the State rarely has a viable cause of 
action to quiet title to submerged lands.
    The State of Alaska legislature passed a bill which was 
signed by the governor in June of this year, to create a 
navigable waters commission. This Federal bill actually would 
go along with that. It enumerates three purposes. It also 
establishes the duties of the commission, which we believe are 
reasonable. While advisory only, the commission can be helpful.
    We note that the term of 2 years may be insufficient to 
effect the purposes of the commission. The committee may want 
to consider a longer term of the commission. The membership 
includes seven members each representing the Federal and the 
State governments. We believe the committee should consider 
providing membership for additional interested Federal 
agencies, including relevant land management agencies such as 
U.S. Forest Service, and possibly the Department of Justice.
    We believe a more systematic process is long overdue to 
identify navigable and non-navigable waters of Alaska, by far 
the Nation's largest and most complex State with respect to 
these issues. The commission can contribute significantly to 
the Federal and Alaska State governments working together in a 
more focused and productive way to resolve these important 
matters.
    I am also here before you today to present the views of the 
Department on S. 2016, which would direct the land exchange 
between the Department of the Interior and the Newtok Native 
Corporation. The purpose of this exchange is to provide a new 
site for the Native Village of Newtok, Alaska, on lands within 
the Yukon Delta National Wildlife Refuge on Nelson Island.
    The present village site is experiencing severe erosion 
along the banks of the Ninglick River. The average annual 
erosion rate is 90 feet per year and it is expected the land 
under the homes, the schools and the businesses in Newtok, 
including the airport, their only access, will erode within 8 
years.
    We support and have supported from the onset the desire of 
the residents of Newtok to relocate their village from its 
present site across the river to an upland area on the Yukon 
Delta National Wildlife Refuge that is adjacent to other Newtok 
Village owned lands on Nelson Island.
    We do have some concerns, however, as the bill as it was 
introduced. Fish and Wildlife Service negotiations with Newtok 
seek to balance the necessity of the villagers to relocate to a 
new village site that is suitable and will accommodate the 
immediate and future needs of the village, while also providing 
protection for wildlife and their habitat on the refuge.
    We are optimistic that together we can reach an agreement 
through careful planning and continuing negotiations that 
satisfies both parties. Since the passage of the Alaska Native 
Claims Settlement Act, better known as ANCSA, in 1971, the 
Village of Newtok has nearly tripled in population, all the way 
to about 321. Continued growth of the village population must 
be considered in the planning for necessary infrastructure. 
There should also be a sufficient exchange of land of high 
value to wildlife to balance or at least minimize the loss of 
refuge lands associated with developing the undisturbed 
habitats in and around Nelson Island.
    We believe that surveys of the proposed Nelson Island lands 
should be conducted to determine the appropriate size and site 
for the village. We believe it's important to note that a 
description of the lands in the legislation at this time might 
result in the need for future adjustments.
    Current law authorizes the Secretary to conduct land 
exchanges in Alaska using either section 22(f) of ANCSA, as 
amended, which provides authority to conduct land exchanges on 
the basis of equal value, or section 1302(h) of the ANILCA, the 
Alaska National Interests Lands Conservation Act, which 
provided for other than equal value exchanges if the parties 
agree to an exchange and if the Secretary of Interior 
determines it is in the public interest.
    If this exchange is done on an equal value basis, we would 
urge the committee to allow the service to follow its standard 
appraisal process. As drafted the legislation is unclear as to 
whether selected lands being offered by Newtok will be deducted 
from ANCSA entitlements or----
    Senator Wyden. Miss Pearce, excuse me, I think you are well 
over 5 minutes too, if you could summarize your key points.
    Ms. Pearce. Legislation is unclear as to whether the 
selected lands being offered by Newtok will be deducted from 
ANCSA entitlements. If Newtok offers selected lands, they 
should be charged against their entitlement.
    While we have concerns with some of the details, we support 
legislation that directs the service and Newtok to negotiate an 
exchange that insures adequate land is conveyed for the village 
infrastructure.
    Thank you very much and I would be happy to answer any 
questions.
    [The prepared statements of Ms. Pearce follow:]

       Prepared Statement of Drue Pearce, Senior Advisor to the 
              Secretary of the Interior for Alaska Affairs

                                S. 2587

    Mr. Chairman, I appreciate the opportunity to appear before you to 
present the views of the Department of the Interior on S. 2587, a bill 
to establish a Joint Federal and State Navigable Waters Commission.
    We believe the purposes of the bill are laudable and we support 
legislation to create a commission. We believe a bill would provide a 
desirable focus on the seemingly endless process of determining title 
to unreserved beds of navigable waters in the State of Alaska. While we 
support the purposes of the bill and the focus it will provide on this 
important issue, we must recognize there are limits on what a 
commission may be expected to accomplish. Also, we would like to work 
with the Committee to refine language as to duties of the Commission 
and purposes of the reports to enhance the usefulness of the work of 
the Commission. In addition, we understand that the Department of 
Justice is still reviewing this bill and may have additional concerns.
    We share the view of the State of Alaska that there will be many 
cases where the navigability of particular waterways is not likely to 
be in dispute. The commission process is an excellent way to identify 
such waterways without protracted and costly litigation. While some 
disagreement between the two governments is inevitable, the ability to 
identify those waterways not in dispute properly leaves both 
governments in a position to more efficiently utilize their resources 
to address those waterways for which the resolution is more difficult.

                               BACKGROUND

    Under the Equal Footing Doctrine and the Submerged Lands Act of 
1953, ``title to and ownership of the lands beneath navigable waters'' 
vested in the states at the time of statehood. Section 6(m) of the 
Alaska Statehood Act of 1958 applied the Submerged Lands Act of 1953 to 
Alaska. Thus, title to unreserved beds of navigable waters passed to 
the state on January 3, 1959.
    Thousands of rivers and streams and millions of lakes are located 
on Federal lands in Alaska. This question of who owns the unreserved 
beds, and the natural resources in the beds, of these rivers, streams, 
and lakes has not been answered. The Interior Department's policy has 
been to make administrative navigability determinations to permit an 
agency to perform its administrative functions under the public land 
laws. The BLM, for example, makes administrative navigability 
determinations in support of the lands transfer program authorized by 
the Alaska Statehood Act, the Alaska Native Claims Settlement Act, and 
the Native Allotment Act. However, the Department's Solicitor noted in 
1976, ``the determinations by BLM will not decide legal disputes with 
respect to title, determine or adjudicate title. . . .''
    The State of Alaska has long sought to establish its right, title, 
and interest in the beds of navigable waters. Ordinarily, this is 
accomplished through real property quiet title actions in federal 
court. In August 1992 the State notified the Secretary of the Interior, 
among others, that it intended to initiate quiet title proceedings on 
nearly two hundred rivers, streams, and lakes. Nearly a year later, in 
November 1993, the State took its first step in this effort, filing a 
suit in Federal Court in Anchorage to quiet title to the beds of the 
Nation, Kandik, and Black Rivers (all located in the Upper Yukon area).
    In January 2000, the Ninth Circuit Court issued an opinion in this 
case which frustrates the State's efforts. In a white paper entitled 
``Conflicts Concerning Title to Submerged Lands in Alaska'' (March 4, 
2002), State officials presented the predicament to the Alaska 
Legislature. The paper states that the United States has adopted a very 
narrow view of the term ``interest'' due to the Ninth Circuit's opinion 
that the federal court has no jurisdiction to hear quiet title actions 
against it unless the federal government actively and expressly asserts 
an interest in the lands. Because the Federal government rarely 
expresses such interest, the State rarely has a viable cause of action 
to quiet title to submerged lands.
    In response, the State of Alaska legislature passed a bill, SB 219, 
signed into law by the Governor on June 20, 2002 to create a navigable 
waters commission. The effective date is September 18, 2002. According 
to testimony before the legislative committees, the navigable waters 
commission provision was patterned after Section 17 of the Alaska 
Native Claims Settlement Act which created the Joint Federal-State Land 
Use Planning Commission for Alaska. The bill is very similar, though 
not identical, to the current Senate bill, and anticipates a possible 
Federal partner in the Commission through Federal legislation.

                          PURPOSES AND DUTIES

    The bill enumerates three purposes, to:

          (1) expedite the process of quieting legitimate title to the 
        submerged lands in the State of Alaska;
          (2) facilitate determinations for purposes of the Submerged 
        Lands Act (43 U.S.C. 1301 et seq.), which bodies of water in 
        Alaska are navigable waters; and
          (3) recommend to the State of Alaska and the Federal 
        Government ways to improve the process of making water use and 
        navigability decisions and to fairly and expeditiously quiet 
        title to the State's submerged lands.

    To further these purposes, the bill establishes duties of the 
Commission to:

          (1) make recommendations to the Secretary of the Interior and 
        the State of Alaska regarding determinations of bodies of water 
        in the State that are navigable waters for purposes of the 
        Submerged Lands Act;
          (2) establish a process for employing established standards 
        to facilitate making such recommendations and determinations;
          (3) develop procedures for involving private landowners, 
        including Alaska Native corporations and the general public, in 
        that process;
          (4) undertake a process to identify navigable waters in 
        Alaska pursuant to established standards and criteria; and
          (5) make recommendations to improve coordination and 
        consultation between the government of the State of Alaska and 
        the Federal Government regarding navigability determinations 
        and decisions concerning title to submerged lands.

    The Commission's duties are reasonable. While advisory only, they 
can be helpful, but we believe they may be further detailed to assist 
and focus their efforts.
    The efforts of the Commission could help the BLM in resolving 
numerous jurisdictional questions which they have confronted over the 
past fifty years, involving the issuance of mining claims, rights-of-
way permits, land use permits, and oil and gas lease sales which 
involved submerged lands. For over a decade the BLM and the State have 
disputed, for example, which entity has jurisdiction over certain 
sections of the Fortymile River. Mining-related activities usually 
precipitate these disputes. The proposed Commission's work could also 
help resolve questions of ownership over islands that form in a river 
or lake after the date of statehood.
    However, we should point out that ``established standards and 
criteria'' referred to in item 4 may be somewhat elusive. The Federal 
courts set the legal standards for title navigability determinations. 
As the courts have repeatedly said, each water body must be considered 
on its own merits. Also, the Commission's recommendations are not 
definitive, but must be acted upon by the Federal and State 
governments, and where there is disagreement between the Federal and 
State governments, the Commission would need to recognize that only the 
courts will resolve the legal differences.
    We note that the term of 2 years may be insufficient to effect the 
purposes of the Commission. The Committee may want to consider a longer 
term or including in a report from the Commission a provision for 
addressing the need for renewal.
    The membership in the Commission includes 7 members each 
representing the Federal and State governments. We believe the 
Committee should consider providing memberships for additional 
interested Federal agencies, including relevant land management 
agencies, and possibly the Department of Justice for their expertise in 
the area.
    We note that there are ironies in navigability determinations, in 
that while they may result in State ownership, they also trigger legal 
responsibilities for other Federal agencies, such as the Corps of 
Engineers, EPA, and the Coast Guard.
    We support legislation to create a Commission. We would like to 
work with the Committee to refine provisions for duties, membership, 
and reporting, to best effectuate the purposes of the Commission. 
However, we believe a more systematic process is long overdue to 
identify navigable and non-navigable waters of Alaska, by far the 
nation's largest and most complex state with respect to these issues. 
The Commission can contribute significantly to the Federal and Alaska 
State governments working together in a more focused and productive way 
to resolve these important issues.
    In addition, OMB advises that S. 2587 has pay-as-you-go 
implications because of the commission compensation provisions. An 
estimate has not yet been developed.
    I thank you again for allowing me the opportunity to testify on 
this issue of such importance to the people and State of Alaska. I 
would be happy to answer any questions you may have.

                                S. 2016

    Mr. Chairman and members of the subcommittee, I appreciate the 
opportunity to appear before you today to present the views of the 
Department of the Interior on S. 2016, which would direct a land 
exchange between the Department of the Interior and Newtok Native 
Corporation. The purpose of this exchange is to provide a new site for 
the Native Village of Newtok, Alaska, on lands within the Yukon Delta 
National Wildlife Refuge on Nelson Island. The present village site is 
experiencing severe erosion along the banks of the Ninglick River. The 
average annual erosion rate is 90 feet per year, and it is expected 
that the land under the homes, schools, and businesses of Newtok will 
erode within eight years.
    We continue to support, and have supported from the onset, the 
desire of the residents of Newtok to relocate their village from its 
present site across the Ninglick River to an upland area on the Yukon 
Delta National Wildlife Refuge that is adjacent to other Newtok Village 
owned lands on Nelson Island.
    We have concerns, however, with the bill as currently written. Fish 
and Wildlife Service negotiations with Newtok seek to balance the 
necessity of the villagers to relocate to a new village site that is 
suitable and will accommodate the immediate and future needs of the 
Village, while also providing protection for wildlife and their habitat 
on the Refuge. We are optimistic that together we can reach an 
agreement through careful planning and continued negotiations that 
satisfies both parties.
    In November 1996, Newtok Native Corporation passed a resolution 
authorizing the Corporation to negotiate a land exchange with the 
Service. At that time, the Corporation identified approximately 19,000 
acres of Refuge land on Nelson Island that they deemed suitable and 
necessary for a new village site. Immediately thereafter, negotiations 
began, and by December 1997, the Regional Director for the U.S. Fish 
and Wildlife Service submitted an intent to exchange agreement for a 
21,427 acre exchange to Newtok Native Corporation.
    Newtok Native Corporation responded to the proposed agreement by 
reducing both the Refuge land they sought on Nelson Island to 14,750 
acres and their corporate land offered elsewhere to 11,105 acres. 
Negotiations were temporarily stalled over the amount of land to 
include in the exchange. When S. 2016 was introduced on March 14, 2002, 
Newtok's request for Refuge lands for a new village site on Nelson 
Island was reduced to 5,580 acres. We recommend that potential 
revisions to S. 2016 should include an amount of land that is of 
sufficient size to provide for the current and future growth of the 
Village and for its necessary infrastructure. Since the passage of the 
Alaska Native Claims Settlement Act (ANCSA) in 1971, the Village of 
Newtok has nearly tripled in population to about 321. Continued growth 
of the Village population must be considered in the planning for 
necessary infrastructure. There should also be a sufficient exchange of 
lands of high value to wildlife to balance or at least minimize, the 
loss of Refuge lands associated with developing undisturbed habitats in 
and around Nelson Island.
    We believe that surveys of the proposed Nelson Island lands should 
be conducted to determine the site and size for the Village. Without 
such surveys it is impossible to know with certainty whether the 
proposed exchange provides adequate resources for the Village and 
whether the future needs of the community can be met. We believe it is 
important to note that a description of the lands in the legislation at 
this time might result in the need for future adjustments.
    In addition, it is unclear how the proposed new village site might 
impact wildlife. In the current proposal, the proposed site is closer 
to Baird Inlet Island than the present village. The island supports a 
large colony of nesting Pacific brant. One of just five major Pacific 
brant colonies on the Refuge, Baird Inlet Island is a critical 
production area for these geese. During an average year, up to 4,500 
pairs of brant use Baird Inlet Island to nest and brood their young. 
Nests on this island comprise up to 25% of the colonial nests on the 
Refuge in any given year. Air traffic to and from a new airport, if 
routed directly over Baird Inlet Island, could cause disturbances to 
birds at critical stages in their life cycle as well as be potentially 
hazardous to aircraft and the safety of the flying public. Increased 
boating activity adjacent to the island would be an additional source 
of disturbance to the birds as villagers travel to and from their 
traditional subsistence use area northwest of the new village site and 
when supplies are brought into the new village. In addition to Pacific 
brant, other species likely to be impacted by the proximity of the 
Village and airport to the island are emperor goose, cackling Canada 
goose, Pacific white-fronted goose, the threatened spectacled eider, 
and muskox. The Service intends to address these issues with the 
Village during the NEPA review for the airport siting and construction.
    Current law authorizes the Secretary to conduct land exchanges in 
Alaska using either Section 22(t) of ANCSA, as amended, which provides 
authority to conduct land exchanges on the basis of equal value; or 
Section 1302(h) of the Alaska National Interests Lands Conservation Act 
(ANILCA), which provides for other than equal value exchanges if the 
parties agree to an exchange and the Secretary determines it is in the 
public interest.
    If the exchange is done on an equal value basis, we would urge the 
Committee to allow the Service to follow its standard appraisal 
process. The methodology provided in the bill for conducting the 
proposed exchange of lands does not follow the standard procedures used 
by the Service in appraising lands for either acquisition or exchange. 
We believe the proposed methodology could impede our ability to 
accomplish the exchange by setting timeframes and procedures that might 
be problematic for both parties.
    An additional concern is that, as drafted, the legislation is 
unclear as to whether selected lands being offered by Newtok will be 
deducted from ANCSA entitlement upon relinquishment of Newtok's 
selections. Native Corporations have no legal rights to selected lands 
until conveyance. If Newtok offers selected lands, they should be 
charged against their ANCSA entitlement or Newtok would be offering 
Federal lands in exchange for Federal lands on Nelson Island.
    Newtok has expressed concern over statutory and regulatory 
restrictions imposed by Section 22(g) of ANCSA on Corporation land 
within the boundaries of the Clarence Rhode Unit of the Yukon Delta 
National Wildlife Refuge. Only 589 acres of the Refuge lands identified 
for exchange at the new village site would be subject to Section 22(g) 
restriction. We agree that this legislation should direct that lands 
received by Newtok in this exchange be free from restrictions imposed 
by Section 22(g) of ANCSA.
    The proposed legislation as drafted, in Section 2(b), would exempt 
the conveyance of lands to the Newtok from all laws, rules, and 
regulations. This would prohibit the Service from administering other 
federal laws and regulations that do not apply strictly to refuge 
lands. Also, the United States has treaty obligations with many nations 
that require that certain resources are protected such as the Migratory 
Bird Treaty Act and the Marine Mammals Protection Act. Other laws such 
as the National Environmental Policy Act, the Endangered Species Act, 
the Clean Air Act, the Clean Water Act, etc., should apply on lands 
conveyed to Newtok, as they do throughout the United States.
    This same language in Section 2(b) jeopardizes the protection of 
valid existing rights. All Alaska Native and other legislation provides 
protection for valid existing rights. For example, an existing Native 
allotment application or certificate on refuge lands is a valid 
existing right and must be protected as such and that area would be 
excluded from conveyance to Newtok.

                        SUMMARY AND CONCLUSIONS

    While we have concerns with some of the details of the bill, we 
support legislation that directs the Service and Newtok to negotiate an 
exchange that insures adequate land is conveyed for village 
infrastructure. Once adequate lands are identified by the parties, the 
exchange can be completed through established land exchange procedures. 
With the terms of the legislation modified as suggested, the lands 
conveyed to Newtok would also be free of 22(g) restrictions. The 
exchange would protect refuge resources and include sufficient land to 
provide adequate resources and facilities for the Village.
    I appreciate the opportunity to comment on S. 2016 and the 
Department looks forward to working with Newtok representatives and the 
Committee to achieve the goal of relocation and reestablishment of the 
Village to more suitable terrain while protecting the fish and wildlife 
resources and their habitat within the National Wildlife Refuge System.

    Senator Wyden. Great. Thank you all, and thank you for your 
cooperation.
    Mr. Abbey, on S. 2612, let's go first to the question of 
water rights. Previous laws designating wilderness areas in 
Nevada have either expressly reserved the water right, or in 
the case of the Black Rock Desert Wilderness enacted last 
Congress, were essentially silent on the issue. Why is it 
appropriate to ignore the wishes of the Nevada delegation on 
this and create yet another standard?
    Mr. Abbey. Well, Senator Wyden, it is the position of the 
Department that we believe that this legislation should not 
construe or be construed to constitute either an expressed or 
implied reservation of any water rights. And again we would, 
you know, we would be the advocate for that position being 
accepted by the members of this committee.
    Senator Wyden. Well, I hope you will work with the two 
Nevada Senators on it. Beyond the fact that the Congress and 
this committee has traditionally deferred to the delegation 
with respect to these kinds of issues, it seems to me the idea 
of creating yet another standard is troublesome, so I hope you 
will work with us and we can get that resolved.
    Now with respect to wilderness issues, here we are talking 
about release language, and the release language in S. 2612 
differs from that used in previous BLM wilderness bills. You 
recommend incorporating management language that is ``widely 
understood and accepted.'' Do you all have any concerns with 
the standard wilderness study area release language?
    Mr. Abbey. We would not.
    Senator Wyden. On title IV, the bill designates 23,000 
acres of additional lands for disposal under the terms of the 
1998 Southern Nevada Public Lands Management Act. According to 
BLM data, the price of the lands average between $25,000 and 
$116,000, depending on the number of acres sold. So at those 
land prices, the bill appears to create several hundred million 
dollars in new direct spending. Has the Agency prepared any 
estimate of the probable costs of this bill for the lands 
identified for disposal under the Southern Nevada law and the 
value of the other lands that are designated for no-cost 
conveyances?
    Mr. Abbey. We could provide that information to the members 
of this committee.
    [The information follows:]

    We do not have precise or accurate values for each of the land 
transfers or disposals provided for in this bill. It would be a costly 
and time-consuming matter to complete appraisals to determine the 
values. However, let me briefly outline what I can.
    First, under Title IV of the bill, approximately 23,600 acres would 
be added to the Southern Nevada Public Land Management Act (SNPLMA) 
disposal area. The value of these lands will be dependent on a number 
of factors including, when they are sold, in what size parcels they are 
sold and what level of infrastructure is adjacent to the parcels.
    That being said, we can take some guidance from past experience. 
Sales of small parcels tend to result in higher per acre values than 
larger parcels, but location is the most critical element in value. Ten 
land sale auctions have been conducted since November of 1999 under 
SNPLMA. 187 individual parcels of BLM-managed public lands have been 
sold, totaling 2,782 acres. The average price per acre for these sales 
is approximately $56,000. The most recent sales in July and August of 
this year resulted in approximate price per acre of $153,000 and 
$77,000 respectively.
    Second, there are eight conveyances within the bill without cost to 
the benefitting entity. These total 19,788 acres. They range in size 
from 30 acres for low income housing to 15,500 acres for Clark County 
Airport Authority. In addition their location varies from urban to 
suburban to rural.

    Senator Wyden. Okay, good. We would like that promptly so 
we can move it.
    Just one question for you, Miss Kimbell. On S. 2652, there 
is a question with respect to the hiring of real estate brokers 
in order to sell the property in return for commission. It's my 
understanding that you already have reality specialists on your 
staff who could perform the work. Is there any reason for 
having to contract this out?
    Ms. Kimbell. The bill would authorize us to hire a broker 
and we have estimated that the use of a broker's service who is 
real familiar with the real estate values in the area, we could 
in the long term save money.
    Senator Wyden. So you're going to save money by contracting 
out?
    Ms. Kimbell. Yes.
    Senator Wyden. So what do the people on the Forest Service 
staff do?
    Ms. Kimbell. They are quite fully occupied already with all 
the realty work that we do as a normal course of business, so 
this would be an additional piece of business, and quite a 
large piece of work.
    Senator Wyden. We don't have any other questions. Anything 
you all would like to add? We will excuse you at this time.
    Our next panel, the Honorable Kem Hunter, mayor of Index, 
Washington; Clint Bentley, Nevada Land Users Coalition; and 
John Wallin, director of the Nevada Wilderness Project.
    We welcome all of you and again, we're going to make those 
prepared remarks a part of the hearing record completely, and 
if you could just possibly summarize your key concerns, that 
would just be great.
    Welcome, Mr. Hunter.

       STATEMENT OF KEM HUNTER, MAYOR, TOWN OF INDEX, WA

    Mr. Hunter. Thank you, Chairman Wyden. I appreciate your 
entering my formal testimony into the text, and therefore I 
will speak from the heart rather than from the text.
    Senator Wyden. Great.
    Mr. Hunter. First of all, I would like to thank you and the 
other members of the subcommittee for inviting me to testify 
today and I would also like to thank Senator Murray, Senator 
Cantwell, and Congressman Larson for cosponsoring this 
important legislation on the Wild Sky wilderness bill.
    Let me introduce myself. I am the mayor of the town of 
Index. We are a very small town, which is on the outskirts of 
the proposed wilderness area, we're just a few miles away from 
the closest boundaries. I have lived there for a long time, 
I've seen a lot of things happening to the town, and I firmly 
believe that this is one of the best things that could happen 
to our community.
    Some of the reasons for that is first of all, it's just an 
incredibly beautiful area. The area in the proposed wilderness 
has incredible spires, granite spires, mountains. It has flanks 
that are unbroken by miles and miles of forest. It has babbling 
streams, it has meadows, it has all the varied parts of an 
ecosystem that you could imagine that one would hope to have in 
a diverse wilderness area.
    Not only that, the wild and scenic Skykomish River runs 
right through town, and it's for this beauty that most of us 
moved up there. And most of us recognize that currently there 
is very little formal legislative protection for most of this 
land and most of us would really like to see this land stay 
wild rather than see more roads built or forest cut down, and 
we believe that a wilderness area designation is the most 
durable protection for that land.
    Another reason that we feel that the Skykomish wilderness 
area would be very good for us is for the economy. We have a 
problem in Index; there are very few local jobs. Most of us 
have to drive a long ways through congested corridors, and it 
would be really nice to have more decent job opportunities 
where we live. We believe that with this wilderness area and 
the hiking trails that are provided, that are hard wired into 
the legislation, which I believe is a very important feature, 
that more jobs will be created by the outdoor recreational 
community.
    Years ago we had a pretty good job source in forestry jobs, 
timber cutting, but the glory days of logging are long gone. 
The logging now is basically dictated by automated forestry 
practices that don't hire that many people, and they provide 
only temporary local employment.
    Also, the very beauty of the area that is caused by all 
these rugged and rocky features also makes most of the valley 
very economically marginal for the timber extraction. So I 
believe that what our town really needs now is jobs that stay 
with us, and we believe that the jobs that stay with us are 
those that are tied to this growing outdoor recreational 
market. With the guarantees in the legislation of a wilderness 
trail network, the old saying goes, you build the and people 
will come, we believe that more people will come and visit our 
area, and enjoy the beauty that we have enjoyed for years.
    We have small businesses in town that would really benefit 
from these visitors. We have bed and breakfasts, we have a 
couple of restaurants, we have a general store, we could have 
more businesses to employ more people.
    Remember that Index is within a 2-hour drive of about two 
million people, and Index would be the perfect starting point 
for the growing body of folks who would like to enjoy the 
outdoor recreational opportunities such as hiking, fishing, 
camping, rafting, and so on and so forth, that this wilderness 
area would protect.
    Then I would like to really point out in finishing my 
comments, and I'd like to finish on a more personal note. I'd 
like to tell you about years ago. I served my country in 
Vietnam. I spent 18 months in the steamy jungles and the murky 
rivers over there, and if you can imagine this, the weather 
there was quite often more hot and more humid than an August 
day in Washington, D.C., it was really dreadful. And one of the 
things that really got me through that 18 months is sometimes I 
would daydream about being in an Alpine forest with babbling 
brooks, with sparkling water and clean crisp air around me, and 
I just fantasized about being there, and the weather and 
conditions around me would go away for a while. I actually 
found such a place when I moved to Index in 1976, it was 
exactly what I was dreaming about back in Vietnam.
    And then I spent a long time just really enjoying and 
discovering the mysteries of the forests and the mountains 
around me, it was just a great experience. And during my 25-
year career as a firefighter in the Seattle Fire Department, 
after work I would go home to this beautiful place up in the 
mountains. It was so quite and so serene. A fire department 
career quite often today is very stressful, very difficult, 
very traumatic, and it was really a great opportunity for me to 
come back to a place like this where I could just enjoy the 
quiet and serenity of the natural beauty of where I lived, and 
unload all that baggage from a very stressful urban job.
    Someday, I'm going to be too old to enjoy this wilderness 
area. A lot of it is very rugged, the slopes are very steep, 
but I know that for me, it has been just a wonderful place for 
me to go and ease my mind and enjoy nature, and to just 
experience the beauty and quiet and solitude. There's plenty of 
other people that would have more opportunities to do this, if 
this wilderness area is created.
    I have children who grew up loving the beauty of this area, 
and some day I hope that my grandchildren will also come back 
to this area and enjoy it in the say ways that I have. And I 
think that is the best legacy that we could leave for future 
generations in this area. I would like to see the roadless 
national forest near my home left just as it is, I would like 
to see it intact, I would like to see it pristine, and yet I 
would like to see it still accessible so that these unborn 
generations for many years to come can enjoy it just as I have 
done.
    And that is really the true reason why I ask you to support 
the proposed Wild Sky Wilderness bill.
    [The prepared statement of Mr. Hunter follows:]

       Prepared Statement of Kem Hunter, Mayor, Town of Index, WA

    Chairman Wyden, Senator Craig, and other members of this 
subcommittee, I would like to thank you for giving me the opportunity 
to testify today on behalf of the proposed Wild Sky Wilderness bill. 
I'd also like to thank Senator Murray, Senator Cantwell, and 
Congressman Larsen for co-sponsoring this important legislation.
    I am the Mayor of the Town of Index, a small community located in 
the North Cascades mountain range in Washington State. If this proposed 
legislation passes, residents of our town will live within hiking 
distance of a wilderness area. I have lived in Index almost half my 
life, and I believe the proposed Wild Sky Wilderness would be the best 
thing that ever happened in this valley.
    We are indeed fortunate to live in a spectacular natural setting. 
From any street in town you can see magnificent peaks flanked by 
hillsides of unbroken forest as far as the eye can see. The wild and 
scenic Skykomish River runs right through town. In fact, the main 
reason many of us moved here was to be close to the awesome beauty of 
this pristine valley in the mountains. But even though most of the land 
around us is national forest, little of it has any formal legislative 
protection. Most of us would like the land to stay wild rather than see 
more roads built or forests cut down.
    One problem with living in Index is that there are few jobs in the 
local economy. Many of us have to drive long distances into congested 
urban corridors to find decent work. Most of those would prefer local 
employment if it were available. Decades ago, timber cutting provided 
good jobs. But today's automated forestry practices would provide only 
scant and temporary local employment. Further, the rugged, rocky 
features that make this valley so beautiful also leave it economically 
marginal for timber extraction.
    What our town really needs is jobs that stay with us, and jobs that 
stay with us are those that are tied to the growing outdoor 
recreational market. Index is within a two hour drive of almost two 
million people; our town is a perfect starting point for visitors who 
would come to enjoy this wilderness area. These visitors will boost our 
economy when they shop in our general store, stay in our B&B's, eat in 
our restaurants and hire our local river guides. This recreation based 
economy is clean, environmentally friendly, and enhances the quality of 
life for residents and visitors alike. Further, the lower reaches of 
this proposed wilderness are accessible all four seasons, so visitors 
would provide a year round boost to our local economy. If the roadless 
forest land around us is protected with wilderness area designation, 
this new economy could help sustain our community forever.
    I am especially pleased that, partly at my insistence, a promised 
network of wilderness trails in this new wilderness area is hardwired 
into the legislation. This provides me with a written guarantee that 
the national forest around us, while protected from environmental 
degradation, will also be managed in a way that invites people to enter 
and enjoy the wilderness and all of its serene beauty. I am also 
pleased that certain areas were intentionally excluded from the 
proposed wilderness area so that the snowmobile community could 
continue to enjoy their favorite destinations without clashing with 
those who seek more solitude.
    I would like to finish my comments on a more personal note. Years 
ago, when I was serving my country in the steamy jungles and murky 
rivers in Vietnam, I often dreamed of someday being in a quiet place 
back home surrounded by alpine forest, sparkling water and clean, crisp 
air. I found such a place when I moved to Index in 1976. I spent 
several decades exploring the back country around me and discovering 
its hidden secrets. The forests, rivers and mountains around me were a 
perfect refuge from the stress and rigors of my 25 year career as a 
firefighter in the Seattle Fire Department. Someday, I will be too old 
to scale the steep slopes rising from the valley in which I live. But I 
have children who grew up loving the beauty of this area, and 
grandchildren who will someday, I hope, do the same. The best legacy I 
can think of would be to leave the roadless national forest near my 
home just as it is: intact, pristine, yet still accessible, by 
protecting it so that it can be enjoyed by many generations yet unborn. 
That is why I ask you to support passage of the proposed Wild Sky 
Wilderness bill.

    Senator Wyden. Very good, thank you.
    Mr. Bentley.

    STATEMENT OF CLINT BENTLEY, FOUNDER, NEVADA LAND USERS 
                    COALITION, LAS VEGAS, NV

    Mr. Bentley. Chairman Wyden, committee members and staff, 
thank you for the opportunity to voice our position regarding 
S. 2612, the Clark County Public Lands Bill. My name is Clint 
Bentley and I represent the Nevada Land Users Coalition. The 
Nevada Land Users Coalition is formed up at present by the 
following types of groups: We have 11 State and national 
conservation groups, 6 sportsman groups, 5 off-highway groups, 
4 wildlife advisory groups, 2 town advisory boards, and 2 gem 
collection groups.
    This diverse group representing over 15,000 Nevadans are 
united behind the proposal and positions that we advocate. With 
the submittal of S. 2612, we had several meetings to digest the 
impact of the proposed wilderness areas, the NCA and WSA 
release areas, and the proposed language for these items. The 
consensus of the coalition was that Senator John Ensign and 
Senator Harry Reid had crafted a compromise bill that was a 
very responsible bill.
    They addressed the areas that met wilderness criteria and 
environmental concerns. Included was language that will permit 
proactive wildlife management, allow for the existing water 
guzzlers to remain, maintenance to be performed, and the 
development of new guzzlers if required. This bill also gives 
the managing land use agency the ability to manage wildfires. 
All of these items are very essential for the proper 
responsible management of the Mojave Desert and the Great 
Basin, due to their unique landscape and climatic conditions.
    We agree with the release of the 183,000 plus acres of WSAs 
that do not meet wilderness criteria. These lands clearly 
demonstrate their multiple use criteria. This will facilitate 
the additional needed multiple use areas and in some cases 
additional development areas. The Sloan Canyon National 
Conservation Area will be a great recreational resource if the 
management plan follows the intent with which it was submitted.
    Attached with the testimony is a copy of our proposal which 
differs from the proposed bill. However, we recognize that a 
compromise had to be made between our proposal and our 
environmental friends' proposal. Because of this, we recommend 
that you pass this proposed legislation as is. We felt that 
only areas that had previously been submitted as meeting 
wilderness criteria be made wilderness, and that all remaining 
areas should be released. That obviously is not what's in this 
bill.
    In numerous discussions with other Western State wildlife 
agencies, it became apparent that the need for specific 
wildlife management language was needed, and we applaud the 
language provided in this bill.
    Again, thank you for your time. If you have any questions 
regarding the coalition or our position, I would be pleased to 
answer them.
    [The prepared statement of Mr. Bentley follows:]

             Prepared Statement of Clint Bentley, Founder, 
               Nevada Land Users Coalition, Las Vegas, NV

    Chairman Wyden, Committee Members and Staff: Thank you for the 
opportunity to voice our position regarding S. 2612, the Clark County 
Public Lands Bill. My name is Clint Bentley, I represent the Nevada 
Land Users Coalition.
    The Nevada Land Users Coalition is formed up at present by the 
following types of groups.

          11--State and National Conservation Groups
           6--Sportsman Group
           5--Off Highway Groups
           4--Wildlife Advisory Boards
           2--Town Advisory Boards
           2--Gem Collection Groups

    This diverse group, representing over 15,000 Nevadans, are united 
behind the proposal and positions that we advocate.
    With the submittal of S. 2612, we had several meetings to digest 
the impact of the proposed wilderness areas, NCA and WSA release areas 
and the proposed language or these items.
    The Consensus of the Coalition was that Senator John Ensign and 
Senator Harry Reid had crafted a compromise that was a very responsible 
bill.
    They addressed the areas that met wilderness concerns. Included was 
language that will permit Pro-Active Management, allow for the existing 
water guzzlers to remain, maintenance to be performed and the 
development of new guzzlers if required. This bill also gives the 
managing land use agency the ability to manage wildfires.
    All of the these items are very essential for the proper 
responsible management of the Mojave Desert and the Great Basin, due to 
their unique landscape and climatic conditions.
    We agree with the release of the 183,000 plus acres of WSA's that 
do not meet wilderness criteria, these lands clearly demonstrate their 
multiple use criteria.
    This will facilitate the additional needed multiple use areas and 
in some cases additional development areas.
    The Sloan Canyon National Conservation Area will be a great 
recreational resource if the Management Plan follows the intent with 
which it is submitted.
    Again, thank you for your time and if you have any questions 
regarding the Coalition or our position, I would be pleased to answer 
them.

          A Petition to Hon. Harry Reid and Hon. John Ensign 
                      of the Great State of Nevada
Submitted by:

The Nevada Land Users Coalition Consisting of:

                        Best In The Desert
                        Bunkerville Town Advisory Board
                        Clark County Gem Collectors
                        Clark County Wildlife Advisory Board
                        Coalition for Nevada Wildlife
                        Ducks Unlimited Reno
                        Dunes and Trails ATV Club
                        Foundation for North American Wild Sheep
                        Fraternity of the Desert Bighorn
                        Gold Searchers of Southern Nevada
                        Lincoln County Wildlife Advisory Board
                        Mule Deer Foundation
                        National Wild Turkey Federation
                        Nevada Bighorns Unlimited
                        Nevada Bow Hunters Association
                        Nevada Outdoorsmen
                        Nevada Trappers Association
                        Nevada United Four Wheelers Association
                        Ormsby Sportsmen Group
                        Overton Conservation Society
                        Partners In Conservation
                        Pershing County Wildlife Advisory Board
                        Quail Unlimited
                        Safari Club International
                        Southern Nevada Off Road Enthusiasts
                        Southern Nevada Regional Trails Partnership
                        Trout Unlimited--Southern Nevada Chapter
                        Vegas Valley Four Wheelers
                        Washoe County Wildlife Advisory Board
                        Wildlife & Habitat Improvement of Nevada

Whereas:

    The public lands of Nevada are valuable far continued economic 
development, training for our national defense, human recreation and 
wildlife habitat.
    The continued disposal of federal lands and development of private 
lands continue to crowd, fragment and intrude upon the habitat of these 
desert wildlife species.
    Habitat improvements, such as water developments, have proven 
crucial in the reestablishment of desert bighorn sheep, upland game 
birds and numerous other wildlife, by mitigating some of the 
disturbances and habitat alterations of man.
    The Nevada Division of Wildlife, Bureau of Land Management, United 
States Fish and Wildlife Services and the United States Forest Service 
have made substantial commitments to a wide variety of wildlife species 
by cooperating and constructing water developments and are obligated to 
maintain these projects.
    The habitat crucial for the survival of these species within 
Southern Nevada is almost entirely managed by multiple agencies of the 
United States Government (Bureau of Land Management, United States 
Forest Service, United States Fish and Wildlife Service, National Park 
Service, Bureau of Reclamation, Department of Energy, Department of 
Defense).
    Wilderness as it is observed and managed by federal land management 
agencies is a limited recreational pursuit, with relevance to species, 
ecological concerns and scientific principles being largely incidental 
and accidental.
    Land, managed under wilderness criteria, e.g., areas of severe use 
restrictions, will constrain wildlife management and habitat, along 
with the recreational needs of the people of Nevada.

    The Nevada Land Use Coalition proposes the following:

    1. No portion of the Desert National Wildlife Range, will be 
designated as wilderness and will be released from wilderness 
consideration for the following reasons:

          A. Regardless of assurances, wilderness designation on 
        wildlife refuges and its attendant regulations, interfere with 
        necessary management activities for desert bighorn sheep and 
        other species of wildlife.
          B. Current management strategy for desert bighorn sheep 
        preserves characteristics of the area that would allow for 
        wilderness recreation experiences without the burden of 
        wilderness designation.
          C. The refuge is currently withdrawn from mineral, 
        exploration and extraction, thus not requiring any such 
        protection.
          D. Over half of the refuge is unavailable to public access 
        wilderness recreation due to military training activities.

    2. That Congress of the United States of America establish as 
wilderness the following areas:


Muddy Mountains............................   NV-050-229    36,850 acres
La Madre Mountains.........................   NV-050-412    42,005 acres
Pine Creek.................................   NV-050-414    22,966 acres
South McCullough Mountains.................   NV-050-435    19,558 acres
Lime Canyon................................   NV-050-231    13,895 acres
Mount Sterling.............................   NV-050-402    50,682 acres


    These recommendations were submitted by the Bureau of Land 
Management to the Secretary of the Interior on October 18, 1991, 
including the boundaries and the acreage recommended for wilderness as 
set forth in the final wilderness environmental impact statements.
    3. That Congress of the United States of America establish as 
wilderness the following areas:


Grapevine...............................................     7,834 acres
Newberry Mountains......................................    34,351 acres
Nellis Wash.............................................    16,072 acres
Ireteba.................................................    38,948 acres
Eldorado Mountains......................................    45,289 acres
Black Canyon............................................    16,444 acres
Temple Mesa.............................................    83,295 acres
Black Mountains.........................................    62,415 acres
Indian Hills............................................    33,974 acres
Lime Ridge..............................................    58,375 acres


    These recommendations were submitted by the National Park Service 
to the Secretary of the Interior in 1986, including the boundaries and 
the acreage recommended for wilderness as set forth in the Lake Mead 
National Recreation Area General Management Plan. The exception being, 
the wilderness area boundary for these areas, where they are bordered 
by Lake Mead, will be 1/4 mile inland from the existing high water 
line. This boundary will allow continued use of motorized water craft 
for wildlife and recreation management and public uses along this 
artificially created shoreline.
    4. That these areas be managed for wilderness values. It is the 
express intent of Congress, that modern proactive wildlife management 
continue with the following allowances for wildlife management.

          A. Wildlife management activity will continue in the form of:

                  1. Maintain full use of motorized vehicles, including 
                helicopters, to survey, capture, transplant and 
                monitoring wildlife populations, emergency repairs of 
                water guzzlers and the implementation of new guzzlers.
                  2. Existing wildlife water developments will remain 
                and be maintained, monitored and/or reconstructed in 
                designated wilderness to enhance wildlife populations 
                and be maintained, monitored and/or reconstructured by 
                motorized vehicle, including helicopters, gas, and 
                electrical tools.
                  3. Hunting and trapping will be utilized as a 
                management tool.
                  4. Maintain full use of motorized equipment, 
                including helicopters, to manage and remove feral 
                stock, and/or wild horses and burros.
                  5. Water developments and other wildlife management 
                structures may be constructed within designated 
                wilderness when:

                          A. The action will enhance wilderness values 
                        by promoting healthy viable wildlife 
                        populations, as identified in existing Habitat 
                        Management Plans (HMP) dated:

                                Muddy Mountain EA 1989
                                Highland Range Wildlife HMP 1969
                                Gold Butte HMP 1983

          B. Care is taken to construct and maintain projects so as to 
        visually integrate wildlife projects into the environment;
          C. Cherry stemmed roads, trails or ways will continue to be 
        allowed to provide public motorized access. There will be a 
        150-foot wide buffer zone along each side of the cherry stemmed 
        roads, trails or ways to provide adequate pull outs and camping 
        sites for the public;
          D. Fish and Wildlife species introduced by Nevada Division of 
        Wildlife, will be managed in wilderness areas in accordance 
        with Nevada Division of Wildlife's management policies;
          E. Habitat rehabilitation and restoration work will be 
        conducted as needs are identified (example: reseeding following 
        fires and riparian enclosure fences).

    5. Those lands managed by the Bureau of Land Management, U.S. 
Forest Service, National Park Service and U.S. Fish and Wildlife 
Service which are not designated for wilderness or as special wildlife 
habitat management shall be released from any wilderness consideration 
and will be subject to multiple uses as identified in the agencies land 
use plans.
    6. Those lands which are the Desert National Wildlife Range, under 
management of the U.S. Fish and Wildlife Service, under the Department 
of the Interior, shall be managed primarily for desert bighorn sheep 
for which this unit of the National Wildlife Refuge System was 
established and is managed under CFR Title 50, Chapter I, Subchapter C, 
Part 25, Subpart A, 25.11. No lands of the aforementioned refuge will 
be designated as wilderness.
    7. Those lands which are under the management of the Bureau of Land 
Management, under the Department of the Interior, shall be managed 
primarily for wildlife objectives as set by Nevada Division of Wildlife 
and compatible multiple use activities, as allowed for under CFR Title 
43, Chapter II, Part 2420, Subpart 2410.2, b.2; c.1, c.4 and c.5. All 
wilderness areas shall allow for the existence or habitat improvements 
and access for the maintenance of said improvements. Management plans 
will be developed for each area by the Bureau of Land Management, the 
Nevada Division of Wildlife and interested parties.
    8. Those lands within the State of Nevada which constitute the Lake 
Mead National Recreation Area (LMNRA) under the management of the 
National Park Service, under the Department of the Interior, shall 
continue to be managed for the unique wildlife and habitats with 
special consideration for desert bighorn sheep and compatible multiple 
use activities, as allowed for under CFR Title 36, Chapter I, Part 2. 
That management of those lands designated as wilderness within the 
LMNRA, shall not interfere with historic uses of wildlife or prohibit 
necessary management of desert bighorn sheep or their habitats.
    9. Mechanized equipment and motorized aircraft will be allowed to 
combat fires, insects and/or diseases and to initiate prescribed burns.

    Senator Wyden. Well said.
    Mr. Wallin.

              STATEMENT OF JOHN WALLIN, DIRECTOR, 
                   NEVADA WILDERNESS PROJECT

    Mr. Wallin. Chairman Wyden, members of the committee and 
their staffs, thanks very much for the opportunity to testify. 
My name is John Wallin. I am the director of the Nevada 
Wilderness Project, and I am here representing the Nevada 
Wilderness Coalition, which is made up of the Wilderness 
Society, Toiyabe Chapter of the Sierra Club, Red Rock Audubon 
Society, Nevada Outdoor Recreation Association, the Nevada 
Wilderness Project, and friends of the Nevada wilderness. We 
have about 7,000 members in Nevada and we represent nearly one 
million citizens across the country.
    On behalf of the coalition, I do want to thank Senators 
Reid and Ensign and their excellent staffs for the hard work 
that has gone into this legislation. The process has been fair 
and they have worked hard to listen to the concerns of all 
parties involved.
    Our coalition believes that S. 2612 is a good first step to 
wilderness protection in southern Nevada. That said, there is 
need for significant improvement in the bill. We won't go into 
too much detail because of time limitations, but highlighting a 
couple issues we have or major areas of concern.
    The release language is overly broad and may undermine 
Clark County's multi-species habitat conservation plan.
    Important wilderness areas in the Gold Butte region, the 
Spring Mountains, and the Highland Range, are left unprotected 
by the legislation.
    Wilderness management language may alter agency execution 
of the Act in a manner that undercuts the foundation of the 
National Wilderness Preservation System.
    Also, critical wildlife areas transferred to the 
administration of the U.S. Fish and Wildlife Service are 
currently opened up to speculative gravel mining, and that 
undermines the purposes of America's second largest wildlife 
refuge, the Desert National Wildlife Range.
    Also, the management language for the Sloan Canyon National 
Conservation Area lacks key protective provisions, and we would 
like to work with the committee to see they are put into 
legislation.
    While we are very grateful for the cooperation and 
straightforward goodwill of all this parties to this 
compromise, we must stress that this bill is a bottom line 
compromise and it is not a wilderness bill. It protects far 
less land than we believe deserves protection. Instead, it 
releases many deserving wilderness candidate areas from 
continued protection as BLM wilderness study areas, opens up 
much more land in Clark County to development, with serious 
environmental consequences, and as introduced, it contains 
troubling release and management issues that again, should be 
corrected.
    Our proposal, the citizens' wilderness proposal that the 
Nevada Wilderness Coalition has put forth, is the result of 
over 700 days of field work and over 6,000 photographs using 
GPS and topographic maps to do our inventory, and we came up 
with a regional approach to conservation of lands in southern 
Nevada, recognizing that county growth in Clark County affects 
all of the region of the Mojave Desert. And so, we had a 4.1 
million acre citizens' wilderness proposal.
    We also understand that this is a compromise bill and that 
while everything we are asking for is not in this legislation, 
we do want to point out that our proposal has received 
tremendous support in southern Nevada. A recent poll done by 
Mason Dixon, which frequently does polling for the Las Vegas 
Review Journal, conducted a poll on wilderness in Nevada, and 
over 79 percent of Clark County residents supported our 
proposal and only 17 percent were opposed, and that would have 
included approximately 1.9 million acres in Clark County alone.
    More than 100 businesses have endorsed the citizens' 
wilderness proposal and in addition, over 80 scientists just 
recently came out in support of the proposal. I can't stress to 
the committee enough that our coalition firmly believes that 
all the areas in our proposal should be designated as 
wilderness by Congress.
    Our coalition is very supportive of a number of the areas, 
including the additions to Mount Charleston Wilderness, the 
North McCullough Mountain Wilderness which is just south of the 
city and acts as a tremendous open space opportunity for the 
residents of the area. And also the Wee Thump Joshua Tree 
Wilderness is home to some of the largest and most spectacular 
Joshua trees in the United States.
    As I mentioned before, some of the areas that didn't 
receive the kind of protection they needed, the Gold Butte 
area, the Highland Range and the west side of the Spring 
Mountains, all of which I believe there are not significant 
conflicts with other parties to this compromise. It's a matter 
of perhaps having too much wilderness in the bill.
    Furthermore, several problematic cherry stems included in 
the bill need to be eliminated. One major example of a cherry 
stem slices deep into the South McCullough Wilderness. I have a 
letter hear from the only public lands rancher left in Clark 
County, his name is Cal Baird, in which he asks that the 
McClanahan Spring cherry stem in the bill is eliminated 
entirely, and I quote Mr. Baird. ``If this cherry stem is not 
eliminated, motorized vehicles, dirt bikes, ATVs, et cetera, 
will continue to harass my cattle, which has resulted in many 
injuries or deaths to my livestock.'' And I respectfully 
request that this letter be made part of the official hearing 
record.
    Senator Wyden. Without objection, so ordered.
    Mr. Wallin. So we also urge the committee to strengthen the 
wildlife management language found in section 208. Our changes 
are patterned after the 1984 Wyoming Wilderness Act and include 
language that makes it very clear that management actions that 
are taken must be determined to be the minimum necessary to 
accomplish the tasks.
    As you know, S. 2612 contains many non-wilderness titles. 
Several member organizations of the coalition have concerns 
regarding a number of these provisions. I have detailed written 
testimony from the Sierra Club with regards to the issues I 
have just noted and I respectfully request that their written 
testimony be made a part of the official record.
    Senator Wyden. Without objection.
    Mr. Wallin. In conclusion, we do have some concerns about 
the mineral withdrawal for areas of critical environmental 
concern, and we strongly support the protection of statutory 
mineral withdrawal language that is found in the bill as it's 
currently conceived.
    Thanks very much for the opportunity to present testimony 
today. Our coalition looks forward to working with members of 
the committee and the staff, and the offices of Senators Reid 
and Ensign on this legislation, and I'm happy to answer any 
questions that you might have.
    [The prepared statement of Mr. Wallin follows:]
 Prepared Statement of John Wallin, Director, Nevada Wilderness Project
    Chairman Wyden, members of the committee and staff, thank you for 
the opportunity to testify today. My name is John Wallin. I am the 
Director of the Nevada Wilderness Project, a Nevada-based grassroots 
conservation advocacy organization. I am here today representing the 
Nevada Wilderness Coalition (NWC).
    The Nevada Wilderness Coalition is made up of the Nevada Wilderness 
Project, Friends of Nevada Wilderness, The Wilderness Society, Toiyabe 
Chapter of the Sierra Club, Redrock Audubon Society, and Nevada Outdoor 
Recreation Association. Collectively our organizations directly 
represent more than 6,700 Nevadans and nearly one million citizens 
across the country.
    On behalf of the coalition, I would like to thank Senators Reid and 
Ensign and their excellent staff for the hard work that has gone into 
this legislation. Their process has been fair, and they have worked 
hard to listen to the concerns and recommendations from all interested 
parties.

S. 2612 REPRESENTS A GOOD FIRST STEP FOR WILDERNESS IN SOUTHERN NEVADA 
                         BUT NEEDS MANY CHANGES

    The Nevada Wilderness Coalition believes that S. 2612 is a good 
first step for Wilderness designation and protection in Southern 
Nevada. We are very pleased to see some of the most valuable wild 
places in Clark County receiving the protection they so desperately 
need. That being said, the legislation is in need of significant 
improvement. Before getting into our detailed comments on S. 2612, I 
would like to highlight some of our Coalition's major areas of concern.

  <bullet> The ``release'' language in S. 2612 is overly broad, may 
        undermine the Clark County Multi-Species Habitat Conservation 
        Plan, and must be corrected.

  <bullet> Important wilderness areas, particularly those in the Gold 
        Butte region, the West Side of the Spring Mountains, and the 
        Highland Range are left unprotected by the legislation and must 
        be addressed.

  <bullet> The Wilderness management language may alter agency 
        execution of the Wilderness Act in a mariner that undercuts the 
        foundation of the National Wilderness Preservation System.

  <bullet> Critical wildlife areas, transferred to the administration 
        of the U.S. Fish and Wildlife Service are opened up to 
        speculative gravel mining undermining the purposes of the 
        Desert National Wildlife Range.
  <bullet> The management language for the Sloan Canyon National 
        Conservation Area (NCA) lacks key protective provisions.
  <bullet> S. 2612 contains a number of non-wilderness titles that 
        concern several of our member organizations.

    While we are most grateful to Senators Reid and Ensign for their 
leadership, for the extensive and dedicated work of their excellent 
staff, and for the cooperation and straightforward good will of all the 
parties to this compromise. We must stress that this bill is a bottom-
line compromise, not a wilderness bill. It protects far less land than 
we believe deserves protection. Instead, it releases many deserving 
wilderness candidate areas from continued protection as BLM Wilderness 
study areas. It opens up much more land in Clark County to development 
with serious environmental consequences. And, as introduced, it 
contains troubling ``release'' and management provisions that must be 
corrected. Some member groups of our coalition also have concerns about 
several nonwilderness aspects of S. 2612.

              BACKGROUND ON SOUTHERN NEVADA'S WILD PLACES

    In order to give the Committee a better understanding of Nevada's 
wild landscape and the Wilderness potential that it contains, I would 
like to begin by providing some background information on Nevada's 
Mojave Desert region.
    The Nevada Wilderness Coalition is fortunate to work on behalf of 
one of the wildest, most ecologically diverse and beautiful landscapes 
in this country, Nevada's Mojave Desert region.
    Nevada's Mojave Desert lies between the Sonoran Desert to the south 
and the higher and cooler Great Basin to the north. This region is home 
to a wonderful array of plants and animals. At lower elevations Joshua 
tree, creosote bush, yucca and cacti abound while pinyon pines and 
juniper trees at higher elevations give way to the world's oldest 
living thing, the Bristlecone Pine, near some of Southern Nevada's 
higher summits.
    The Mojave Desert region of Nevada supports a unique biological 
community unlike any other on Earth. The lands in the Mojave Desert 
range in elevation from 500 feet to almost 12,000 feet and temperatures 
range from below zero at higher elevations to over 120 degrees F in 
some valleys. This range of climates provides incredibly diverse 
habitats, allowing more than 1500 plant and animal species to thrive in 
the region.
    From the snowy summits and pine forests of the Spring Mountains, to 
the deep shadows of Arrow Canyon, the unique sandstone sculptures of 
the Muddy Mountains, and the expansive views from the Grapevine 
Mountains, Nevada's Mojave Desert region invites people to escape, 
explore and discover. History buffs can ponder the meaning of enigmatic 
rock carvings. Hunters can search rugged cliffs for desert bighorn. 
Geologists can probe the history of Earth's evolution in rock 
formations. Hikers can explore timeless canyons in remote solitude.
    Despite the arid climate, wildlife thrives throughout the Mojave 
Desert. Desert bighorn, kit fox. golden eagles, owls, cougar and mule 
deer call the rolling arroyos and rocky mountainsides home. Numerous 
rare, threatened or endangered species of plants, animals, birds, 
reptiles, insects and fish can be found in the Mojave Desert. They 
include the desert tortoise, peregrine falcon, southwestern willow 
flycatcher and the yellow-billed cuckoo.
    Hidden in the mountains and valleys of Nevada's Mojave Desert 
region are clues to the people, climate, and landscape of the past. 
Fossils of long extinct animals and plants, and evidence of a 
dramatically different climate can be found throughout the region.
    On rock walls throughout southern Nevada, traces of ancient peoples 
exist in the form of petroglyphs, and pictographs. Ancient campsites, 
milling stones, agave roasting pits and stone walls, as well as 
scattered tools and pottery can be found in this vast landscape. Each 
time these artifacts are vandalized or stolen, we lose another clue to 
the lives of this area's first peoples.
    In addition, Nevada's Mojave Desert Region contains many places 
that are sacred to Native Americans and deserve protection for that 
reason alone.

                THREATS TO WILDERNESS IN SOUTHERN NEVADA

    The wild land of Southern Nevada is one of the most imperiled 
landscapes in the United States. There are many threats to the open 
space and wilderness character of the public lands in southern Nevada.
    A major threat to the wild nature of southern Nevada is the 
explosive population growth in the region. According to the Nevada 
State Demographers Office, Clark County's population is expected to 
exceed two million people by 2010. Approximately 6,000 people move to 
the Las Vegas Valley each month, making the Las Vegas area the fastest 
growing region in the nation. The next ten years will see an increase 
in the Clark County population of over 500,000 new residents. Of this 
number, approximately 200,000 people will be moving to the 
unincorporated parts of the county where increasing urbanization will 
strain the existing local infrastructure and present ever-increasing 
threats to our remaining open space and wild public lands.
    Another very large and growing threat to the natural environment of 
southern Nevada is the irresponsible use of dirt bikes and other off-
road vehicles. While some dirt bike and off-road vehicle users make an 
effort to stay on existing trails, there are thousands and thousands of 
instances where users have destroyed, damaged and fragmented habitat 
with irresponsible use. Attempts at public education have helped 
somewhat, however the ultimate solution lies in legislated Wilderness 
with visible and enforceable boundaries, thereby protecting wild areas 
from this increasing threat.
    Given the incredible diversity and beauty of the wild places found 
in southern Nevada, the important role they play in providing habitat 
for wildlife, open space and recreational opportunities for our 
communities, and the clean air and water they provide, the Nevada 
Wilderness Coalition has long advocated for their protection as 
Congressionally designated Wilderness areas.

     CITIZENS WILDERNESS PROPOSAL FOR NEVADA'S MOJAVE DESERT REGION

    For many years, volunteers and staff from the Nevada Wilderness 
Coalition have been exploring, inventorying, and advocating protection 
for special wild places in Southern Nevada. Together we have developed 
a comprehensive Citizens Wilderness Proposal for Nevada's Mojave Desert 
Region.
    The Nevada Outdoor Recreation Association began a comprehensive 
inventory of the wild resources found on lands managed by the Bureau of 
Land Management in Nevada decades ago. Information from their detailed 
review of the wild places in southern Nevada was incorporated into the 
Nevada Wilderness Coalition's updated inventory. In its preliminary 
investigations, the Nevada Wilderness Coalition identified the Mojave 
Desert ecoregion of southern Nevada as an area that, because of its 
exponential population growth and decades old Wilderness reviews by 
federal land management agencies, needed a reassessment and detailed 
on-the-ground inventory. Using data provided by all federal land 
managers, state offices and local government, a field inventory was 
initiated that began a systematic look at the remaining wildlands in 
southern Nevada's Mojave Desert. This process involved paid, as well as 
volunteer field crews who spent months traveling the wildest reaches of 
southern Nevada. The work entailed traveling to predetermined 
locations, and photographing any man-made impacts on the land and 
marking those locations on a topographic map using a GPS (Global 
Positioning System) unit to pinpoint the location. The NWC inventory 
procedure is complimentary to the inventory protocol that the Bureau of 
Land Management used during the late 70s and early 80s, although our 
process is more exacting and has the benefit of 21st century technology 
to guide it, such as advanced mapping software and GPS. The inventory 
protocol that the NWC used is consistent with methods used in Utah and 
Colorado where similar citizens' initiatives have been undertaken.
    This protocol yielded over 6,000 photos taken in over 700 days in 
the field. This information was then entered into a database that 
allowed it to be compared with current data from the major federal land 
managers, as well as state and local agencies. Utilizing ArcView 
mapping software, citizens' boundaries were delineated based on the 
fieldwork and on the additional information collected.
    Staff and volunteer efforts were directed towards collecting and 
analyzing every conceivable piece of information that may have some 
relevance to our proposal. Through these efforts, a cross-section of 
information was obtained from dozens of land management agencies, 
conservation organizations, and educational institutions. This 
information was then analyzed and interpreted by the Nevada Wilderness 
Coalition with an eye towards minimizing potential conflicts with other 
uses of the proposed Wilderness areas and identifying agency 
information that the NWC felt was contradictory or erroneous.
    The process led to the detailed ``Citizens' Wilderness Proposal for 
Nevada's Mojave Desert Region of 2001.''
    The Citizens' Wilderness Proposal for Nevada's Mojave Desert Region 
includes Wilderness recommendations for just over four million acres of 
public land within the Mojave Desert region of Southern Nevada. This 
includes public lands within Clark County and portions of Lincoln, Nye, 
and Esmeralda Counties. These lands are managed by the Bureau of Land 
Management, U.S. Forest Service, National Park Service and U.S. Fish 
and Wildlife Service. In many cases the NWC proposal for Wilderness 
corresponds to inventory work and Wilderness proposals developed by the 
various agencies. In other cases, we found previously overlooked areas 
which qualified for Wilderness designation.

               SUPPORT FOR CITIZENS' WILDERNESS PROPOSAL

    The Citizens Wilderness Proposal has received widespread support in 
Nevada. Last year, Mason-Dixon, an independent pollster that frequently 
conducts polls for the Las Vegas Review Journal conducted a poll on 
wilderness in Nevada. The poll showed overwhelming support in Nevada 
for the Citizen's Wilderness Proposal for Southern Nevada's Mojave 
Desert Region. Seventy-four percent of voters polled statewide favored 
the Wilderness proposal, which calls on Congress to designate 4.1 
million acres of Wilderness in Southern Nevada. Only 21 % opposed the 
proposal. Support for the Wilderness Proposal was even higher in Clark 
County, where most of the proposed Wilderness is located, with 79% 
supporting and only 17% opposed. The poll also found that Nevada voters 
believe that dirt bikes and other off-road vehicles are damaging the 
public lands in Southern Nevada. In addition, the poll showed 73% of 
Clark County respondents favored Wilderness designation as an important 
tool to protect open space and help ease the impact of urban sprawl.
    More than 100 businesses have endorsed the Citizens' Wilderness 
Proposal. In addition, over 80 scientists recently announced their 
endorsement for the Citizens' Wilderness Proposal for Southern Nevada. 
Steve Ellsworth, Chair of the Science and Technology Department at 
Sierra Nevada College in Incline Village said in a letter supporting 
the proposal, ``Wilderness designation is clearly the best way to 
safeguard air and water quality, protect open space, and maintain 
intact ecosystems. At a time when Nevada faces mounting environmental 
threats, this proposal is an excellent way for Nevadans to send a loud 
and clear message that protection of special environments in the Mojave 
Desert is important.''
    The Scientists' letter to Senators Reid and Ensign urged Congress 
to protect all of the remaining wildlands in Nevada's Mojave Desert, 
and stated that the Wilderness proposal offers broad-based protection 
for air and water quality as well as for habitat for plants and 
animals. It went on to say that Wilderness allows for natural 
ecological processes to occur, which keeps native landscapes healthy 
and diverse. Many of these scientists have spent decades researching in 
the Mojave Desert and have witnessed the deterioration of these 
landscapes due to inappropriate development, misuse, and mismanagement.
    Brett Riddle, Professor of Biological Sciences at UNLV recently 
said, ``by seeking to minimize the footprint resulting from human 
impacts, the Citizens Wilderness Proposal offers one of our most 
powerful tools for maintaining the integrity of ecological processes 
required to sustain biological diversity.''
    The Citizens' Wilderness Proposal for Nevada's Mojave Desert Region 
was presented to Nevada's congressional delegation, this Committee, and 
all of the relevant land management agencies in Nevada last year. The 
Nevada Wilderness Coalition continues to firmly believe that all of the 
areas in our proposal should be designated as Wilderness by Congress.

                  WILDERNESS DESIGNATED UNDER S. 2612

    S. 2612 incorporates some aspects of the Citizens' proposal, but on 
the whole, S. 2612 is a much more minimalist approach to wilderness 
protection in southern Nevada.
    There are several aspects of S. 2612 that the Nevada Wilderness 
Coalition welcomes.
    Given the haphazard approach to land use planning and development 
that has taken place in southern Nevada for decades, the Nevada 
Wilderness Coalition is extremely pleased to see the landscape-based, 
comprehensive approach to land use planning that S. 2612 embraces.
    S. 2612 does not simply address the urgent need for wilderness 
protections on land managed by the Bureau of Land Management in 
Southern Nevada, but also begins to address the need for additional 
Wilderness to be managed by the National Park Service and U.S. Forest 
Service. The Nevada Wilderness Coalition advocates looking beyond 
agency boundaries to envision Wilderness designations that make 
ecological sense. We are encouraged that Senators Reid and Ensign have 
begun this approach.
    The Nevada Wilderness Coalition is very supportive of the inclusion 
of all of the Wilderness areas in S. 2612. Many of the most threatened, 
scenic, and ecologically diverse wild places in southern Nevada will 
gain needed protection under S. 2612. These places include:


  <bullet> The popular Mt. Charleston Wilderness, which will be 
        expanded to include some lower elevation areas that are 
        important for wildlife.

  <bullet> Portions of the Muddy Mountains, one of the most awe-
        inspiring areas in southern Nevada.

  <bullet> The North McCullough Mountains, just outside the city limits 
        of Henderson will ensure the protection of open space on the 
        southern horizon of Las Vegas Valley.

  <bullet> The South McCullough Mountains provide excellent wildlife 
        habitat and recreational opportunities.

  <bullet> The Arrow Canyon Range Wilderness will protect a spectacular 
        wild mountain range for future generations.

  <bullet> Areas within the Red Rock National Conservation Area will 
        benefit from the Wilderness protection that they clearly merit.

  <bullet> Many beautiful and ecologically diverse areas within Lake 
        Mead National Recreation area and adjacent land managed by the 
        Bureau of Land Management will be protected as Wilderness under 
        S. 2612.

  <bullet> The Wee Thump Joshua Tree Wilderness area is home to some of 
        the largest and most spectacular Joshua trees in the United 
        States. The Joshua tree forest in this area rivals, or in our 
        mind surpasses the forest in the Joshua Tree National Park in 
        California.

  <bullet> Several areas that are sacred to American Indians, including 
        Spirit Mountain and Table Mountain and Arrow Canyon will be 
        protected.

    There are two Wilderness areas designated under S. 2612 that have a 
name that is already taken by an existing Wilderness Area, Pine Creek 
and Black Canyon. In our suggested legislative wording changes, which 
is attached to this testimony, we have recommended different names for 
these Wilderness areas.
    New Wilderness areas will be very beneficial to Nevada at a time 
when the Lt. Governor and the State Tourism Board are engaged in a 
campaign to show the rest of the nation the ``other side of Nevada.'' 
Wilderness areas could enhance our efforts to diversify our tourism 
base and recreational opportunities near Las Vegas.
    The new Wilderness Areas created under S. 2612 will protect an 
incredible range of wildlife habitat. Many culturally and historically 
significant petroglyphs and rock art panels will receive lasting 
protection under S. 2612. In addition, S. 2612 will ensure that future 
generations will be able to experience at least some portion of the 
wild landscape in Southern Nevada as it exists today.
    S. 2612 represents a good first step for Wilderness protection for 
Nevada's Mojave Desert Region. While the Nevada Wilderness Coalition is 
very supportive of these new Wilderness areas, and thankful to Nevada's 
Senators for advocating for their protection under S. 2612, significant 
problems remain in S. 2612 that we hope will be addressed by this 
Committee.

           NEVADA WILDERNESS COALITION'S CONCERNS ABOUT THE 
                    WILDERNESS COMPONENT OF S. 2612

    First, and foremost, we are troubled by the very large amount of 
land that is ``released'' from Wilderness Study Area status under S. 
2612. The lands contained in these Wilderness Study Areas have been 
managed to protect their wilderness values for more than twenty years. 
Releasing these lands is a step backwards for conservation in Southern 
Nevada. Many of the areas released from WSA status have no compelling 
rationale for their release. This is especially true in the Gold Butte 
region. Several of the released portions of WSAs are lower elevation 
areas that provide critical habitat for the Desert Tortoise and other 
imperiled species. We urge that the WSA status of these areas be 
continued.
    There are many deserving areas that do not receive protection under 
S. 2612. The three areas left out or significantly underprotected under 
S. 2612 that are most troubling to the Nevada Wilderness Coalition 
include the west side of the Spring Mountains, the Highland Range and 
the Gold Butte Region.
    The west side of Spring Mountains contains significant wilderness 
quality lands. These lands range from the lower elevation Mojave Desert 
upwards to an alpine environment. It is rare to find this spectrum of 
ecosystems in an intact, unfragmented state. The west side of the 
Spring Mountains is facing increased off-road vehicle use and habitat 
fragmentation. The rapid growth of the city of Pahrump is also placing 
pressure on this region. While S. 2612 designates some Wilderness in 
this area, it does not do justice to a region that deserves 
significantly more Wilderness protection. Furthermore, Mt. Stirling, an 
area recommended for Wilderness by the BLM, is not designated as 
Wilderness by S. 2612.
    The Highland Range is a biologically unique wilderness quality 
mountain range within Clark County. This area was recommended for 
Wilderness protection in the Citizens' proposal, yet receives no 
protection under S. 2612.
    The Nevada Wilderness Coalition is most troubled by the lack of 
Wilderness protection and significant release of WSAs in the Gold Butte 
region. The entire Gold Butte region deserves protection as a National 
Conservation Area or National Monument. The NWC advocated for 
significant Wilderness designation in this region to protect the 
important wildlife habitat and cultural and historic resources in the 
region. S. 2612, for lack of a better term, shortchanges the Gold Butte 
area. There is no compelling rational for the release of the Garrett 
Buttes Wilderness Study Area and portions of the Lime Canyon WSA. The 
lack of Wilderness designation for the Million Hills WSA and National 
Park Service recommended Wilderness under S. 2612 is, in our opinion, 
seriously shortsighted.
    Additionally, the Nevada Wilderness Coalition feels strongly that 
wilderness quality lands within the Desert National Wildlife Range 
should be designated under this legislation. The U.S. Fish and Wildlife 
Service has had Wilderness recommendations for this refuge pending 
before Congress for thirty years. There is no compelling reason not to 
act upon those recommendations under this legislation.
    Furthennore, several problematic ``cherry stems'' included in S. 
2612 need to be eliminated. One major example is the ``cherry stem'' 
that slices deep into the South McCullough Mountains Wilderness. This 
``cherry stem'' would not only disrupt an existing ranching operation, 
but would also be extremely difficult to enforce. This ``cherry stem'' 
should be closed at the end of the graded county road at McClanahan 
Spring.
    There are numerous site-specific boundary changes that the Nevada 
Wilderness Coalition would like to see made to the Wilderness areas 
designated in S. 2612. We believe that Wilderness boundaries should be 
based on on-the-ground features and avoid section and contour lines.

      SIGNIFICANT CHANGES NEEDED TO WILDERNESS MANAGEMENT LANGUAGE

    The Nevada Wilderness Coalition has significant concerns regarding 
the Wilderness management portion of S. 2612.
    Changes should be made to the ``release'' language in Section 207 
of S. 2612. As written, this could be interpreted to be ``hard release 
language'' which would prohibit areas released from WSA status from 
ever again being considered for Wilderness designation. Many Wilderness 
bills have dealt with release of WSA lands, and Congress has developed 
``boilerplate'' language that is acceptable to the Nevada Wilderness 
Coalition. Congress has never enacted hard release language. The Nevada 
Wilderness Coalition would not be able to support legislation with the 
current Wilderness release language included.
    As you know, Clark County and the U.S. Fish and Wildlife Service 
have reached an agreement a Multi-Species Habitat Conservation Plan 
(MSHCP) for listed species in Clark County. The release language of S. 
2612 requires that released areas ``shall be managed in accordance with 
the Clark County MSHCP.'' This plan was the result of years of research 
and negotiations. The Clark County MSHCP relied on Wilderness Study 
Areas to make up the bulk of the areas considered IMAs (areas intensely 
managed for protection of at-risk species.) This form of management 
must continue unchanged to ensure the integrity of the MSHCP. While the 
bill states that these areas are to be managed ``in accordance with'' 
the MSHCP and any amendments thereto, we believe that this language is 
not specific enough to provide the level of protection required by the 
MSHCP.
    We urge this Committee to strengthen the wildlife management 
language found in Section 208. We have attached our detailed suggested 
changes to this, our written statement. Basically, our changes are 
patterned after the 1984 Wyoming Wilderness Act, and include language 
that makes it very clear that management actions taken must be 
``determined to be the minimum necessary to accomplish the task.'' The 
language of the 1984 Wyoming Wilderness Act Committee Report embodies 
the congressional directives we believe that this Southern Nevada Bill 
must follow:

          ``The Committee views this language cage as allowing the 
        occasional, temporary use by Federal and State officials of 
        motor vehicles, helicopters, aircraft and the like, in 
        furtherance of the purposes of specific wilderness areas. The 
        Committee believes that this language means that any such use 
        should be occasional and temporary; that no roads should be 
        built to accommodate vehicles; and that such use must be 
        determined to be the minimum necessary to accomplish the 
        task.''

    We recognize that it may be necessary to add ``the designees of 
State officials'' in S. 2612 because volunteers play an important role 
in wildlife management.
    The Nevada Wilderness Coalition advocates changing S. 2612 to 
ensure that Park Service Wilderness in the Lake Mead National 
Recreation Area is placed into a separate title of the bill. The 
current wording implies that Park Service Wilderness will be subject to 
management language that is meant to apply to BLM Wilderness.
    S. 2612 includes language regarding valid existing rights, which we 
support. However, the language goes on to say, ``including rights to 
access the area.'' We believe that this language is unnecessary and 
confusing. Section 5 of the Wilderness Act clearly recognizes valid 
existing rights. In this regard, Sec. 203(c) is entirely unnecessary in 
view of the clear language of Sec. 5 of the Wilderness Act and nearly 
four decades of satisfactory experience with that process.
    Section 203(d) of S. 2612 which requires that any Wilderness area 
designated under this title retain a Class II air quality designation 
is unnecessary and would set a bad precedent for Wilderness areas. We 
feel it should be stricken from the bill.
    The overflights language, Section 205 goes beyond standard language 
for Wilderness overflights. We are hopeful that the committee will 
correct this problem by striking the words ``testing and evaluation''.
    We feel that Section 206 (dealing with Native American rights) 
should be changed to say, ``Nothing in this Act shall be construed to 
diminish the rights of any Indian tribe. Nothing in this Act shall be 
construed to diminish tribal rights regarding access to Federal lands 
for tribal activities, including spiritual, cultural, and traditional 
food gathering activities.'' (This language is based on the Steens 
Mountain Cooperative Management and Protection Act of 2000, which was 
approved and signed into law during the 106th Congress.)
    Section 210 of S. 2612, which deals with climatological data 
collection, appears to be a reoccurrence of language that was included 
in the Nevada Wilderness Act of 1989. We see no compelling need for 
this language in this legislation and believe that it should be removed 
from S. 2612.

 OTHER COMPONENTS OF S. 2612--MINERAL WITHDRAWAL FOR AREAS OF CRITICAL 
                     ENVIRONMENTAL CONCERN (ACECS)

    We strongly support the protection of Areas of Critical 
Environmental Concern (ACECs) by the inclusion of statutory mineral 
withdrawal language that is found in S. 2612. These withdrawals have 
been fully vested in the BLM's land management plan development process 
and are recommended in the final plan. Inclusion of legislative 
language supporting this direction will ensure the withdrawals are done 
immediately and at less cost to taxpayers.
 amendments to the southern nevada public land management act (snplma)
    Title IV of S. 2612 makes amendments to the Southern Nevada Public 
Land Management Act (SNPLMA). Section 401 amends SNPLMA to make money 
from the SNPLMA account available to regional government entities. We 
believe that this provision is unnecessary and has not been fully 
vested with the many interests who worked hard to develop the original 
SNPLMA.
    The Nevada Wilderness Coalition would support language in this 
section of S. 2612 that would allow for money from the SNPLMA account 
to be used for implementation and enforcement of the Clark County 
Multi-Species Habitat Conservation Plan.

                SLOAN CANYON NATIONAL CONSERVATION AREA

    The Nevada Wilderness Coalition is pleased to see the inclusion of 
the Sloan Canyon National Conservation Area in S. 2612. The NCA 
includes Sloan Canyon, home to a treasure trove of important 
petroglyphs just outside of the city limits. While our coalition feels 
that the Wilderness designation inside the NCA is too small, we are 
happy to see that the NCA includes Wilderness designation within the 
boundaries.
    In order to truly achieve the objectives for which the NCA is being 
created several language changes and additions need to be made to the 
legislation.
    Most importantly the NCA should have language stating that, ``The 
Secretary shall only allow such uses of the conservation area as the 
Secretary finds will further the purposes for which the conservation 
area is established.''
    S. 2612 should also have much clearer language with regards to off-
road vehicle use in the Sloan Canyon NCA. The Nevada Wilderness 
Coalition recommends language mirroring the Grand Canyon Parashant 
National Monument language, which states, ``all off road motorized and 
mechanized vehicle use is prohibited.''

                TRANSFER OF ADMINISTRATIVE JURISDICTION

    Under S. 2612, three BLM WSAs are transferred to management by the 
U.S. Fish and Wildlife Service. These WSAs are released from WSA status 
and made available for mineral extraction. NWC supports the transfer of 
these WSAs to the Fish and Wildlife Service and their inclusion in the 
Desert National Wildlife Range. However, we feel strongly that these 
lands should be designated as Wilderness and be subject to the same 
management as the rest of the Desert National Wildlife Range.
    While there has been some interest in aggregate development in the 
area, we feel there are significant aggregate resources in other 
portions of Clark County. Additionally, the area of disturbance for an 
aggregate mine may range from 5 acres (small borrow pit) to 200 plus 
acres for a large, ongoing operation on private land (example: Nevada 
Readymix) to 250 acres for a large community pit on BLM land. (Example: 
Lone Mountain pit currently has 8 permitted operators and disturbs 250 
acres). Setting aside more than 50,000 acres for aggregate mining seems 
incredibly excessive.

                              WATER RIGHTS

    The Nevada Wilderness Coalition is pleased to see that S. 2612 does 
not include a denial of federal water rights for Wilderness. The House 
version of this bill contains a denial of water rights. The House bill 
does not, as its sponsor claims, simply provide for state versus 
federal adjudication. All adjudication is state-based as has been made 
explicit by the Wilderness Act of 1964 section 4(d)(7). Rather, the 
House companion to this bill seeks to deny water rights to areas that 
may or may not have such rights. No such radical provision has ever 
passed the Congress and been signed into law. We want to make it clear 
that we will seek to defeat any bill that attempts such a blatant 
denial of environmental protection.

                  MEADOW VALLEY MOUNTAINS RIGHT OF WAY

    We are strongly opposed to Section 709, which would grant a right-
of-way through the Meadow Mountains Wilderness Study Area. First, this 
area lies outside of Clark County, which this bill has been limited to. 
Secondly, this WSA merits wilderness designation. And finally, the 
wording in the legislation would set a negative precedent for 
activities within WSAs.

                SUNRISE MOUNTAIN POWERLINE RIGHT OF WAY

    The Nevada Wilderness Coalition believes that the provision of S. 
2612 permitting an additional power line through the Sunrise Mountain 
Instant Study Area needs to comply with the National Environmental 
Policy Act (NEPA) so that a judicious decision is made on when, where, 
and to what extent another corridor needs to be pushed through this 
area.

   ADDITIONAL CONCERN REGARDING NON-WILDERNESS COMPONENTS OF S. 2612

    As you know, S. 2612 contains many non-Wilderness titles. Several 
member organizations of the Nevada Wilderness Coalition have concerns 
regarding a number of these provisions.
    Specifically, the non-Wilderness concerns expressed by some of 
NWC's member organizations include:

  <bullet> First, as mentioned earlier, changes in land designation and 
        land use has a significant impact on the MSHCP. Such is the 
        case with the release of WSAs, the expansion of the city's 
        disposal boundary and the establishment of the 2,640-foot wide 
        utility corridor along I-15. which threatens Desert Tortoise 
        Translocation Center--an IMA of unique and pivotal importance 
        to the MSHCP and the recovery of the threatened desert 
        tortoise. The MSHCP requires that there be no net unmitigated 
        loss of IMAs or LIMAs (less intensively managed areas). Some of 
        the NWC's member organizations contend that there must be an 
        analysis of the extent of the loss, and that a mitigation plan 
        must be developed and implemented before these land management 
        changes are put into effect.

  <bullet> Second, all of these land management changes are major 
        federal changes and as such should have complete review in an 
        environmental impact study under NEPA before they are put into 
        effect.

  <bullet> Third, in an attempt to alleviate some of the sprawl 
        inducing provisions included in S. 2612 and encourage 
        alternative commuting methods, some of the NWC's member groups 
        advocate reserving the 2,640-foot wide utility corridor along 
        I-15 in the Ivanpah Valley for utilities and transit instead of 
        utilities and transportation. There is also a great opportunity 
        for infill development in Las Vegas, and this should be 
        encouraged in the strongest manner possible.

    I have detailed written testimony from the Sierra Club with regards 
to the issues that I just noted. I respectfully request that their 
written testimony be made an official part of the Committee record.

                               CONCLUSION

    On the whole, the Nevada Wilderness Coalition believes that 
Senators Reid and Ensign have engaged in a fair process with admirable 
goals of protecting some of the wild landscape of southern Nevada. We 
believe that the Wilderness areas designated in S. 2612 represent a 
good first step for Wilderness designation in Nevada's Mojave Desert 
region. However, the Nevada Wilderness Coalition believes that the 
Committee should make significant changes to the Wilderness management 
language, improve boundaries, close several cherry stems, and safeguard 
several areas that remain unprotected.
    Even with passage of an unproved S. 2612, there are many more wild 
places in Nevada that truly deserve lasting protection as Wilderness. 
Nevada lags behind other western states in terms of the protection of 
its wild places. We look forward to working with the Nevada 
congressional delegation and this Committee to ensure that Nevada's 
magnificent wild lands are adequately represented in the National 
Wilderness Preservation System in the years to come. Additionally, 
while we have supported working on a county basis for this legislation 
because of the unprecedented threats to the wild areas in Clark County, 
we would prefer that future legislation designating Wilderness in 
Nevada take a larger view and not be limited to a county by county 
approach. These lands belong to all Americans, not just those who live 
closest to them.
    Again, thank you for the opportunity present testimony today. The 
Nevada Wilderness Coalition looks forward to working with members of 
the committee and their staff, and the offices of Senators Reid and 
Ensign on this important legislation. I am happy to answer any 
questions that you may have.

    Senator Wyden. Thank you all. Just a quick question, Mr. 
Hunter. How would you respond to the Forest Service proposal 
that some 20,000 acres of the bill should be protected through 
some other means than wilderness designation?
    Mr. Hunter. Chairman Wyden, I'm very glad you asked that 
question because one of the important things with the current 
proposed wilderness area is that it includes many lowland areas 
which support services proposed for exclusion. The importance 
of the lowland area inclusion in the wilderness area to us is 
that as currently proposed, it would provide accessible 
wilderness area all four seasons, and this would help to 
provide a boost for our economy.
    As well, it also includes a lot of ecological areas that 
might be excluded if these 20,000 acres were excluded from the 
wilderness area.
    Senator Wyden. Mr. Bentley and Mr. Wallin, do you think 
additional negotiations would be useful or would that just be 
going over plowed ground? It seems that you've made a good case 
that we ought to just get on with it, and I just want to get 
for the record your opinion on that.
    Mr. Bentley. Well, I believe that due to the contentious 
nature and the diverse nature of the groups, that at this point 
in time, I think both sides have been able to quell their 
radical portions and get them to accept the way that this has 
come into being at this point, and that further negotiations 
have a chance of providing and provoking a more contentious 
attitude and that therefore, the way it is presented is 
probably in the best form.
    Senator Wyden. Mr. Wallin, would you disagree with that?
    Mr. Wallin. I would slightly, and I think what I would say 
is that we have made tremendous strides working with Mr. 
Bentley and the groups that he represents, and I think we have 
a real formula for moving forward with cooperation.
    That said, it doesn't change some of the things that we 
believe undermine the integrity of the Wilderness Act and the 
National Wilderness Preservation System in terms of the 
wildlife management language, potential water rights problems 
that we may see introduced in the House version of the bill, 
and so I think that there are a couple of things that in a very 
short period of time could go from a difficult bill to support 
to something that is going to be quite outstanding for us to 
support.
    Senator Wyden. All right. Anything you would like to add 
further, or we will excuse you. Thank you all. We look forward 
to moving these bills quickly, and the subcommittee is 
adjourned.
    [Whereupon, at 4:05 p.m., the hearing was adjourned.]

                                APPENDIX

              Additional Material Submitted for the Record

                              ----------                              

   Statement of Larry Charles, Chairman of the Board and President, 
                 Newtok Native Corporation, Newtok, AK
    Mr. Chairman, members of the subcommittee, I am Larry Charles, the 
Chairman of the Board and President of Newtok Native Corporation, 
headquartered in Newtok, Alaska, where I live. We thank Senator 
Murkowski for introducing S. 2016 that directs Newtok and the Fish and 
Wildlife Service to exchange land. We thank the Senators on this 
committee for hearing our bill.

                               BACKGROUND

    Newtok is located in the Yukon-Kuskokwim Delta of western Alaska. 
The people of this region are Yupik and have lived along the Bering Sea 
coast for 2000 years. Living in the lands and waters of this great 
delta means that we live on land that shifts over time as the water 
currents change and deposit new soil. The present village has been 
occupied since 1949 after the villagers moved from another site that 
flooded.
    There are fewer than 300 residents of Newtok. The village is 
unincorporated and has no taxing authority. While some villagers are 
employed at the school, the clinic, by the Native corporation and as 
commercial fishermen, most villagers pursue a subsistence living. Fifty 
percent of the villagers live below the poverty level. Most villagers 
are shareholders in the Newtok Native Corporation. The Alaska Native 
Claims Settlement Act of 1971 authorized our corporation. Through that 
law, we have selected and have been conveyed lands in the vicinity of 
our village to provide good hunting areas for the villagers. 
Surrounding our village and all of our lands, the federal government 
owns the land and manages it as the Yukon Delta National Wildlife 
Refuge.
    This exchange legislation is necessary because our village is in 
danger of washing away within the next decade. Each year since the 
early 1950's, the shifting course of the nearby Ninglick River moves 
closer to the village. The erosion has been particularly rapid in the 
last decade. The changing course of the river also affects nearby delta 
wetlands and creeks causing subsidence in the village at this time. To 
save our village and our way of life, we must move Newtok to higher 
ground nearby.
    We have employed engineers and soil scientists who tell us that the 
most appropriate site for a new village is across the river on Nelson 
Island. There the land is higher, there are some limited gravel 
deposits for a road and an airstrip, and the river channel will allow 
boats and barges to tie up. However, much of that land is currently 
owned by the Fish and Wildlife Service.
    S. 2016 by Senator Murkowski was introduced to make an equal value 
land exchange with the Fish and Wildlife Service. Under the bill, 
Newtok would receive a small amount of land where we can rebuild a 
village. In exchange, the Fish and Wildlife Service would receive lands 
of high wildlife and waterfowl value from Newtok in an area called 
Aknerkochik. We support this legislation because after many years of 
trying to work with the agency, we believe that only Congress can help 
us complete an exchange before our village is lost.

               A FAILED EFFORT AT ADMINISTRATIVE EXCHANGE

    In 1997, Newtok Native Corporation approached the Fish and Wildlife 
Service to request an administrative land exchange in order to obtain a 
new village site on Nelson Island, an area of approximately 5,000 
acres. The agency responded enthusiastically, proposing a swap of 
21,400 acres of federal land surrounding the village site for up to 
34,200 acres of the corporation's land, including all of our best 
waterfowl hunting areas. The agency proposed to bear all costs of 
appraisals and agency paperwork.
    When Newtok objected to the scale of the proposed exchange and the 
loss of subsistence hunting lands, the Service wrote that ``to justify 
expenditure of public funds, the Service must receive high quality 
habitat.'' The small exchange proposed by Newtok ``greatly reduces the 
Service's interest.''
    Despite four years of meetings and many counterproposals, including 
proposals by Newtok to share costs, the agency has so far not accepted 
a more modest exchange. They insist that Newtok give up our best 
subsistence lands in order to obtain the new site.
    Newtok villagers make decisions slowly after extensive 
participation by everyone in the village. The villagers are willing to 
part with some of their hunting lands, but not all of the most 
important areas. They see no reason to receive more land from the 
government than they need. The Fish and Wildlife Service told us that 
Aknerkochik was their highest priority. It is 11,105 acres, much larger 
than the 5,580 acres of land we need for the new village. But they 
wanted many more of our lands as well. And they want us to take many 
acres of land with little wildlife and poor hunting. Since the agency 
will not agree with a more limited approach, Newtok Native Corporation 
and the Newtok Traditional Council have come to Congress to seek 
fairness and results before the village is lost.
    Therefore, Newtok requested Senator Murkowski and Congress to 
direct this small equal value exchange that will permit Newtok to 
obtain a small village site, retain most of our hunting areas, and go 
forward on the village relocation. We would give the Fish and Wildlife 
Service the area it said is most important but keep our other lands.
    S. 2016 bill will allow us to go forward.

                               CONCLUSION

    We understand that in recent months, Senator Murkowski and his 
staff have continued to speak with the Fish and Wildlife Service in an 
effort to gain their support for the legislation. We will support 
reasonable changes in the bill if it will help us make a fair exchange 
in a timely manner and at reasonable cost.
    Thank you for letting us testify in favor of S. 2016 even though we 
could not travel to Washington to speak to you in person. We hope you 
will be able to help us by passing a fair bill for a fair exchange, one 
that allows us to move our village to safer ground and to continue to 
live as we have for many years to come.
                                 ______
                                 
 Sierra Club Testimony for the Subcommittee on Forest and Public Lands 
    Hearing on Clark County Conservation of Public Land and Natural 
                         Resources Act of 2002

    Thank you for the opportunity to submit this testimony on S. 2612, 
the Clark County Conservation of Public Land and Natural Resources Act 
of 2002.
    We would first like to thank Senator Reid and Senator Ensign for 
introducing this legislation to permanently protect several important 
wilderness areas in southern Nevada. We strongly support the wilderness 
designations and we agree with the Nevada Wilderness Coalition's 
testimony suggesting management language changes and increases in 
wilderness protections.
    We also applaud the Senators for creating the Sloan Canyon National 
Conservation Area. It recognizes the extremely important but fragile 
cultural resources in that location and the need to preserve them and 
the surrounding natural areas, for our national heritage and for future 
generations.
    Finally, we strongly support the protection of Areas of Critical 
Environmental Concern (ACECs) by including statutory mineral withdrawal 
language. These withdrawals have been fully vetted in the land 
management planning process and are recommended in the final plan. 
Including legislative language that supports this planning process will 
ensure that the withdrawals are done more quickly and at almost no cost 
to taxpayers.
    There are two major issues of concern in addition to those already 
presented by the Nevada Wilderness Coalition in its testimony for S. 
2612. The two issues are: habitat and species protection required by 
federal environmental law and urban sprawl and its attendant problems.
    The first issue involves the need to fully evaluate and mitigate 
for the environmental consequences to any land use changes affected by 
trades, sales, conveyances, or creation of rights of way or corridors 
under the legislation. The federal laws governing these issues include 
but may not be limited to the Endangered Species Act (ESA) and the 
National Environmental Policy Act (NEPA).
    Regarding the ESA, our concerns include both the cumulative and the 
specific effects this legislation may have on Clark County's Multiple 
Species Habitat Conservation Plan, the MSHCP. This plan has been 
developed after many years of work to ensure compliance with the ESA 
while allowing Clark County to continue to grow at an astounding rate. 
Any land use changes may jeopardize the validity of the MSHCP. 
Specifically, the plan requires ``no net unmitigated loss'' of two 
categories of managed land. Various elements of S. 2162 change the 
management of portions of habitat assumed to be protected under the 
MSHCP, and so the loss of protection of that land requires mitigation. 
However, S. 2162 prescribes no specific mitigation. Further, no overall 
analysis has been undertaken, to our knowledge, to review what types of 
habitat, how much, and which species are affected by the various 
elements of the bill. Indeed, this analysis probably requires a full 
environmental impact study.
    The following are the major concerns we have been able to identify 
which may invalidate the MSHCP:

          1. All released Wilderness Study Areas (WSAs) have been 
        identified as ``IMAs'' or Intensively Managed Areas [to protect 
        species] by the BLM as part of the MSHCP. This form of 
        management must continue unchanged to ensure the integrity of 
        the MSHCP. While the bill states that these areas are to be 
        managed ``in accordance with'' the MSHCP and any amendments 
        thereto, we are not certain that this language is specific 
        enough to address this concern. The bill's language needs to 
        make sure that the former WSAs continue to be managed as 
        Intensively Managed Areas under the Clark County MSHCP.
          2. The Ivanpah Corridor is a 1/2-mile-wide right-of-way 
        corridor between a proposed airport site and Las Vegas. The 
        Ivanpah Corridor along with the Ivanpah Airport Environs 
        Overlay District land transfer currently is an IMA under the 
        MSHCP. It provides habitat protection for the desert tortoise 
        and the white-margined beardtongue, both federally protected or 
        sensitive species. The west side of the Ivanpah Corridor 
        directly impacts the desert tortoise translocation center, the 
        place where tortoises are released after they are removed from 
        areas under development. Land use changes that affect either of 
        these species significantly impacts the MSHCP and thus requires 
        mitigation.
          3. There are additional land use changes whose impacts on the 
        MSHCP have not been assessed, nor has any mitigation plan been 
        developed. The MSHCP requires no net unmitigated loss to either 
        intensively managed areas (IMAs) or less intensively managed 
        areas (LIMAS), which are two of the four land use areas managed 
        by the MSHCP. There needs to be a complete analysis of 
        cumulative losses to IMAs and LIMAS under the MSHCP. Land use 
        changes that need to be assessed include, but are not 
        necessarily limited to, the change in the disposal boundary to 
        the north and west of North Las Vegas and Las Vegas, two new 
        utility rights-of-way, and other land sales and conveyances. 
        While there may be no impact on the MSHCP from one specific 
        change in land use, no change should go forward without full 
        analysis and mitigation of the cumulative impacts of all 
        elements of the legislation.

    A positive element of the legislation that may not need to be 
mitigated as habitat loss is the conveyance to the city of Henderson 
for conservation and other purposes (Section 708, Open Space Land 
Grants, Tract B). A review of the resource values and the proposed 
management of the land is needed to determine if and how this parcel 
could serve to protect habitat and species under the MSHCP.
    To summarize our concerns on the MSHCP:

  <bullet> Land use changes contained in this legislation may have a 
        major impact on the assumptions and plans underlying the 
        approval of Clark County's MSHCP by U.S. Fish and Wildlife 
        Service regarding compliance with the Endangered Species Act.

  <bullet> To address this concern, the legislation should require (1) 
        a complete analysis of the impact of changes in land 
        designations, management and ownership, to the species and 
        habitat needs addressed by the MSHCP and, (2) to the extent 
        that these changes cause a net loss of habitat or protections, 
        a mitigation plan approved by U.S. Fish and Wildlife Service 
        needs to be developed and implemented PRIOR to any changes in 
        land ownership, use or management that would affect current 
        habitat protections.

    The changes to land designations such as land trades, sales and 
conveyances, and the creation of new corridors and rights of way are 
major federal actions in themselves. They are major federal actions 
that we already know hold the potential to jeopardize the Clark County 
MSHCP and thereby violate the Endangered Species Act. Taken together, 
these actions need to be assessed through an environmental impact 
statement (EIS). We would like to ensure that any proposed changes to 
these lands' designation, management or ownership resulting from the 
legislation has a full NEPA review prior to that proposed action taking 
place.
    The second major issue is urban sprawl--that is, the likelihood of 
the bill exacerbating urban sprawl and the negative environmental 
impacts associated with it.

          1. Most troublesome is the creation of a 1/2-mile-wide 
        corridor along I-15 for ``the placement of utilities and 
        transportation'' between Las Vegas and the proposed new airport 
        at Ivanpah 30 miles away. Although this legislation does not 
        specifically allow land transfers within or adjacent to most of 
        the corridor, the pressure to urbanize the entire length of 
        this area will be huge and indeed proposals are already being 
        developed to do so. This will require new infrastructure; it 
        will create additional air pollution in a region already 
        seriously out of compliance for particulate matter (PM 10) and 
        carbon monoxide. There are water questions that haven't even 
        been begun to be asked. Inappropriate, leapfrog development 
        would put years of air quality planning in jeopardy and should 
        be avoided. Some of the sprawl pressure can be relieved by 
        modifying the language to state ``the placement of utilities 
        and transit,'' and clarifying in report language that new 
        transit would not allow new highway lanes but only some form of 
        light rail or similar public transportation. Creating a simple, 
        convenient, quick way for residents of the city of Las Vegas to 
        commute to and from work at the new airport would greatly 
        decrease the pressure to urbanize the Ivanpah Valley.
          2. Other elements of the bill also contribute to urban 
        sprawl. One is the change in the disposal boundary allowing 
        additional development on the northwest fringe of the metro 
        area of Las Vegas; another is the potential development of 
        Nellis A, B and C, which we would prefer to see left as open 
        space or in passive park status. Clark County's air quality 
        planning has been based on the current disposal boundary; an 
        expansion of that boundary could force the county further out 
        of compliance with clean air laws. In general, the bill leads 
        to an overall net loss in public land and open space in the 
        county, which is important not only for habitat, but for clean 
        air and people's quality of life. We would like, before this 
        bill is passed, to have available a fuller evaluation of the 
        acreage affected by each section and a better picture of the 
        total impacts of these land use changes and transfers.
          3. We believe that the Henderson Economic Development area 
        would be an excellent place to use the County's mixed-use 
        zoning code and create village-style development that has 
        residential, retail and commercial areas closely linked with 
        pedestrian, bike and transit access. This type of development 
        could be a model for other development in Clark County to 
        minimize negative impacts of growth. While we realize this is 
        not something that can be federally legislated, the Senators' 
        leadership in encouraging this type of development would be 
        influential.
          4. The legislation in its current form lacks clarity 
        regarding location of rights of way, acreage of affected 
        changes, and other key facts. We hope the Senators will address 
        these issues prior to the bill's moving forward so that 
        citizens and federal land managers will be able to analyze its 
        potential impacts more completely.
          5. On the plus side of the urban sprawl concern, we support 
        the intention to create affordable housing within the metro 
        area and would encourage other infill areas to be considered in 
        the future for this purpose as a way to assist our community 
        without contributing to urban sprawl.

    To summarize, we are pleased that some of the most valuable and 
wild places in Clark County will receive the protection they need, 
particularly in the form of Wilderness and National Conservation Area 
designations. We believe this is a good first step for wilderness in 
southern Nevada and we applaud the delegation for these efforts.
    However, we are concerned with the impact of changes in land 
management, ownership or use on the County's Multi-Species Habitat 
Conservation Plan, and we believe a full evaluation and mitigation 
program should be in place prior to making any of the changes allowed 
in the legislation. We further would like to ensure complete compliance 
with all federal laws, particularly NEPA, prior to these major federal 
actions going forward.
    We are also concerned about the potential for elements of this 
legislation to exacerbate urban sprawl and further degrade air quality, 
traffic, water and related problems. We look forward to working with 
the delegation and committee to look to address these concerns.
    Thank you very much for this opportunity to provide input on this 
important legislation.
                                 ______
                                 
                                   Bow & Arrow Ranch, LLC.,
                                           Jean, NV, July 28, 2002.

    Dear Senator Wyden: Please make this letter a part of the official 
hearing record regarding Senate Bill 2612, a bill which would protect 
many important wild places in Southern Nevada as wilderness.
    As a good steward of the land and student of holistic resource 
management, I strongly support the proposed boundaries for the Southern 
McCullough Wilderness Area, with one important change. I know these 
boundaries like the back of my hand because my cow camp is located at 
McClanahan Springs, right next to the wilderness boundary.
    The important change I am asking for is this: totally eliminate the 
proposed ``cherry stem'' access route that starts at the end of the 
existing county road at McClanahan Springs and then cuts deep into the 
heart of the wilderness.
    If this ``cherry stem'' is not eliminated, motorized vehicles, dirt 
bikes, ATV's, etc. will continue to harass my cattle--which has 
resulted in many injuries and deaths to my livestock.
    Furthermore, If the ``cherry stem'' is not closed off right at the 
new wilderness boundary, the BLM law enforcement will never be able to 
keep these vehicles restricted to the access route. Once they get on 
the ``cherry stem'' they will be able to cross through wilderness to 
another cherry stem and elude BLM law enforcement.
    I am the only public lands rancher left in Clark County. I urge you 
move quickly to remove this proposed ``cherry stem'' and stop the 
motorized access at the end of the existing county road, along the 
western edge of the wilderness boundary.
            Thank you,
                                                 Cal Baird,
                             Jean Lake Allotment Grazing Permittee.


</pre></body></html>
